<html>
<title> - THE STATUS OF THE FEDERAL SUPERFUND PROGRAM</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
              THE STATUS OF THE FEDERAL SUPERFUND PROGRAM

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                    FINANCE AND HAZARDOUS MATERIALS

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 23, 1999

                               __________

                           Serial No. 106-44

                               __________

            Printed for the use of the Committee on Commerce



                       U.S. GOVERNMENT PRINTING OFFICE
55-642 CC                      WASHINGTON : 1999



                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    THOMAS C. SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

            Subcommittee on Finance and Hazardous Materials


                    MICHAEL G. OXLEY, Ohio, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     EDOLPHUS TOWNS, New York
  Vice Chairman                      PETER DEUTSCH, Florida
PAUL E. GILLMOR, Ohio                BART STUPAK, Michigan
JAMES C. GREENWOOD, Pennsylvania     ELIOT L. ENGEL, New York
CHRISTOPHER COX, California          DIANA DeGETTE, Colorado
STEVE LARGENT, Oklahoma              THOMAS M. BARRETT, Wisconsin
BRIAN P. BILBRAY, California         BILL LUTHER, Minnesota
GREG GANSKE, Iowa                    LOIS CAPPS, California
RICK LAZIO, New York                 EDWARD J. MARKEY, Massachusetts
JOHN SHIMKUS, Illinois               RALPH M. HALL, Texas
HEATHER WILSON, New Mexico           FRANK PALLONE, Jr., New Jersey
JOHN B. SHADEGG, Arizona             BOBBY L. RUSH, Illinois
VITO FOSSELLA, New York              JOHN D. DINGELL, Michigan,
ROY BLUNT, Missouri                    (Ex Officio)
ROBERT L. EHRLICH, Jr., Maryland
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Fields, Hon. Timothy, Jr., Assistant Administrator, Office of 
      Solid Waste and Emergency Response, Environmental 
      Protection Agency..........................................    13
    Guerrero, Peter F., Director, Environmental Protection 
      Issues, General Accounting Office..........................   132
    Kerbawy, Claudia, Chair, Federal Superfund Focus Group, 
      Association of State and Territorial Solid Waste Management 
      Officials..................................................   142
Material submitted for the record by:
    Dingell, Hon. John D., a Representative in Congress from the 
      State of Michigan, letter dated April 12, 1999, to Timothy 
      Fields, Acting Assistant Administrator for Solid Waste and 
      Emergency Response, Environmental Protection Agency, 
      enclosing questions for the record, and responses to same..   157

                                 (iii)

  


              THE STATUS OF THE FEDERAL SUPERFUND PROGRAM

                              ----------                              


                        TUESDAY, MARCH 23, 1999

                  House of Representatives,
                             Committee on Commerce,
           Subcommittee on Finance and Hazardous Materials,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2123, Rayburn House Office Building, Hon. Michael G. Oxley 
(chairman) presiding.
    Members present: Representatives Oxley, Tauzin, Greenwood, 
Largent, Ganske, Shimkus, Wilson, Fossella, Blunt, Ehrlich, 
Bliley (ex officio), Towns, Engle, DeGette, Barrett, Luther, 
Capps, Pallone, and Rush.
    Staff present: Nandan Kenkeremath, majority counsel; Amit 
Sachdeb, majority counsel; Anthony Habib, legislative clerk; 
Richard Frandsen, minority counsel; Alison Berkes, minority 
counsel, and Anne Zorc, minority legislative intern.
    Mr. Oxley. The subcommittee will come to order.
    The Chair will recognize himself for an opening statement 
and then recognize members in order of appearance.
    Our topic today is the Superfund Program, but it is not 
like we haven't been here before. This subcommittee has held 
over 25 hearings on Superfund over the past 6 years, both here 
in Washington and on the road. I am pretty sure I have been at 
all of them. Just call me the Cal Ripken of Superfund Reform.
    The message we are likely to hear today is sites are 
finally starting to work their way through the pipelines. Given 
that a lot of those sites have been on the NPL since the 
1980's, I would certainly hope that we would be seeing remedies 
finally being selected. Close to half are finally in a phase 
called ``construction complete.'' Final cleanup remains in the 
distance, and the litigation pipeline in steering thousands of 
parties will remain for years and years.
    The sad truth is that, during the nearly 20 years of 
CERCLA, we could have been cleaning up sites with greater speed 
and less waste while protecting people's health and the 
environment. Despite several rounds of administrative reforms, 
the Superfund statute itself remains fundamentally flawed. The 
liability scheme is unfair and is better suited to courtroom 
fights than cleanup sites.
    The remedy selection process is often unrealistic, and 
Superfund creates disincentives and uncertainty for State and 
voluntary cleanups for a lot of the work that is getting done 
these days. The quality of our Nation's most prominent cleanup 
program does matter. When sites stay abandoned because of 
Superfund's vagaries, people suffer; neighborhoods suffer; 
cities and towns suffer.
    I still believe that there is a bipartisan majority in the 
House and a broad number of stakeholders for significant 
changes in the Superfund statute. The litigation pipeline is 
still causing injustice. According to States, cleanup 
contractors, and realtors, Superfund is still creating a 
disincentive for thousands of brownfields sites. If we don't 
take the recommendations of the States and cleanup contractors 
to fix Superfund, cleanups will continue to languish and 
development will continue to push out into the pristine rural 
countryside.
    Many Members of Congress have worked on a bipartisan basis 
over the last 6 years with State cleanup agencies, cleanup 
engineers, and dozens of experts to develop statutory changes 
that would make a real difference. Many of those proposals have 
lasting value and are worth exploring. We also have to realize 
that, for reforms to move forward, they need bipartisan 
support.
    Today, we welcome Mr. Tim Fields in what I believe is his 
first appearance in front of the subcommittee since he was 
formally named as Assistant Administrator. We welcome back 
Peter Guerrero with the GAO, which has compiled an impressive 
body of work critiquing the Superfund Program. I also think it 
will behoove all of us to listen closely to the State 
perspective that will be presented by Ms. Claudia Kerbawy, who 
has traveled here from Michigan on behalf of ASTSWMO.
    State agencies are cleaning up many more sites than the 
Federal Government at this time. States are closer to the 
problem, closer to local governments, and have less 
bureaucracy. Their efforts point to the way of the future. I 
will be turning to all of today's witnesses, other 
stakeholders, and members on both sides of the Chair for more 
information, the right formula, and the right opportunity for 
positive results.
    Yogi Berra once observed it is all deja vu all over again. 
I hope that those in this room don't feel that way. Maybe it is 
because the optimist in me comes out during spring training, 
when all teams are equal and the Tigers have as good a shot at 
the World Series as anybody else, but I certainly think we can 
definitely improve on a status quo that has been 
unsatisfactory. I'm ready to play ball, if others are.
    The Chair now recognizes the gentleman from New York, the 
ranking member of this subcommittee, Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman. First of all, 
let me thank you for holding this hearing, and I would like to 
welcome our witnesses today to our oversight hearing on the 
current status of the Superfund Program.
    In the last year, 31 additional non-Federal sites have been 
listed on NPL, as physical cleanup actions to mitigate threats 
to human health and the environment have taken more than 50 
percent of the these newly listed sites. These statistics 
reflect tremendous progress on the ground in our neighborhoods, 
protecting the health of our citizens from toxic waste.
    Mr. Chairman, it would be unwise and counterproductive to 
make comprehensive changes to the program at this point. Such 
changes would also likely lead to a slowdown in Superfund 
cleanups. This is a result I hope none of us wish for, even 
though delay may be a strategy employed by some of those 
responsible for contamination at certain sites.
    Let us focus on brownfields and areas where we essentially 
agree on liability clarification for the prospective bona fide 
purchases and developers, innocent landowners, and contiguous 
property owners.
    The President's budget invests approximately $92 million in 
the cleanup and redevelopment of abandoned industrial sites 
through EPA's Brownfields Program, including $35 million for 
the brownfields revolving loan fund, which helps communities 
leverage funds for the actual cleanup of brownfields sites.
    We should ensure the successful program which has assisted 
350 communities continues, with the full support of this 
Congress, by recognizing that over the last 4 years EPA has 
listed on the Superfund National Priorities List only those 
sites that the States are unwilling or unable to handle. It is 
important to acknowledge that the Federal Superfund statute has 
played a strong and important role in assisting State cleanups. 
Many State officials have informed Congress that the Federal 
liability scheme and the threat of NPL listing are important 
incentives to private parties to voluntarily clean up State 
sites. The General Accounting Office has recently reported 
similar findings to Congress.
    Mr. Chairman, I look forward to hearing from the witnesses. 
I think this is a very important hearing and thank you very 
much for calling it.
    Mr. Oxley. The gentleman's time has expired. The gentleman 
from Ohio, Dr. Ganske.
    Mr. Ganske. Thank you, Mr. Chairman. Well, you are 
absolutely right, Mr. Chairman; we have held a lot of hearings 
in the last few years on comprehensive Superfund reform. And, 
you know, Mr. Chairman, when you have got the votes, you move 
comprehensive legislation, and after a while, when you don't, 
you start looking at fixing part of the problem. And so I'm in 
agreement with the ranking member, and in our conversations, I 
think that it is fair to say there is sentiment on the 
Republican side to look at a brownfields piece of legislation.
    In Des Moines, Iowa, my home, there are brownfields. I see 
thousands and thousands of acres of the best farmland in the 
world, Grade A Iowa farmland being eaten up by a peripheral 
development around the cities every year, when those prior 
industrial sites in the center of our Iowa cities are going 
unused because of the brownfields problem.
    And so, as we've discussed, Mr. Chairman, a number of us 
will be working on trying to craft a bipartisan piece of 
brownfields legislation this year that can pass and become law, 
and I look forward to working with you and the members on the 
other side on this issue.
    I yield back.
    Mr. Oxley. The gentleman yields back. The gentleman from 
New Jersey, Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman, and as you said, we 
are here again, and although the members of this subcommittee 
may have changed somewhat, the topic really hasn't changed much 
and my attitude about Superfund hasn't changed. I personally 
remain pleased with the direction of progress that EPA is 
making in the Superfund Program, particularly, in New Jersey 
and in my district.
    I want to say that, as of December 1998, New Jersey has or 
has had 123 sites on the National Priorities List--more than 
any other State in the country--and 2 proposed NPL sites. In my 
district alone, there are nine sites. EPA's Region 2, which 
encompasses New York and New Jersey, contains 223 Superfund 
sites and 9 proposed sites. Of these, 75 sites, or 33 percent, 
have been cleaned up and deleted from the NPL or have all their 
construction completed and are undergoing long-term 
remediation.
    Cleanup progress is evident, considering that at the end of 
fiscal year 1996 there were 42 sites completed and 60 complete 
sites by the end of fiscal year 1997. In addition, over 247 
tons and 3.9 million gallons of products from abandoned sites 
were removed or treated. And in New Jersey alone, approximately 
76 percent of our sites are either being cleaned up or are 
cleaned up, and mitigation work has been conducted at more than 
10 percent of the sites, bringing the total percentage of sites 
in New Jersey at which physical work has been done to more than 
85 percent.
    All nine sites in my district have experienced some level 
of cleanup. They are either undergoing cleanup construction or 
have had threats mitigated by physical work, and in fiscal year 
1998, three sites in New Jersey were deleted from the NPL.
    I mention this because, obviously, I think that the EPA is 
doing a good job in terms of overall cleanup. A large number of 
the sites in New Jersey at which work has been completed have 
not been deleted from the NPL only because long-term monitoring 
is still going on or because long-term treatment of groundwater 
is still underway. And these monitoring effects may have been, 
or could continue to be, underway for many years. Nevertheless, 
such efforts are critical to protect human health and resources 
for current and future generations, and I believe that remedial 
measures undertaken now will minimize the extent and costs of 
future remedial actions.
    Today, I know we are discussing the same issues surrounding 
the Superfund Program that we have discussed for years, and 
let's face it, cleaning up hazardous waste sites is not a 
simple task. We here in Congress need to decide what about the 
Superfund Program is more important--how long it takes to 
cleanup the site or whether that site gets cleaned up safely 
and to a level that protects kids and the environment. 
Obviously, I feel that the latter is more important and that's 
why I think it's important that, even though we have done a lot 
of cleanup, we have to still go at it with the remediation, the 
groundwater, and the other things to make sure that public 
safety and health are protected.
    Now, I say that by way of background, because, I just want 
to say, in conclusion, that I believe this is not the time to 
roll back or significantly alter our Superfund Program. 
Substantial changes would only cause more unnecessary delays in 
cleaning up our Nation's Superfund sites. If anything, we need 
to ensure that our Federal program remains strong, is well 
funded, that the burden of site cleanups remains with the 
polluter--the potentially responsible party--and that we avoid 
any corporate carveouts.
    So, at this point, I know this is an oversight hearing. Let 
me say that I think that we are moving forward in a substantial 
way, and that I would be fearful that any substantial changes 
to the Superfund Program, instead of going in a more 
progressive way, might actually do harm to the program. And for 
that reason, I am very suspect of any effort to make 
significant changes at this time.
    Thank you, Mr. Chairman.
    Mr. Oxley. The gentleman's time has expired. The gentleman 
from Pennsylvania, Mr. Greenwood.
    Mr. Greenwood. Thank you, Mr. Chairman. I also want to 
thank you for holding these hearings.
    It is vital that we continue to work toward reform of the 
Comprehensive Environmental Response, Compensation, and 
Liability Act, better known as Superfund. Like many other 
members of the committee, my district has been directly 
impacted by the act. My suburban Philadelphia district of Bucks 
and Montgomery counties has eight National Priorities List 
sites alone, not to mention that we have four square miles of 
brownfield sites located in the southern portion of Buck 
County.
    I am in full support of comprehensive Superfund reform. I 
think it is amazing to hear that some are not. I think the 
program has been a disaster, not only in what it has done wrong 
in the lives of innocent American citizens, but what it has 
failed to do at great expense. But I would like to direct my 
comments to once specific area of Superfund reform.
    Of personal interest to me is the title in Superfund 
dealing with brownfields. My interest in this area is not 
driven just because of my intimate knowledge of the large area 
of abandoned or underutilized, once-prime commercial real 
estate in my district, and I thank the chairman for having 
brought this committee to my district to look at that problem, 
but also because returning America's original fields of dreams 
to active use is key to economic development. And as we all 
know, economic development leads to job creation, a drop in 
welfare rolls, a reduction in crime, and safer, healthier 
neighborhoods. In fact, economic development is a vital 
component of the fulfillment of the American dream, self-
sufficiency, and opportunity. As long as these properties lie 
vacant, the dream will remain unfulfilled for many Americans 
who live and struggle to survive in these areas.
    The brownfields program has many sources. Foremost among 
them is the Federal law itself. Under Superfund, the parties 
who currently own or operate a facility can be held 100 percent 
liable for any cleanup costs, regardless of whether they 
contributed to the environmental contamination and regardless 
of whether they were in any way at fault.
    The imposition of this liability has led to tragic 
consequences, including the potential developers who recoil 
from any site with a history of industrial activity. It is 
simply not worth it for them to deal with the environmental 
exposure, when they have the alternative of developing in rural 
areas with no potential for liability.
    In stark contrast to the Federal program, 32 States have 
launched so-called voluntary cleanup programs. Under these 
initiatives, property owners comply with State cleanup plans 
and are then are released from further environmental liability 
under State law at the site. In fact, in the first year the 
Commonwealth of Pennsylvania enacted its brownfields program, 
it succeeded in cleaning 35 sites, again, in the first year.
    Although many of these State laws have proven successful, 
States, businesses, and other experts have testified before 
this subcommittee that they could be far more effective if 
participation in a State voluntary cleanup program also 
included a release from Federal environmental liability. 
Therefore, it is imperative that any initiative to reform 
Superfund include a strong brownfields provision.
    Once again, Mr. Chairman, thank you for holding this 
hearing today. I look forward to working with the committee in 
crafting legislation that will ensure a clean and safe 
environment for ourselves, for our children, and for 
generations to come.
    Mr. Oxley. The gentleman's time has expired. The gentlelady 
from Colorado, Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman, and thank you for 
having this hearing on the Superfund site.
    Today, I am pleased to say the program is running more 
efficiently and effectively than at any time in its history. In 
fact, by the end of the 106th Congress, it is projected that 90 
percent of the non-Federal Superfund site listed as of 
September 30, 1997 will either have all construction completed 
or remedial construction underway. In addition, 3,800 emergency 
removal actions have been taken at sites not on the National 
Priorities List.
    Responsible parties who perform the vast majority of long-
term cleanups are saving the taxpayers billions of dollars, and 
by the end of fiscal year 2000, four times as many sites will 
have finished construction compared to the first 12 years of 
the program.
    In Colorado, my home State, the pace of cleanup has 
accelerated in the last 6 years as well. Clearly, the success 
of this program has turned around during this administration, 
and improved human health and the environment at the vast 
majority of sites through the country. These tangible and 
significant results, they demonstrate the increase and 
effectiveness of the Superfund Program.
    And I would like to talk for a minute about a site in 
Colorado. In the last year alone, the EPA has listed 31 
additional sites, and 17 cleanup actions have been initiated to 
mitigate threats to human health and the environment. Recently, 
the EPA listed the I-70 and Vasquez site in Denver. I know that 
the EPA will work with the State of Colorado, the city of 
Denver, and especially the neighborhood, to ensure that remedy 
selected gives the highest level of protection to human health 
and the environment and takes into account how the remedy will 
affect property values in the years to come.
    I remain concerned, however, Mr. Chairman, that the Federal 
Government hides behind the shield of sovereign immunity to 
protect itself from State enforcement of most environmental 
laws, and to that end, Mr. Chairman, I have today an article 
from the March 1999 National Environmental Enforcement Journal, 
published by the National Association of Attorneys General. I'd 
like to ask unanimous consent to insert that into the record, 
if I may.
    Mr. Oxley. Without objection.
    [The article is retained in subcommittee files:]
    Ms. DeGette. Thank you.
    Federal facilities which aren't cleaned up to the same 
standards as other privately owned properties create a 
heightened risk for redevelopment and allow the Federal 
Government to shirk its responsibilities to communities across 
the country. Given the Federal Government's continued 
downsizing, sites which once housed Federal facilities are 
being transferred to the private sector, creating new 
opportunities, but also, frankly, new uncertainties.
    Finally, I can't resist commenting on the brownfields 
discussion that we are having today, because that has been one 
of my main focuses in my career in Congress. I am encouraged to 
hear on both sides of the aisle that people want to pass 
brownfields legislation, and, in fact, had a conversation 
myself with the chairman of the full committee about this issue 
the other day. I understand, although I disagree, with some 
members' of this committee desire to attach brownfields to some 
kind of Superfund reauthorization. I have been here now 2 years 
and I haven't seen that reauthorization occur. I'm not 
optimistic that it will occur any time soon, but, yet, 
meaningful brownfields legislation continues to languish.
    This would help all of us in our districts, rural and 
urban, throughout the country, and it would also help with some 
of the sprawl that we are seeing in areas like mine in 
Colorado. It would help stop greenfields from being developed 
at the expense of redevelopment of places like several I can 
think of in Denver.
    And so I would urge you, Mr. Chairman, and this whole 
committee, to consider strongly working on bipartisan 
brownfields legislation and to move that ahead this Congress, 
irrespective of whatever action we may decide on Superfund 
reauthorization. I think the time is ripe. I think our 
constituents want it, and I think our businesses would welcome 
it. I think it is a win-win situation for everyone.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Oxley. The gentlelady yields back. The gentleman from 
Missouri, Mr. Blunt.
    Mr. Blunt. Thank you, Mr. Chairman, and thank you for 
having this hearing on this topic.
    Like many other Members of Congress, I have a number of 
sites in my district in southwest Missouri, and, of course, 
there is a number of sites in our State. I will say that 
generally our contacts with the agencies, the oversight 
agencies, are positive, and more positive than they may have 
been in the past, but I still think that our oversight 
responsibility is significant here. I think looking at the law 
to make the law better is an important goal for this committee 
and for this Congress to have.
    We need an effective cleanup program. To have that kind of 
program is critical. To have a program that actually moves 
toward final cleanup is very important, and I think, Mr. 
Chairman, that we need more results rather than more verdicts. 
Maybe we need more mitigation and less litigation, as we try to 
solve this problem.
    In oversight, our goals should not be to defend everything 
the government does. Our goal should be to make everything the 
government does better; that this program can be improved. 
Nobody on this committee, or in the Congress, or who works with 
the program every day would begin to defend everything that 
happens in the program or everything in the law.
    We need to take our oversight responsibility seriously. I'm 
pleased that you do that and glad that you're leading the 
committee in doing that, Mr. Chairman.
    Mr. Oxley. I thank the gentleman and recognize the 
gentlelady from California, Ms. Capps.
    Ms. Capps. Thank you, Mr. Chairman, for holding this 
important hearing today.
    I think it is useful to look back 20 years ago to when the 
Superfund was established to identify and clean up hazardous 
waste sites. Prior to Superfund, across the Nation were 
hundreds of toxic waste sites that threatened the environment 
and public health, and weakened the long-term health of local 
economies. While the cleanup process has been arduous, 
significant progress has been made in identifying and cleaning 
up many of our Nation's most hazardous waste sites.
    As we approach a new millennium, it is estimated that 90 
percent of the listed Superfund sites will have either 
construction completed or remedial construction underway. Over 
the last decade, the pace of cleanup has also increased 
significantly. In 1992, only 12 percent of listed non-Federal 
Superfund sites had completed construction. By the end of year 
2000, 61 percent of these sites are expected to have all 
construction completed, a fourfold increase.
    EPA, particularly under the current administration, has 
made considerable strides in improving the program with its 
administrative reforms. Furthermore, innovative programs such 
as EPA's Brownfields Initiative have proven successful in 
empowering States, communities, and other stakeholders through 
public-private partnerships to restore contaminated lands and 
spur economic development, greatly benefiting our local 
economies.
    In my own district, Santa Barbara County is participating 
in a brownfields pilot program to restore the old town of 
Goleta as an economically vital, social, and cultural focus of 
the community.
    While great advances have been made under the Superfund 
Program, there may be ways in which Congress might work with 
EPA to further improve upon this effort. For example, while 
cleanup is proceeding at the majority of Superfund sites, a 
great deal of litigation is also ongoing. This specter of 
litigation can be particularly burdensome to smaller parties, 
municipalities, and businesses. However, any effort to improve 
upon Superfund must not weaken cleanup standards established to 
protect human health and the environment.
    I believe that it is worth exploring ways in which we can 
try to reduce the amount of litigation to achieve what I think 
is the shared goal of everyone, to clean up as many sites as we 
can as quickly as possible to protect public health, the 
environment, and local economies. I look forward to working 
with my colleagues as we address this most important issue.
    I yield back the balance of my time.
    Mr. Oxley. The gentlelady yields back. Thank you very much. 
The gentleman from Maryland, Mr. Ehrlich.
    Mr. Ehrlich. I have no prepared statement, Mr. Chairman, 
other than to say I look forward to this hearing an awful lot. 
There is an awful lot to say. Many members of this subcommittee 
are interested in moving one or more bills, as we have 
discussed, and I congratulate you with respect to your 
leadership on this issue. I hope we can work in a bipartisan 
way, and I trust that we can, to really, at the very least, 
move the brownfields bill out of this subcommittee and the full 
committee over the next couple of months.
    I appreciate the time.
    Mr. Oxley. The gentleman yields back, and we now----
    Mr. Towns. Mr. Chairman, may I ask unanimous consent that 
we leave the record open for additional statements for members?
    Mr. Oxley. Without objection, it would be the desire of the 
Chair to have any opening statements be made part of the 
record.
    [Additional statements submitted for the record follow:]
 Prepared Statement of Hon. Paul Gillmor, a Representative in Congress 
                         from the State of Ohio
    Mr. Chairman, I want to thank you for calling this hearing. 
Comprehensive Superfund reform is just as important today as it was 
when this panel first tried to accomplish it in the 103rd Congress. We 
both have sat on the hazardous materials panel of this committee for 
several Congresses and know just how broken a program that Superfund 
reform is.
    Superfund is the quintessential government program that spends way 
too much as its accomplishes far too little. In the meantime, the 
agency that administers it has resisted even modest proposals for 
change on political grounds. This is the worst possible scenario for 
the taxpayers, hazardous waste rots in the ground while lawyers and 
bureaucrats quibble over how to divide the spoils.
    We need a Superfund program that recognizes its faults and works to 
correct them. Whatever has happened in the past needs to be understood, 
honestly evaluated, and changed. Back when Superfund was first created, 
the Federal government was asked to respond to an emergent local 
concern. Today, Superfund has grown into a program that often responds 
without asking, cleans out without cleaning up, and begins without 
ending. We need a hazardous waste program that works for us and 
meaningful reform is the only way to make that a reality.
    I am very interested to hear from the Clinton Administration's 
witness on how we no longer need to comprehensively reform this 
program. It has been my experience, and that of the Government 
Accounting Office and EPA's own Inspector General that EPA is spending 
less than 50 cents on the dollar on actual dirt moving, Superfund 
cleanup. This is bad enough, but when you combine this fact with 
acknowledged slowness in cleaning up sites, a nightmare of a liability 
system, and clean up standards that defy logic, Superfund reform 
becomes more of an imperative than a slogan. I think that if the 
Administration is willing to walk away from correcting this mammoth 
program, this committee and the American public deserve a good 
explanation as to why.
    I am also looking forward to hearing from the Government Accounting 
Office on the Superfund program. In the last Congress, GAO provided 
some of the most damning evidence as to what Superfund was not doing 
and why Congress needed to step in and make it better. It is important 
that our discussion on Superfund be current and extensive. This 
committee should be fully aware of all the things that Superfund is 
doing, both good and bad, so a reformed program will encourage more 
cleanups, not prohibit them.
    Again, Mr. Chairman, thank you for calling this important hearing. 
Major, structural reforms to Superfund remain a concern today and 
should be for all those who care about the environment.
                                 ______
                                 
Prepared Statement of Hon. Steve Largent, a Representative in Congress 
                       from the State of Oklahoma
    Mr. Chairman, today's hearing reminds me of Yogi Berra's famous 
line, ``It's deja vu all over again.'' Over the past six years, in an 
attempt to reform the current Superfund program, the House and Senate 
committees with jurisdictional authority over Superfund have held over 
sixty hearings on this issue. Clearly, these hearings have borne out 
one unquestionable fact--Superfund is not working. Despite expenditures 
in the billions of dollars, Superfund has failed to clean up more than 
a small fraction of the nation's worst hazardous waste sites.
    This Subcommittee has heard testimony from numerous Members, on 
both sides of the aisle, chronicling the bureaucratic nightmare that 
states, localities, and businesses face when ensnared in the Superfund 
web.
    One of most troubling aspects of the current Superfund program is 
its liability system. A system which promotes litigation rather than 
remediation of hazardous waste sites. Before the enactment of Superfund 
in 1980, only 2000 lawyers specialized in environmental law. Today, 
this number has grown to 18,000. A boom to the legal profession, but a 
boondoggle to those who actually want to clean up toxic waste sites. 
Under the present system of strict, joint and several, and retroactive 
liability, the EPA is provided with a multitude of Potentially 
Responsible Parties or PRPs who have a strong incentive to sue each 
other to minimize their own liability--rather than pay for actual 
cleanup. In addition, lender liability has contributed to the 
``brownfields'' problem which plagues many of our cities and 
communities across the country. Fear of being identified as a PRP has 
created a situation where banks and other lending institutions are 
unwilling to loan resources to the redevelopment of many urban 
industrial areas.
    It is obvious that Superfund in its current form does not bear any 
resemblance to a ``polluter pays'' approach, but instead places fault 
on a vast array of individuals, including those who were acting in an 
environmentally responsible manner. To me it defies common sense to 
impose penalties on a company which was acting legally at the time, but 
because of a subsequent change in law, is now held liable for millions 
of dollars. It is this type of heavy-handed behavior that restricts 
economic growth and greatly diminishes employment opportunities.
    Going hand-in-hand with liability reform is the need for improved 
remedy selection and the use of risk assessment based on sound science. 
Any Superfund reform must provide for the prioritization of sites based 
on an actual threat to human health and the environment, rather than 
exaggerating the risk based on some hypothetical model that if a child 
eats a handful of dirt each day for a year, there then is the 
possibility of contracting cancer.
    It is also essential that we give states a greater role in the 
Superfund program. By nature, hazardous waste sites are local problems 
that, in most cases should be addressed at the state and local levels. 
Reassessing the role of the federal and state governments would allow 
an opportunity to provide more accountability of government 
expenditures on the Superfund program. In this respect, a shift in 
responsibility of the Superfund program does not equate to transferring 
the existing program to the state level. States would be better served 
to develop their own systems to address hazardous waste, including the 
use of better risk assessments, as well as ways to reduce transaction 
costs and inefficiencies of the federal program.
    Finally, as someone who represents a district that is heavily 
reliant on the oil and gas industry, I am extremely concerned about the 
possibility of reauthorizing the Superfund taxes without Superfund 
reform. It is estimated that the petroleum industry is responsible for 
less than 10 percent of the contamination at Superfund sites; yet the 
industry has historically paid over 50 percent of the taxes that 
support the Trust Fund. Considering the current state of the domestic 
oil and gas industry, it is patently unfair for an already beleaguered 
industry to pay a disproportionate share of the costs without 
corresponding reform.
    Mr. Chairman, I sincerely hope that we do not have to wait another 
six years and hold another sixty hearings before we move forward with 
Superfund reform. Mr. Chairman, I commend you on your diligence with 
this issue, and I look forward to hearing from our witnesses.
                                 ______
                                 
 Prepared Statement of Hon. John Shimkus, a Representative in Congress 
                       from the State of Illinois
    Mr. Chairman, I want to thank you for holding this hearing on the 
Superfund program. As a relatively new Member of Congress, I have often 
heard horror stories from other Members about how the Superfund program 
turns communities upside down.
    Although I know that this will sound all too familiar to the 
Committee, I wanted to share with everyone how the Superfund horror 
story has played out in Quincy, a small Mississippi River town in the 
western part of my district in Illinois.
    This past February, the Environmental Protection Agency came to 
Quincy, Illinois and levied a proposed order seeking $3 million from 
165 local businesses. The order alleged that these businesses 
contributed small (de minimis) amounts of waste to the Adams/Quincy 
Landfill in the late 1960's and 1970's. In fact, none of the parties 
violated any laws doing so. In many instances, these businesses paid 
municipal waste management companies to dispose of this waste.
    Nearly eight years after the landfill closed, EPA began working 
with the city and several of the larger waste contributors to clean up 
the site. In 1990, EPA placed the site on the Superfund National 
Priorities List (NPL), These groups have already paid in about $6 
million, and EPA estimates it will cost about $10 million to finish the 
job.
    This is where the proposed order comes into play. Superfund allows 
EPA and the other potential responsible parties (PRPs) to seek 
contributions from other PRPs, even innocent small businesses, to pay 
for this cleanup. The Agency has asked Quincy's small business owners, 
including such family-run businesses as bowling alleys, dairy farms and 
family restaurants, to pay as much as $150,000 per company, despite the 
fact that these businesses did nothing wrong.
    For some of these businesses, the amounts they are being asked to 
pay will mean the difference between being in the black or in the red 
for the year--and that means this law is costing people their jobs and 
their livelihood. Even worse is that even if these parties consent to 
EPA's demands, they still risk the possibility of further lawsuits in 
state courts, and/or being pursued by the Illinois EPA.
    Mr. Chairman, as a result of the Quincy Superfund nightmare, I was 
forced to call all of the groups together, including the EPA, the city 
of Quincy and the small businesses, to try to get appropriate answers 
from the EPA. However, I remain very concerned about several aspects of 
the Superfund program:

1. The powers granted to the EPA to essentially pursue action against 
        small businesses who have broken no laws, and who were given no 
        fair warning of the Superfund action;
2. Next is the process by which EPA collects Superfund information. In 
        Quincy, the EPA pursued only those businesses who had kept good 
        records on waste management. This haphazard method of 
        information gathering is very suspect;
3. Finally, and most importantly, the Superfund program has become a 
        litigation nightmare. Many small businesses in Quincy are 
        feeling the squeeze of the proverbial Superfund vice, and it is 
        costing jobs and killing small businesses, which are the 
        lifeblood of small towns like Quincy, Illinois.
    Mr. Chairman, I want to thank you for your guidance and leadership 
on this important effort, and I look forward to working with you in any 
way possible to make Superfund reform a reality.
    To my colleagues, I want to say that it is often the struggling 
small businesses like those in Quincy who have the least time and the 
most difficulty paying for what the EPA judges as their share of 
Superfund cleanup. While it may be too late to rescue many of the small 
businesses in Quincy from the Superfund nightmare, we must act soon, as 
your district may be the next stop in the Superfund road show.
                                 ______
                                 
 Prepared Statement of Hon. Tom Bliley, Chairman, Committee on Commerce
    Thank you Mr. Chairman. We're here to find out where we are with 
the Superfund program. I have to admit I have some strong ideas about 
that.
    What I think is that Superfund is a statute with fundamental flaws. 
Its liability scheme has created 20 years of litigation which has hurt 
people, particularly small businesses, and delayed cleanup of toxic 
waste sites. Superfund also creates barriers and disincentives to 
voluntary cleanups, State cleanups, and community redevelopment. The 
program's unrealistic cleanup requirements not only create unnecessary 
burdens and waste for sites on the National Priorities List, but also 
for other cleanups across the country. States and clean-up contractors 
themselves have made these points very clear to us.
    Mr. Chairman, one has only to review the extensive record that your 
Subcommittee has compiled to know that Superfund has been a public 
policy embarrassment for 20 years. The questions are: where are we now, 
and where should we put our energy for change? These are not issues we 
can avoid.
    It is time to get on with the business of cleaning up America's 
toxic waste sites. Over the next few years, the Trust Fund will run out 
of money. We must work with all parties to develop a viable plan to 
replenish this fund. The Subcommittee should listen carefully to 
today's witnesses and to other interests.
    We must focus on ways to enact meaningful reforms that make the 
federal program more fair, effective and efficient, that help States, 
and that eliminate barriers to redevelopment and cleanup.
    We may not be able to fix all of the problems with Superfund in our 
current political climate, but I believe strongly that we can do a 
better job with the program, and that a bipartisan majority wants to 
fix what we can in the 106th Congress.
                                 ______
                                 
    Prepared Statement of Hon. John D. Dingell, a Representative in 
                  Congress from the State of Michigan
    Over the past 18 months, the General Accounting Office (GAO) has 
surveyed 3,036 potential National Priorities List (NPL) caliber toxic 
waste sites. Representative Manton and I requested this survey to 
determine the status of cleanups at these state sites and to answer the 
important question of whether it is likely that the site will need to 
be cleaned up by the federal Superfund program. This is the most 
comprehensive study conducted to date that helps inform Congress about 
the future size of the Superfund National Priorities List.
    The GAO findings mean that there will likely be far fewer sites 
that will need to be addressed in the future by the federal Superfund 
program than was previously estimated.
    The next Congress will need to look at the Superfund program in 
light of these findings, the significant progress in cleanups completed 
or underway, and the extensive number of sites with all final cleanup 
remedies selected as reported by the GAO recently.
    Assuming adequate funding, the approximately 1,200 non-federal 
existing sites are expected to have all construction activities largely 
completed within the next five years. As of September 30, 1998, 585 
sites had completed all construction activities. In August of this 
year, the GAO reported that all final cleanup remedies will have been 
selected for about 95 percent of the non-federal sites and for about 67 
percent of the federal sites as of September 30, 1999.
    These findings suggest that comprehensive and radical reform at 
this point would be unwise, counter-productive, and likely lead to a 
slowdown in Superfund cleanups.
    While pointing to far fewer NPL sites, the GAO report does identify 
a significant number of sites needing to be addressed or further 
evaluated by state cleanup programs. The Federal Superfund statute has 
played a strong and important role in assisting state cleanups. Many 
state officials have informed Congress that the Federal liability 
scheme and the threat of NPL listing are important incentives for 
private parties to voluntarily clean up state sites.
    This report also provides valuable information to assist the EPA in 
prioritizing site evaluations and in planning for the future personnel 
and contracting adjustments that will be necessary.
    The GAO survey provides information that bears directly on the 
question of how many of the 3,036 sites are anticipated to be listed on 
the NPL and thus be addressed by the federal Superfund program:
<bullet> 41 percent or 1,234 sites should be deleted from EPA's 
        database immediately because final cleanup actions are 
        completed or underway, no cleanup is needed, or they have 
        already been screened out by the EPA ranking criteria.
<bullet> Of the remainder, 232 sites (or less than 8 percent of the 
        total) were identified by either a state or EPA as likely to 
        need cleanup as a Superfund NPL site. Eight of the 232 sites 
        are federal facilities. The 232 sites are listed in Appendix 
        III (pp. 320-349) of the report.
<bullet> However, of the 232 sites only 26 sites had agreement between 
        the state and EPA that the site was a likely candidate for 
        listing on the Superfund NPL. Under EPA's current policy, the 
        Governor of the state must generally concur in the listing.
<bullet> In addition to the 26 sites where there was agreement, EPA 
        officials identified 106 other sites they believed were likely 
        candidates for the Superfund NPL. However, for 38 percent of 
        these sites, the state directly disagreed with EPA. For the 
        remainder of these sites the state did not respond or its 
        position was unknown.
<bullet> In addition to the 26 sites where there was agreement, state 
        officials identified 100 other sites they believed were likely 
        candidates for the Superfund NPL. Over half of these sites are 
        located in only two states--Florida and Illinois.
<bullet> Of the 232 sites cited as possible NPL candidates, 78 sites 
        (34 percent) were identified as low, average, or unknown risk 
        which makes their candidacy as NPL sites less likely than if 
        they present high health or environmental risk.
<bullet> Of the 232 sites cited as possible NPL candidates, 154 sites 
        (66 percent) have no identified responsible party or no 
        responsible party whom officials believe is able and willing to 
        conduct cleanup activities.
<bullet> In a November 1997 press release the Association of State and 
        Territorial Solid Waste Management Officials stated that ``the 
        vast majority (95.6%) of sites listed on the Comprehensive 
        Environmental Response Compensation and Liability Act 
        Information System (CERCLIS) do not warrant listing on the 
        National Priorities List''.
    The GAO solicited information from both the states and the relevant 
Environmental Protection Agency (EPA) Region using detailed written 
questionnaires for each of the more than 3,000 sites.

    Mr. Oxley. Mr. Fields, come on up.
    Mr. Fields. Thank you, Mr. Chairman.
    Mr. Oxley. The Chair is now pleased to recognize our first 
witness, Mr. Tim Fields, Assistant Administrator of the Office 
of Solid Waste and Emergency Response at U.S. EPA--and I think, 
as I indicated in my opening statement, your first appearance 
in your new capacity before the subcommittee. So, welcome back 
Mr. Fields.

STATEMENT OF HON. TIMOTHY FIELDS, JR., ASSISTANT ADMINISTRATOR, 
  OFFICE OF SOLID WASTE AND EMERGENCY RESPONSE, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Fields. Thank you, Mr. Chairman. It is truly a pleasure 
to be here, and also, I welcome Mr. Towns as the ranking 
Democratic member and the other members of the subcommittee 
today.
    I am pleased to discuss the current status of the Superfund 
Program and highlight the significant progress we believe has 
been made in cleaning up toxic waste sites in this country. 
First, we believe that we have fundamentally changed how the 
Superfund Program operates through three rounds of 
administrative reforms we began in 1993. We have increased the 
pace of cleanup from 65 sites a year to 85 construction 
completions a year. Ninety percent of the Superfund sites are 
either construction-complete or have construction underway. 
Today, Superfund has 592 sites that are construction-complete, 
an additional 461 sites where construction is underway, and 213 
sites where an emergency response or removal action has been 
taken to deal with response.
    We plan to have, as this chart indicates, 670 cleanups 
completed at the end of fiscal year 1999, the year we are in 
right now. EPA expects that more than 85 percent of the current 
NPL will have been completed by the year 2005. That's more than 
1,180 sites where construction is complete.
    The construction-completion measure was adopted by the Bush 
administration and continued by the Clinton administration. 
Three Assistant Administrators have agreed that it is the best 
indicator of Superfund Program performance. This remarkable 
progress that has been documented is not relegated to a few 
States, but has been done across the country.
    Mr. Chairman, I am told that in Ohio we have had tremendous 
success. Eighty percent of the Superfund sites have cleanup 
construction completed or underway in Ohio. Out of 35 Ohio NPL 
sites, we intend to have 33 of 35 sites with construction 
completed or underway at the end of this Congress. Not only has 
EPA been able to significantly increase the number of Superfund 
sites cleaned up through the administrative reform agenda, but 
we have reduced the time it takes to go through the process by 
20 percent--ten years, 6 years ago; 8 years now from the time 
we list the site until we get construction completion. One-
hundred eleven sites that we listed in the 1990's are now 
construction-complete, having been done in 8 years or less. 
Completion of these sites reflects the improved pace of cleanup 
in the Superfund Program.
    Not only have we reduced time, but we have reduced costs. 
The cost of cleanup has been reduced by 20 percent. Over the 
last 3 years alone, at more than 200 Superfund sites we have 
achieved projected cost savings of more than a billion dollars 
in 3 years alone. This tremendous progress has been achieved 
without sacrificing and providing added expense to the American 
taxpayer. We have continued our Enforcement First Strategy. It 
has produced remarkable results over the last many years. We 
have achieved more than $15.5 billion in responsible-party 
settlements for cleanup and cost-recovery settlements. That is 
$15.5 billion that the American taxpayer does not have to spend 
or does not have to be appropriated from Congress.
    While EPA has been successful in implementing that reform 
agenda, we have not ignored the effects Superfund liability may 
have on some small parties. We have aggressively worked to 
achieve 400 settlements over primarily the last 4 years, 65 
percent of those being in the last 4 years. Eighteen thousand 
small-volume contributors have been settled out. We have 
offered $145 million in orphan share funding to forgive past 
costs and oversight costs at 72 sites. So we've been real fair 
with all parties involved in the process.
    Given this remarkable turnaround, we believe that the 
administrative reform agenda should continue and it is 
currently not necessary to have comprehensive Superfund 
legislative reform. Comprehensive Superfund legislative reform, 
even if well-intentioned, we believe would halt or delay the 
cleanup progress we see today. The result is simply 
unacceptable to the American people and to those in Congress, 
we know, as well as the administration.
    We believe that Superfund legislation, if enacted, should 
be limited to targeted liability relief with provisions that 
address prospective purchasers of contaminated property, 
liability relief for innocent landowners, liability relief for 
contiguous property owners, and liability relief for small 
municipal waste generators and transporters.
    These liability provisions could be enacted and still allow 
us to continue the pace of cleanup, provide the fairness we 
want, and help in effectuating redevelopment. We believe these 
provisions have achieved consistent, bipartisan support and 
have appeared in the Superfund legislation that has been 
introduced in the last three Congresses. These provisions would 
buildupon the success of the Superfund administrative reforms 
without halting or delaying cleanup.
    Of equal importance is the need, we believe, to reinstate 
the expired Superfund taxes, which expired December 31, 1995. 
The Superfund Program should have a reliable source of funding 
for the cleanup of toxic waste sites in this country without 
shifting these costs to the general taxpaying public.
    Mr. Chairman and members of the subcommittee, we are proud 
of the progress the Superfund Program has been able to achieve 
over the last 6 years. We look forward to working with Congress 
to buildupon that reform agenda, and in the context of the 
program as we see it today, we believe that narrowly targeted 
Superfund legislation is the best way to continue that agenda 
and protect the American people, and finish the job of cleaning 
up toxic waste sites in this country.
    Mr. Chairman, I thank you for the time and look forward to 
responding to questions.
    [The prepared statement of Hon. Timothy Fields. Jr., 
follows:]
      Prepared Statement of Timothy Fields, Jr., Acting Assistant 
     Administrator, Office of Solid Waste and Emergency Response, 
                    Environmental Protection Agency
Introduction
    Good afternoon, Mr. Chairman, and Members of the Subcommittee. I am 
pleased to have this opportunity to appear before you to discuss the 
Agency's record of accomplishments over the past several years in 
fundamentally improving the Superfund program.
    Before addressing the successes of the current Superfund program, I 
believe it is important to recognize, from the outset, Superfund's 
mission. Superfund is an important, and above all, necessary program, 
dedicated to cleaning up our nation's hazardous waste sites, including 
those caused by the Federal government, and protecting public health 
and the environment. EPA has worked closely with the Agency for Toxic 
Substances and Disease Registry (ATSDR) in evaluating the impacts of 
these sites on public health. Superfund site impacts are real. ATSDR 
studies show a variety of health effects that are associated with some 
Superfund sites, including birth defects, cardiac disorders, changes in 
pulmonary function, impacts on the immune system (the body's natural 
defense system from disease and sickness), infertility, and increases 
in chronic lymphocytic leukemia. EPA also works with other federal 
agencies to assess the significant adverse impacts Superfund sites have 
had on natural resources and the environment. Together, the efforts of 
these agencies, working with EPA, provide the basis for targeting 
cleanups to protect public health and the environment, and show the 
need for Superfund.
                           superfund progress
    The Superfund program is making significant progress in cleaning up 
hazardous waste sites and protecting public health and the environment. 
EPA has significantly changed how the Superfund program operates 
through three rounds of administrative reforms which have made 
Superfund a fairer, more effective, and more efficient program. EPA has 
made considerable progress in cleaning up sites on the National 
Priorities List (NPL). The Agency has gone from cleaning up 65 sites 
per year to cleaning up 85 sites per year. As of March 17, 1999 more 
than 89% of the sites on the final NPL are either undergoing cleanup 
construction (remedial or removal) or are completed:

<bullet> 592 Superfund sites have reached construction completion.
<bullet> 461 Superfund sites have cleanup construction underway;
<bullet> An additional 213 sites have had or are undergoing a removal 
        cleanup action.
    By the end of the 106th Congress EPA will have completed 
construction of all cleanup remedies at approximately 61% of all non-
Federal sites currently on the NPL.
    In addition, approximately 990 NPL sites have final cleanup plans 
approved, and approximately 5,600 removal actions have been taken at 
hazardous waste sites to stabilize dangerous situations and immediately 
reduce the threat to public health and the environment. More than 
30,900 sites have been removed from the Superfund inventory of 
potentially hazardous waste sites to help promote the economic 
redevelopment of these properties.
Increasing the Pace of Cleanups
    The Superfund program is making significant progress in 
accelerating the pace of clean up while ensuring protection of public 
health and the environment. Our analyses clearly show that Superfund 
cleanup durations have been reduced approximately 20%, or two years on 
the average. Almost three times as many Superfund sites have had 
construction completed in the past six years than in all of the prior 
years of the program combined. In fact, in large part because of our 
administrative reforms, EPA will have completed construction at more 
than 85% of the sites on the current NPL by 2005.
    The accelerated pace of cleanup is demonstrable. In only two years, 
FY 1997 and FY 1998, EPA completed construction at 175 sites--more than 
during the entire first 12 years of the program (149 sites).

<bullet> Seventy-two percent (128) of the sites are designated 
        enforcement lead, demonstrating the success of both the 
        ``enforcement first'' policy and the numerous enforcement 
        reforms.
<bullet> One hundred and eleven of these sites were added to the NPL 
        during the 1990s. Completion of these sites in less than eight 
        years reflects improvements in the pace of Superfund cleanups.
Private Party Funding
    EPA's ``Enforcement First'' strategy has resulted in responsible 
parties performing or paying for approximately 70% of long-term 
cleanups, thereby conserving the Superfund Trust Fund for sites for 
which there are no viable or liable responsible parties. This approach 
has saved taxpayers more than $15.5 billion to date--more than $13 
billion in response settlements, and nearly $2.5 billion in cost 
recovery settlements.
Protecting Human Health and the Environment
    The accomplishments in protecting human health and the environment 
are significant. Environmental indicators show that the Superfund 
program continues making progress in hazardous waste cleanup, reducing 
both ecological and human health risks posed by dangerous chemicals in 
the air, soil, and water. The Superfund program has cleaned over 132 
million cubic yards of hazardous soil, solid waste and sediment and 
over 341 billion gallons of hazardous liquid-based waste, groundwater, 
and surface water. In addition, the program has supplied over 350,000 
people at NPL and non-NPL sites with alternative water supplies in 
order to protect them from contaminated groundwater and surface water.
                          adnmstrative reforms
    Through the commitment of EPA, State, and Tribal site managers, 
other Federal agencies, private sector representatives, and involved 
communities, EPA has made Superfund faster, fairer, and more efficient 
through three rounds of administrative reforms. Several years of 
stakeholder response indicates that EPA's Superfund Reforms have 
already addressed the primary areas of the program that they believe 
needed improvement. EPA remains committed to fully implementing the 
administrative reforms and refining or improving them where necessary. 
EPA will be releasing its Annual Report on the status of Administrative 
Reforms for fiscal year (FY) 1998 within the next several weeks. Below 
are some of the highlights from the 1998 Annual Report.
Remedy Review Board
    EPA's National Remedy Review Board (the Board) is continuing its 
targeted review of complex and high-cost cleanup plans, prior to final 
remedy selection, without delaying the overall pace of cleanup. Since 
the Board's inception in October 1995, it has reviewed a total of 33 
site cleanup decisions, resulting in estimated cost savings of 
approximately $43 million.
Updating Remedy Decisions
    In addition to the work of the Board, EPA has achieved great 
success in updating cleanup decisions made in the early years of the 
Superfund program to accommodate changing science and technology. In 
fact, the Updating Remedy Decisions reform is one of EPA's most 
successful reforms, based on its frequent use and the amount of money 
saved. After three years of implementation, more than $1 billion in 
future cost reductions are estimated as a result of the Agency's review 
and update of remedies at more than 200 sites. It is important to 
stress that the future cost reductions described above can be achieved 
without sacrificing the protection of public health, and the current 
pace of the program.
Remedy Selection
    The Superfund program is selecting remedies that require treatment 
in fewer instances, focusing on treatment of toxic hot spots. Treatment 
remedies were included in less than 50% of the Records of Decision 
completed in fiscal year 1997. Even within the current statutory 
framework providing for a preference for treatment of waste and 
permanent solutions to the maximum extent practicable, costs of 
cleanups are decreasing dramatically because of a number of factors, 
including: the use of presumptive remedies; the use of reasonably 
anticipated future land use determinations, which allow cleanups to be 
tailored to specific sites; the use of a phased approach to defining 
objectives and methods for ground water cleanups. As a result of these 
factors, EPA has reduced the cost of cleanup by approximately 20 
percent.
Promoting Fairness Through Settlements
    EPA has addressed the concerns of stakeholders regarding the 
fairness of the liability system by increasing the use of the Agency's 
settlement authorities. EPA has negotiated more than 400 de minimis 
settlements with over 18,000 small volume contributors (66% of these in 
the last four years), protecting these parties from expensive private 
contribution suits. EPA continues to use its settlement authority to 
remove small volume waste contributors from the liability system, 
responding to the burden third-party litigation can place on parties 
that made a very limited contribution to the pollution at a site. EPA 
continues to step in to prevent the big polluters from dragging untold 
numbers of the smallest ``de micromis'' contributors of waste into 
contribution litigation by publicly offering to any de micromis party 
$0 (i.e., no-cost) settlements that would provide protection from 
lawsuits by other PRPs. The real success of this approach is to be 
measured by the untold number of potential lawsuits that have been 
discouraged.
Orphan Share Compensation
    Since fiscal year 1996, EPA has offered orphan share compensation 
of over $145 million at 72 sites to responsible parties willing to 
negotiate long-term cleanup settlements. EPA will continue the process 
at every eligible site. Through 1998, EPA has collected and placed $399 
million in 115 interest bearing special accounts for site specific 
future work. In addition, over $69 million in interest has accrued in 
these accounts. This reform ensures that monies recovered in certain 
settlements are directed to work at a particular site. At a number of 
sites, this money can make a great difference in making settlements 
work. In FY98, EPA set aside and then spent more than $40 million of 
Superfund response money in new settlements for mixed work or mixed 
funding.
                            reauthorization
    The success of EPA's administrative reforms and the resulting 
improvements in the Superfund program have fundamentally altered the 
need for Superfund reauthorization legislation. In the 103rd Congress, 
the Clinton Administration proposed a five-year reauthorization of 
Superfund that reflected program needs at that point in time. When 
Congress did not pass Superfund legislation, EPA implemented a series 
of reforms administratively. Accordingly, the legislative provisions 
proposed by the Administration in the 103rd Congress are now very out 
of date, and the five-year authorization period that would have been 
provided in that bill has now ended. Many of the provisions in the 
bill, and in other Superfund reform bills, were designed to fix 
problems that have been addressed through the Superfund Administrative 
Reforms. As the result of the progress made in cleaning up NPL sites in 
recent years, and the program improvements resulting from 
administrative reforms, there is no longer a need for comprehensive 
legislation. Comprehensive legislation could actually delay clean ups, 
create uncertainty and litigation, and undermine the current progress 
of cleaning up Superfund sites.
    Legislation to support the President's Budget is needed to 
reinstate the Superfund taxes, and provide EPA with access to mandatory 
spending. As part of Superfund reauthorization, the Administration 
would support targeted liability relief for qualified parties that 
builds upon the current success of the Superfund program. The 
Administration would support provisions that address:

<bullet> prospective purchasers of contaminated property
<bullet> innocent landowners
<bullet> contiguous property owners, and
<bullet> small municipal waste generators and transporters
                Other Superfund Program Accomplishments
States
    EPA continues to work with States and Indian tribes as key partners 
in the cleanup of Superfund hazardous waste sites. EPA is continuing to 
increase the number of sites where States and Tribes are taking a lead 
role in assessment and cleanup using the appropriate mechanisms under 
the current law. With the May 1998 release of the ``Plan to Enhance the 
Role of States and Tribes in the Superfund Program,'' the Superfund 
program is expanding opportunities for increased State and tribal 
involvement in the program. Fourteen pilot projects with States and 
Tribes have been initiated through this plan.
Community Involvement
    The Superfund program is committed to involving citizens in the 
site cleanup process. EPA strives to create an open decision-making 
process to clean up sites that fully involves the communities, provides 
the community timely information, and improves the community's 
understanding of the potential health risks at hazardous waste sites. 
This is accomplished through outreach efforts, such as holding public 
meetings and distributing site-specific fact sheets. It has been 
enhanced through the successful implementation of reforms such as our 
EPA Regional Ombudsmen who continue to serve as a direct point of 
contact for stakeholders to address their concerns at Superfund sites, 
our Internet pages which continue to provide information to our varied 
stakeholders on issues related to both cleanup and enforcement, as well 
as our Technical Assistance Grants (TAGs), Community Advisory Groups 
(CAGs), Restoration Advisory Boards (RABs) and Site-specific Advisory 
Boards (SSABs).
    The TAG program provides eligible community groups with financial 
assistance to hire technical consultants to assist them in 
understanding the problems and potential solutions to the contamination 
problems. EPA has awarded 202 TAGs to various groups since the 
program's inception in 1988. The Agency plans to publish revisions to 
the TAG regulation in the Spring of 1999 intended to further simplify 
the TAG program.
    The CAG serves as a public forum for representatives of diverse 
community interests to present and discuss their needs and concerns 
related to the Superfund site with Federal, State, Tribal and local 
government officials. The number of sites with CAGs increased by over 
50 percent before the CAG program was officially taken out of the pilot 
stage. In FY98, 14 new CAGs were created at non-federal facility sites, 
bringing the total to 47.
Community Involvement at Federal Facilities
    The Superfund Federal facilities response program recognizes that 
meaningful public participation is dependent on the various stakeholder 
groups having the capacity to participate effectively. The program has 
entered into partnerships and awarded cooperative agreement grants to 
State, local, tribal associations, and community based organizations. 
The grants focus on training for impacted communities, participation of 
citizens on advisory boards, access to information and implementation 
of the Federal Facility Environmental Restoration Dialogue Committee 
(FFERDC) principles. These grants offer the opportunity to leverage 
precious resources, build trust and reach a wider audience.
    The Superfund Federal facilities response program is a strong 
proponent of involving communities in the restoration decision-making 
process and recognizes that input from Restoration Advisory Boards 
(RAB) and Site-Specific Advisory Boards (SSAB) has been essential to 
making response decisions and, in some cases, reducing costs. 
Increasing community involvement, Restoration Advisory Board/Site-
Specific Advisory Board support (RAB/SSAB) and partnering with states, 
tribes and other stakeholders is a high priority activity for FFRRO. 
There are over 300 RABs and 12 SSABs throughout the country.
                      Revitalizing America's Land
Brownfields
    EPA not only cleans up toxic waste sites through the Superfund 
program but also helps communities clean up and develop less 
contaminated brownfields sites. The Brownfields Initiative plays a key 
role in the Administration's goal of building strong and healthy 
communities for the 21st century. The Initiative represents a 
comprehensive approach to empowering States, local governments, 
communities, and other stakeholders interested in environmental cleanup 
and economic redevelopment to work together to prevent, assess, safely 
clean up, and sustainably reuse brownfields. Brownfields are abandoned, 
idled, or under-used industrial and commercial properties where 
expansion or redevelopment is complicated by real or perceived 
contamination. Brownfields sites exist in this country, affecting 
virtually every community in the nation.
    The General Accounting Office has estimated that there are over 
450,000 brownfields properties across America. The Administration 
believes strongly that environmental protection and economic progress 
are inextricably linked. Rather than separate the challenges facing 
these communities, our brownfields initiative seeks to bring all 
parties to the table--and to provide a framework for them to seek 
common ground on the whole range of challenges: environmental, 
economic, legal and financial. The EPA brownfields pilot grants are 
forming the basis for new and more effective partnerships. In many 
cases, city government environmental specialists are sitting down 
together with the city's economic development experts for the first 
time. Others are joining in--businesses, local residents, community 
activists.
Brownfields Assessment Pilots
    The Brownfields Assessment Pilots form a major component of the 
Brownfields Initiative since its announcement in a little more than 4 
years ago. Since that time, significant environmental results had 
already been achieved. The Agency has selected 250 assessment pilots 
funded at up to $200,000 to local communities across the Nation to 
chart their own course towards revitalization. These pilots are seen as 
catalysts for change in local communities, and often spur community 
involvement in local land use decision-making. These pilots, along with 
targeted state and EPA efforts, resulted in the assessment of 398 
brownfields properties, cleanup of 71 properties, redevelopment of 38 
properties, and a determination that 273 properties did not need 
additional cleanup.
Revolving Loan Funds
    We are also building on another aspect of our program which began 
in 1997. This program will award a ``second-stage'' type of brownfields 
pilot. Those pilots known as the Brownfields Cleanup Revolving Loan 
Fund (BCRLF) Pilots are designed to enable eligible States, cities, 
towns and counties, Territories, and Indian Tribes to capitalize 
revolving loan funds to safely cleanup and sustainably reuse 
brownfields. EPA's goal is to select BCRLF pilots that will serve as 
models for other communities across the nation. In the 1997 fiscal 
year, EPA's budget for brownfields included $10 million to capitalize 
BCRLFs. That early first round of BCRLF pilots is maturing. Twenty-
three (23) pilots are now in various stages of development. This year 
we are planning to make a second round of BCRLF pilot awards. We have 
determined that these new pilots would benefit from an increased 
capitalization and we are planning to fund approximately 63 new pilots 
in fiscal year 1999 at up to $500,000 each. The application deadline 
recently closed on March 8, 1999, and we will be considering these 
applications in regional panel and Headquarters evaluations and 
reviews. The Agency anticipates announcement of the award of these new 
pilots by June. Pilot applicants are being asked to demonstrate 
evidence of a need for cleanup funds, ability to manage a revolving 
loan fund, ability to ensure adequate cleanups, and a commitment to 
creative leveraging of EPA funds with public-private partnerships and 
matching funds/in-kind services.
Showcase Communities
    The Brownfields Showcase Communities project is another component 
of the Brownfields Initiative. It represents a multi-faceted 
partnership among federal agencies to demonstrate the benefits of 
coordinated and collaborative activity on brownfields in 16 Brownfields 
Showcase Communities. The designated Showcase Communities are 
distributed across the country and vary in size, resources, and 
community type.
Job Training
    To help local citizens take advantage of the new jobs created by 
assessment and cleanup of brownfields, EPA began another demonstration 
pilot program--the Brownfields Job Training and Development 
Demonstration Pilot program in 1998. Last year we awarded 11 pilots to 
applicants located within or near one of our assessment pilot 
communities. Colleges, universities, non-profit training centers, and 
community job training organizations, as well as states, Tribes and 
communities were eligible to apply. This year we are planning to award 
an additional 10 pilots.
    The Brownfields Initiative has also generated significant economic 
benefit for communities across America. By the end of fiscal year 1998, 
410 cleanup jobs and 2,110 redevelopment jobs had been created as a 
result of the program. Pilot communities had already reported a 
leveraged economic impact of over $1.1 billion.
Recycling Superfund Sites
    Contaminated sites may be an economic drain on local economies, can 
lower property values, and can act as a disincentive for new industries 
to move into communities. Once cleaned up, many Superfund sites have 
gone on to new, productive, and economically beneficial reuse. We 
believe that there are opportunities for many such sites. While some 
sites are not suitable for unrestricted reuse, many can be 
``recycled.'' Many NPL sites are valuable properties--they reside near 
waterways, railroads or major transportation routes. They are in parts 
of town ready for redevelopment.
    A logical outgrowth of the Brownfields redevelopment work is an 
increased emphasis on the reuse of Superfund sites. Recycled Superfund 
sites may be redeveloped for a variety of uses, including commercial/
industrial, recreational, and ecological projects. Sites are being 
cleaned up across the Nation. Major redevelopment and reuse is 
occurring.
    Successful reuse is being demonstrated at the Industriplex site, in 
Woburn, Massachusetts. Through a private/public partnership this site 
will become a regional transportation center with over 200,000 square 
feet of retail space and potentially over 750,000 square feet of hotel 
and office space. An open land and wetlands preserve will also be 
created as a part of the ``recycling'' of this site. Another example of 
reuse at Superfund sites is the Anaconda Smelter NPL site, in Anaconda, 
Montana, which has become the Old Works Golf Course, a world-class Jack 
Nicklaus golf course. At other Superfund sites, major national 
corporations, including Netscape, Target stores, Home Depot stores and 
McDonalds, have established businesses. Sites have been redeveloped 
into athletic fields, community parks and wetland and habitat preserves 
as well.
    Preliminary analyses indicate that more than 150 sites are in 
actual or planned reuse, supporting thousands of jobs and generating 
revenue for States and local communities and creating thousands of 
acres of new recreational and ecological green space. EPA continues to 
make strides in spurring the beneficial reuse of Superfund sites.
Barriers to Reuse
    At some sites, the potential threat of CERCLA liability may in some 
circumstances be a barrier to the reuse of contaminated sites. EPA is 
continuing its efforts to negotiate prospective purchaser agreements 
and issue comfort/status letters in order to clarify CERCLA liability 
at sites and facilitate reuse of contaminated properties. Through FY98, 
EPA has entered into 85 Prospective Purchaser Agreements (PPAs) to 
facilitate beneficial reuse and has also issued over 250 comfort/status 
letters in order to clarify Federal Superfund interest in sites.
    In the summer and fall of 1998, EPA undertook a survey effort to 
gather information on the impacts of the PPA process. Preliminary 
survey data (for PPAs completed through June 1998) indicate that 
redevelopment projects cover over 1252 acres, or 80% of the property 
secured through PPAs. EPA regional personnel estimate that nearly 1600 
short-term jobs (e.g., construction) and over 1700 permanent jobs have 
resulted from redevelopment projects associated with PPAs. An estimated 
$2.6 million in local tax revenue for communities nationwide have 
resulted from these projects. In addition, EPA regional staff estimate 
that PPAs have resulted in the purchase of over 1500 acres of 
contaminated property and have spurred redevelopment of hundreds of 
thousands of adjacent acres.
Federal Facility Redevelopment
    Through EPA's Base Realignment and Closure (BRAC) program over 850 
base closure documents have been reviewed at 108 major closing military 
bases. These BRAC documents articulate the environmental suitability of 
the property for lease or transfer.
    Wurtsmith Air Force Base, located on more than 5,000 acres in 
northeast Michigan, stood ready for more than 70 years to support 
strategic bombing operations worldwide. In this capacity, the base 
managed supplies of aircraft fuel, mechanical cleansers, solvents, and 
paints, some leaked into the soil and subsequently the groundwater.
    The decision to close the base was made in 1993. A Base Closure 
Team (BCT), consisting of representatives from EPA, the Air Force, and 
the Michigan Department of Environmental Quality was formed to clean up 
the site. In an effort to expedite cleanup and minimize cost, an 
innovative technology, in situ enhanced bioremediation, was implemented 
to treat the contaminated groundwater. Using this innovative 
technology, the BCT shaved more than $500,000 and four years off the 
original cleanup estimate of $1.5 million and 10 years.
    To enhance economic redevelopment, the BCT focused its attention on 
reuse options for the base. Working with the Northeast Michigan 
Community Service Agency, the BCT enabled approximately 150 low-income 
families to move into base structures, which replaced substandard 
housing in six counties. The BCT earned national recognition for this 
unique reuse plan.
    Additional reuse options for the base were determined and 
implemented. A portion of the base property was leased to companies 
that brought more than 1,000 jobs to the area, helping to boost the 
community's economy. Another reuse accomplishment that saved both time 
and money was the transfer of airport runways for immediate public use 
to the Oscoda-Wurtsmith Airport Authority.
                   future scope of superfund program
    EPA will continue to work with all stakeholders to leverage 
resources and to assure the successful cleanup of this nation's 
hazardous waste sites. We will continue to employ administrative 
reforms to ensure a fair, effective, and efficient Superfund program. 
The Superfund program is cleaning up 85 sites per year and in fiscal 
year 1999 plans to exceed the Agency target of 650 construction 
completions--one year earlier than originally expected. In addition, 
the Administration recently announced our target of 925 sites 
``construction completed'' by the end of 2002. By 2005, EPA expects to 
complete construction at 1180--85% of the current NPL. At these 
construction completion sites, EPA still has the responsibility for 
post-construction activities such as 5-year reviews and groundwater 
pump and treat and oversight of PRP long-term operations and 
maintenance.
State/Federal Partnership
    EPA/State relationships in the Superfund program have evolved into 
flexible working partnerships that assign sites responsibilities in a 
mutually supportive way. EPA has provided the States with nearly $20 
million annually for core program support. Where States are interested 
in taking the lead at NPL sites we provide the funding (roughly $100 
million annually, in fiscal years 1997 and 1998) for those activities. 
Another $30-$40 million annually is provided for site assessment, 
voluntary cleanup program (VCP) support, and other program activities. 
Total funding provided to States typically exceeds $150 million per 
year. A recent GAO study report supports the position that CERCLA and a 
strong Federal cleanup program are important to the States--
        ``. . . a number of stakeholders, including state officials, 
        said that a lessening of the Superfund program's more rigorous 
        cleanup requirements or liability standards could negatively 
        affect the State programs.--``State Cleanup Practices'' report 
        99-39, December 1998--
    States often and regularly ask for EPA assistance when their 
technical capabilities fall short, their funding is inadequate, 
enforcement cases too complex, or their ability to respond with staff 
or contract support is insufficient.
    The GAO estimates roughly 3000 sites pose risks serious enough, 
based on site inspections to be potentially eligible for NPL inclusion 
and are classified as ``awaiting a National Priorities List 
decisions.'' Of these the GAO concluded 1,800 of these sites still 
appear eligible for NPL while the remaining 1,234 are unlikely to 
become eligible for various reasons.
    We do not know now how many more sites will need to be listed on 
the NPL. We will focus our listing activities on sites when states 
request a listing, when there are recalcitrant PRPs or when cleanup is 
needed and its not occurring satisfactorily. We have been using and 
will continue to use these factors to guide our listing decisions. 
Based on what we know at this time, we do not expect to list more than 
40 sites this year.
Expiration of Tax
    The Superfund tax authority expired December 31, 1995, 
discontinuing further tax collections. The President's fiscal year (FY) 
2000 Budget requests reinstatement of all Superfund taxes (including 
excise taxes on petroleum and chemicals, and a corporate environmental 
tax). The Trust Fund balance (unappropriated balance) was roughly $2.1 
billion at the end of fiscal year 1998. The Trust Fund balance will be 
approximately $1.3 billion at the end fiscal year 1999.
                               conclusion
    The Superfund program has been fundamentally improved through 
administrative reforms and is faster, fairer, and more efficient. The 
significant progress the Clinton Administration has achieved in 
protecting public health and the environment through the cleanup of 
toxic waste sites must not be undermined by the passage of Superfund 
legislation based upon outdated information and ideas. EPA's 
administrative reforms, and the resulting Superfund cleanup progress, 
have eliminated the need for comprehensive Superfund legislation. We 
look forward to working with Congress to reinstate the Superfund taxes 
and enact the narrowly targeted Superfund legislation that I described 
in my testimony that builds upon the success of administrative reforms.
    Mr. Chairman, thank you for this opportunity to address the 
Subcommittee. I would be pleased to answer any questions you or the 
other Members may have.

    Mr. Oxley. Thank you, Mr. Fields, again, for your 
testimony, and let me begin with some questions.
    What I want to make sure is that everyone understands the 
difference between the applicability of the Superfund statute 
and implementation of the Federal program by EPA. The States 
take on, lead, new sites. That is probably a good idea. You do 
not need to pour money into EPA for years when States are 
closer to the problem and fully capable.
    Unfortunately, the Superfund statute does not just affect 
sites on the Federal National Priorities List. So, Mr. Fields, 
what I want to do is talk about various areas of the Superfund 
statute, whether their application is limited to just the NPL. 
First, I want to cover the liability provisions in relationship 
to voluntary cleanups and brownfields sites which are not on 
the National Priorities List.
    Robert Inghram, president of the National Conference of 
Black Mayors, wrote in 1995, ``Far too much money is being 
spent on lawyers and not nearly enough on cleanup. Our primary 
concern is that tens of thousands of abandoned properties in 
urban areas lie contaminated and unproductive because 
developers and local businesses, they are getting pulled into 
Superfund's far-reaching liability system. Congress must act 
this year to fundamentally reform the failed liability system. 
Without these changes, these properties will lie dormant, and 
critical and economic revitalization opportunities will be lost 
for cities nationwide.''
    The General Accounting Office stated the same proposition 
in the 1996 report entitled, ``Barriers to Brownfields 
Redevelopment.'' Is it not correct, Mr. Fields, that 
Superfund's liability provisions have broad sweep and can apply 
at tens of thousands of sites not on the NPL?
    Mr. Fields. Yes, that is correct. The Superfund liability 
provisions go beyond the 1,387 sites on the Superfund National 
Priorities List and do affect activities at voluntary cleanup 
sites, brownfields sites, and other sites as well.
    Mr. Oxley. So, those folks who are interested in, the 
opening statements talking about, brownfields redevelopment 
need to understand the applicability of the Superfund liability 
scheme to the brownfields issue. Is that correct?
    Mr. Fields. Yes, they do need to understand that, and we 
believe that those liability provisions have been very 
effective in helping put forth a great brownfields agenda over 
the last 4 years.
    Mr. Oxley. Is it also the case with the natural resources 
damages provision that they can apply at sites beyond the NPL? 
Can NRD claims be brought after a construction-complete?
    Mr. Fields. Natural resource damages claims can be brought 
after construction-complete, yes, that is correct.
    Mr. Oxley. Ms. Kerbawy, representing ASTSWMO, in her 
testimony on behalf of the State cleanup officials, says that 
while ``the States are addressing the large universe of non-NPL 
sites, the statute still maintains a role for EPA in theory. 
Although the majority of those sites, typically, brownfields 
sites, will never be placed on the NPL, they are still subject 
to CERCLA liability, even after the site has been cleaned up to 
State standards.'' Is that correct, that Superfund liability 
applies even after the site has been cleaned up to State 
standards?
    Mr. Fields. I want to be very clear about this. We, 
obviously, think the States are doing a great job in 
implementing their voluntary cleanup programs. Forty-four 
States have those programs. We have been very supportive of 
those States. We have never intervened in a State cleanup to 
date, except when a State has requested that the Federal 
Government come in. We believe in and we endorse those State 
programs. We have funded them for the last 3 years at a tune of 
$10 million to $15 million a year. We want to support them. We 
have entered into memoranda of agreement with 11 States to date 
to agree on deferring to the States' authority in implementing 
effective, voluntary, cleanup programs. We're discussing 
agreement with eight additional States.
    So, we want to do all we can to assure the regulated 
community and the States that we want to defer to them for the 
vast majority of those sites that are not covered on the NPL, 
but are being covered by voluntary cleanup programs implemented 
at the State level. We think that fear is there, but the 
reality is we have never intervened. We don't jump in when a 
State is providing oversight for a cleanup in that State. The 
instance it has occurred is when a State requested that we come 
in.
    Mr. Oxley. Let me quote from Ms. Kerbawy also in her 
testimony. She says, ``The potential for EPA to overfile and 
for third-party lawsuits under CERCLA is beginning to cause 
many owners of potential brownfields sites to simply mothball 
the properties, and that States should be able to release sites 
from liability once a site has been cleaned up to State 
standards.''
    Do you agree that the issue of release from Federal 
liabilities is an issue that is not specifically related to the 
status of the NPL sites?
    Mr. Fields. I agree that some have fear about having 
complete finality on releases from liability for sites that are 
not on the NPL. We are trying to do all that we can to work to 
assure people that that has not been our history. We do not get 
involved, and we want to try to work through memorandum of 
agreements, comfort letters, and other mechanisms to provide 
assurance, to the regulated community that we do not intend to 
overfile, or intervene in those cases where we have effective 
State programs overseeing cleanup.
    Mr. Oxley. Thank you. My time has expired. Let me now 
recognize the gentleman from New York, the ranking member of 
the subcommittee, Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Mr. Fields, you indicated that EPA has worked with the 
Agency for Toxic Substances and Disease Registry to evaluate 
health impacts of Superfund sites. If you don't have 
information with you today, could you provide this committee 
with a summary of those studies?
    Mr. Fields. Yes, we will be happy to provide that 
documentation for the record, Mr. Towns. We do have data on the 
health effects studies that have been done by ATSDR at 
Superfund sites. They have evaluated a lot of our sites on the 
current National Priorities List. The ATSDR in their studies 
indicate that 80 percent of those Superfund sites have public 
health exposures. That means that people and children who live 
around 80 percent of those sites have been exposed to 
contamination from one or more media--air, water, or toxic 
waste. They have done health assessments at those sites to have 
documented instances of leukemia, and low-birth weight, and 
asthma that they believe could be attributed to contamination 
around these Superfund sites.
    We will be happy to provide more detail for the record, but 
we believe that Superfund sites do, in fact, pose a significant 
public health threat that needs to be addressed, and that is 
why the Superfund Program is around. EPA also conducts 
emergency actions. We have done 5,600 plus emergency response 
actions since the program began because of significant, 
immediate, public health threats that need to be addressed in 
these communities.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 60198.001
    
    [GRAPHIC] [TIFF OMITTED] 60198.002
    
                    ATSDR Public Health Assessments
FOREWORD
    The Agency for Toxic Substances and Disease Registry, ATSDR, is an 
agency of the U.S. Public Health Service. It was established by 
Congress in 1980 under the Comprehensive Environmental Response, 
Compensation, and Liability Act, also known as the Superfund law. This 
law set up a fund to identify and clean up our country's hazardous 
waste sites. The Environmental Protection Agency. EPA, and the 
individual states regulate the investigation and clean up of the sites.
    Since 1986, ATSDR has been required by law to conduct a public 
health assessment at each of the sites on the EPA National Priorities 
List. The aim of these evaluations is to find out if people are being 
exposed to hazardous substances and, if so, whether that exposure is 
harmful and should be stopped or reduced. (The legal definition of a 
health assessment is included on the inside front cover.) If 
appropriate, ATSDR also conducts public health assessments when 
petitioned by concerned individuals. Public health assessments are 
carried out by environmental and health scientists from ATSDR and from 
the states with which ATSDR has cooperative agreements.
    Exposure: As the first step in the evaluation. ATSDR scientists 
review environmental data to see how much contamination is at a site, 
where it is, and how people might come into contact with it. Generally, 
ATSDR does not collect its own environmental sampling data but reviews 
information provided by EPA, other government agencies, businesses, and 
the public. When there is not enough environmental information 
available, the report will indicate what further sampling data is 
needed.
    Health Effects: If the review of the environmental data shows that 
people have or could come into contact with hazardous substances, ATSDR 
scientists then evaluate whether or not there will be any harmful 
effects from these exposures. The report focuses on public health, or 
the health impact on the community as a whole, rather than on 
individual risks. Again, ATSDR generally makes use of existing 
scientific information, which can include the results of medical, 
toxicologic and epidemiologic studies and the data collected in disease 
registries. The science of environmental health is still developing, 
and sometimes scientific information on the health effects of certain 
substances is not available. When this is so, the report will suggest 
what further research studies are needed.
    Conclusions: The report presents conclusions about the level of 
health threat, if any, posed by a site and recommends ways to stop or 
reduce exposure in its public health action plan. ATSDR is primarily an 
advisory agency, so usually these reports identify what actions are 
appropriate to be undertaken by EPA, other responsible parties, or the 
research or education divisions of ATSDR. However, if there is an 
urgent health threat, ATSDR can issue a public health advisory, warning 
people of the danger. ATSDR can also authorize health education or 
pilot studies of health effects, full-scale epidemiology studies, 
disease registries, surveillance studies or research on specific 
hazardous substances.
    Interactive Process: The health assessment is an interactive 
process. ATSDR solicits and evaluates information from numerous city, 
state and federal agencies, the companies responsible for cleaning up 
the site, and the community. It then shares its conclusions with them. 
Agencies are asked to respond to an early version of the report to make 
sure that the data they have provided is accurate and current. When 
informed of ATSDR's conclusions and recommendations, sometimes the 
agencies will begin to act on them before the final release of the 
report.
    Community: ATSDR also needs to learn what people in the area know 
about the site and what concerns they may have about its impact on 
their health. Consequently, throughout the evaluation process, ATSDR 
actively gathers information and comments from the people who live or 
work near a site, including residents of the area, civic leaders, 
health professionals and community groups. To ensure that the report 
responds to the community's health concerns, an early version is also 
distributed to the public for their comments. All the comments received 
from the public are responded to in the final version of the report.
    Comments: If, after reading this report, you have questions or 
comments, we encourage you to send them to us.
    Letters should be addressed as follows:
    Attention: Chief, Program Evaluation, Records, and Information 
Services Branch, Agency for Toxic Substances and Disease Registry, 1600 
Clifton Road (E-56), Atlanta. GA 30333.
Region 1
CONNECTICUT
Barkhamsted-New Hartford Landfill, Barkhainsted, Litchfield County
Connecticut Correctional Institution (a/k/a Somers Correctional 
        Facility), Somers, New Haven County
Linemaster Switch Corporation, Woodstock, Windhain County
Old Southington Landfill, Southington, Hartford County
Raymark Industries, Stratford, Fairfield County
Revere Textile Prints Corporation, Sterling, Windham County
Starr Property, Enfield, Hartford County
U.S. Naval Submarine Base New London, Groton, New London County
MAINE
West Site Hows Corner, Plymouth, Penobscot County
MASSACHUSETTS
Blackburn and Union Privileges, Walpole, Norfolk County
Groveland Wells, Groveland, Essex County
Hocomonco Pond, Westborough, Worcester County
Industri-Plex, Wobum, Middlesex County
Iron Horse Park, Billerica, Middlesex County
New Bedford Site, New Bedford, Bristol County
Nyanza Chemical Waste Dump, Ashland, Ashland County
PSC Resources, Palmer, Hampden County
Silresim Chemical Corporation, Lowell, Middlesex County
Sullivan's Ledge, New Bedford, Bristol County
U.S. Army Materials Technology Laboratory, Watertown, Middlesex County
Wells G and H, Wobum, Middlesex County
NEW HAMPSHIRE
Beede Waste Oil, Plaistow Rockingham County
Dover Municipal Landfill, Dover, Stratford County
New Hampshire Plating Company, Merrimack, Hillsborough County
Savage Municipal Water supply (Interim), Milford, 
        Hillsborough<plus-minus> County
Somersworth, Municipal Landfill, Somersworth, Stratford County
Tibbetts Road, Barrington, Strafford County
RHODE ISLAND
West Kingston Town Dump and University of Rhode Island (Plains Rd) 
Disposal Area (URI), South Kingston, Washington County
VERMONT
None available currently.
Region 2
NEW JERSEY
A.O. Polymer, Sparta Township, Sussex County
Bridgeport Rental and Oil Service, Logan Township, Gloucester County
CPS Chemical/Madison Industries, Old Bridge Township, Middlesex County
Curcio Scrap Metal, Saddle Brook Township, Bergen County
Delilah Road, Egg Harbor Township, Atlantic County
Garden State Cleaners and South Jersey Clothing Company, Minotola, 
        Atlantic County
Global Landfill, Old Bridge, Middlesex County
Horseshoe Road, Sayreville, Middlesex County
Jackson Township Landfill, Jackson Township, Ocean County
M&T DeLisa Landfill, Ocean Township, Monmouth County
Mannheim Avenue Dump Site, Gallowav Township, Atlantic County
Montclair/West Orange Radium, Montclair/West Orange, Essex County
Pomona Oaks Well Contamination, Galloway Township, Atlantic County
Sayreville Landfill, Sayreville, Middlesex County
Tabernacle Drum Dump, Tabernacle Township, Burlington County
NEW YORK
Batavia Landfill, Batavia, Genessee County
C&J Disposal, Town of Eaton, Madison County
Carroll and Dubies Sewage Disposal, Port Jervis, Orange County
Circuitron Corporation, Fanningdale, Nassau County
Colesville Municipal Landfill, Colesville, Broome County
Endicott Village Wellfield (a/k/a Ranny Well), Endicott, Broome County
Facet Enterprises, Elmira, Chemung County
Genzale Plating Company, Franklin, Nassau County
Griffiss Air Force Base, Rome, Oneida County
Hertel Landfill, Plattekill, Ulster County
Hooker Chemical/Ruco Polymer, Hicksville, Nassau County
Hooker-102nd Street, Niagara Falls, Niagara County
Islip Municipal Sanitary Landfill (a/k/a Blvdenburgh Road Landfill), 
        Hauppauge, Suffolk County
Johnstown City Landfill, Johnstown, Fulton County
Jones Chemical, Inc., Caledonia, Livingston County
Li Tungsten Corporation, Glen Cove, Nassau County
Mattiace Petrochemical, City of Glen Cove, Nassau County
Niagara County Refuse, Town of Wheatfield, Niagara County
Onondaga Lake, Syracuse, Onondaga County
Pasley Solvents & Chemicals Inc., Garden City, Nassau County
Pfohl Brothers Landfill, Cheektowaga, Erie County
Pollution Abatement Services (PAS), City of Oswego, Oswego County
Port Washington Landfill, North Hempstead, Nassau County
Preferred Plating Corporation, East Fanningdale, Suffolk County
Ramapo Landfill, Ramapo, Rockland County
Robintech Inc./ National PiDe Co., Vestal, Broome County
Rosen Site (a/k/a Rosen Brothers Site), Cortland, Cortland County
Rowe Industries Groundwater Contamination, Sag Harbor, Suffolk County
Rowe Industries Groundwater Contamination, Sag Harbor, Suffolk County
Sarney Farm, Amenia, Duchess County
Sealand Restoration, Lisbon, St. Lawrence County
Sinclair Refinery, Town of Wellsville, Allegany County
Solvent Savers, Lincklaen, Chenango County
Syosset Landfill, Oyster Bay, Nassau County
Tri-Cities Barrel Company, Inc., Fenton, Broome County
PUERTO RICO
Fibers Public Supply Wells, Jabos, Guayama County
Frontera Creek, Rio Abajo, Humacao County
V&M/Albaladejo Norte Ward, Vega Baja, Vega Baja County
Vega Baja Solid Waste Disposal, Rio Abajo Ward/La Trocha, Vega Baja 
        County
VIRGIN ISLANDS
Bovoni Dump, St. Thomas, St. Thomas County
Tutu Wellfield, St. Thomas, St. Thomas County
Region 3
DELAWARE
Koppers Company Facilities Site, Newport, New Castle County
MARYLAND
Limestone Road Site, Cumberland, Allegany County
Mid-Atlantic Wood Preservers, Harmans, Anne Arundel County
Naval Air Station Patuxent River, St. Mary's County
Naval Surface Warfare Center, Indian Head Division (NSWC-IHDIV), (a/k/a 
        Indian Head Naval Surface Warfare Center), Indian Head, Charles 
        County
Ordnance Products, Incorporated, Northeast, Cecil County
Sand Gravel and Stone, Elkton
Southern Maryland Wood Treating National Priorities List (NPL) Site, 
        Hollywood, St. Mary's County
Spectron Incorporated (a/k/a Galaxy Incorporated), Elkton, Cecil County
PENNSYLVANIA
Avco Lycoming-Williamsport Division, Williamsport, Lycoming County
Bell Landfill, Wyalusing-Terry Township, Bradford County
BresLube-Penn Inc. Superfund Site, Moon Township. Allegheny County
Butz Landfill, Jackson Township, Monroe County
C&D Recycling, Freeland, Luzerne County
Cabot-Wrought Products, Muhlenberg, Berks County
Crater Resources, King of Prussia, Montgomery County
Cryo-Chem Inc., Worman Township, Bovertown, Berks County
Dublin Water Supply, Dublin, Bucks County
Falls Township Groundwater Contamination (a/k/a CORCO Chemical, Para-
        scientific, Meenan Oil), Falls Township, Bucks County
Foote Mineral Company, Frazer, Chester County
Hebelka Auto Salvage Yard, Weisenburg Township, Lehigh County
Letterkenny Army DeRot, USA Letterkenny Southeast Area, and USA 
        Letterkenny-Property, Disposal Office Area, Chambersburg, 
        Franklin County
Malvern TCE Site, Malvern, Chester County
McAdoo Associates, McAdoo, Schuylkill County
Metropolitan Mirror and Glass Company, Incorporated, Frackville, 
Schuylkill
    County
Modern Sanitation Landfill, York, York County
North Penn-Area 1, Souderton, Montgomery County
Palmerton Zinc Pile, Palmerton, Carbon County
Resin Disposal Site, Jefferson Borough, Allegheny County
Revere Chemical Company, Nockamixon, Bucks County
Rodale Manufacturing Company, Inc., Emmaus, Lehigh County
Salford Quarry, Township Montgomery County
Strasburg Landfill, Newlin Township, Chester County
Tobyhanna Army Depot, Coolbaugh Township, Monroe County
UGI Columbia Gas Plant, Columbia, Lancaster County
VIRGINIA
Sites in Bluefield and Vicinity, Tazewell County
C&R Battery Company, Inc., Richmond, Chesterfield County
Fort Eustis (US Army), Newport News, Newport News County
First Piedmont Rock Quarry, Beaver Park
USAF Langley Air Force Base/Nasa-Langley Research Center, Hampton, York 
        County
U.S. Defense General Supply Center, Richmond, Chesterfield County
WASHINGTON, D.C.
None available currently.
WEST VIRGINIA
Sites in Bluefield and Vicinity, Mercer County
Hanlin-Allied-Olin, Moundsville, Marshall Couunty
Sharon Steel Corporation (Fairment Coke Works), Fairmont, Marion County
Region 4
ALABAMA
Alabama Army Ammunition Plant, Talladega County
Monarch Tile, Florence, Lauderdale County
T.H. Agriculture and Nutrition/Montgomery Plant Site, Montgomery, 
        Montgomery County
FLORIDA
Agrico Chemical Company, Pensacola, Escambia County
Broward County-21st Manor Dump, Ft. Lauderdale, Broward County
Chevron Chemical Company (Ortho Division), Orlando, Orange County
Escambia Wood-Pensacola, Pensacola, Escambia
Hipps Road Landfill, Jacksonville, Duval County
Homestead Air Force Base, Homestead AFB, Dade County
Loxahatchee Nursery, Palm City, Martin County
MRI Corporation, Tampa, Hillsborough County
Munisport Landfill, North Miami, Dade County
Plymouth Avenue Landfill, Deland, Volusia County
GEORGIA
Basket Creek Surface Impoundment and Basket Creek Drum Disposal, 
Douglasville, Douglas County
Old Douglas County Landfill, Douglasville, Douglas County
Southern Wood Piedmont Company, Augusta, Richmond County
Southwire Company, Carrollton, Carroll County
KENTUCKY
National Electric Coil/Cooper Industries, Dayhoit, Harlan County
National Southwire Aluminum Company, Hawesville, Hancock County
Rubbertown, Louisville, Jefferson County
MISSISSIPPI
Chemfax, Inc., Gulfport, Harrison County
Country Club Lake Estates, Hattiesburg, Forrest County
Potter Company, Wesson, Copiah County
NORTH CAROLINA
Caldwell Systems Incorporated, Lenoir, Caldwell County
Cherry Point Marine Corps Air Station, Cherry Point, Craven County
U.S. Marine Corps Camp Lejeune, Camp Lejeune, Onslow County
SOUTH CAROLINA
Carolawn, Fort Lawn, Chester County
Geiger (C&M Oil) Site, Rantowles, Charleston County
Golden Strip Septic Tank, Simpsonville, Greenville County
GSX Landfill, Pinewood, Sumter County
Helena Chemical Company Landfill, Fairfax, Allendale County
Kalama Specialty, Burton, Beaufort County
Koppers Company Inc./Florence Plant, Florence, Florence County
Laidlaw Environmental Services Facility, Roebuck, Spartanburg County
Leonard Chemical Company, Inc., Catawba, York County
Medley Farms, Gaffney, Cherokee County
Palmetto Recycling, Incorporated, Columbia, Richland County
Palmetto Wood Preserving, Incorporated, Cayce, Lexington County
Para-Chem Southern, Inc., Simpsonville, Greenville County
Rochester Property, Traveler's Rest, Greenville Report
Sangamo/Twelve-Mile Creek/Hartwell PCB, Pickens, Pickens County
USMC Marine Corps Recruit Depot (a/k/a Parris Island Marine Corps 
        Recruit Depot), Parris Island, Beaufort
TENNESSEE
ICG Iselin Railroad Yard, Jackson, Madison County
USA Defense Depot Memphis, Memphis, Shelby County
Region 5
ILLINOIS
A&F Materials Reclaiming, Inc., Greenup, Cumberland County
Acme Solvent Reclaiming, Winnebago, Winnebago County
Belvidere Municipal Landfill #1, Belvidere, Boone County
Cross Brothers Pail Recycling, Pembroke Township, Kankakee County
Danville H&L No. 1 Danville City Dump, Danville, Vermilion County
DuPage County Landfill (Blackwell Forest Preserve), Warrenville, DuPage 
        County
H.O.D. Landfill, Antioch, Lake County
Ilada Energy Company, East Cape Girardeau, Alexander County
Jennison Wright Corporation, Granite City, Madison County
Kaney Transportation, Rockford, Winnebago County
Lenz Oil Service Incorporated, Lemont, Cook County
Ottawa Radiation Areas, Ottawa, LaSalle County
Outboard Marine Corporation, Waukegan, Lake County
Pagel's Pit, Rockford, Winnebago County
Tri-County Landfill, South Elgin, Kane County
Velsicol Chemical, Marshall, Clark County
Wauconda Sand and Gravel, Wauconda, Lake County
Woodstock Municipal Landfill, Woodstock, McHenry County
Yeoman Creek and Edwards Field Landfills, Waukegan, Lake County
INDIANA
American Chemical Services Inc., Griffith, Lake County
Bloomington PCB Sites-Volume 1, Bloomington, Monroe County and Spencer, 
        Owen County
Bloomington PCB Sites-Volume 2, Bloomington, Monroe County and Spencer, 
        Owen County
Bloomington PCB Sites-Volume 3, Bloomington, Monroe County and Spencer, 
        Owen County
Carter-Lee Lumber Company, Indianapolis, Marion County
Enviro-Chem Corporation, Zionsville, Boone County
Fisher Calo, Kingsbury, La Porte County
Marion (Bragg)dump, Marion, Grant County
Northside Sanitary Landfill, Zionsville, Boone County
Reilly Tar and Chemical Corporation (Indianapolis Plant), Indianapolis, 
        Marion County
U.S. Smelter and Lead Refinery, Inc. (a/k/a USS Lead Refinery Inc.), 
        East Chicago, Lake County
Waste Inc. Landfill, Michigan City, La Porte County
MICHIGAN
Albion-Sheridan Township Landfill, Sheridan Township, Calhoun County
Baycity Middlegrounds Landfill, Bay City, Bay County
Bofors-Nobel Incorporated, Egelston, Muskegon County
Duell and Gardner Landfill, Muskegon, Muskegon County
Ionia City Landfill, Ionia, Ionia County
Lower Ecorse Creek Dump, Wyandotte, Wayne County
Michigan Sites of Radium Dial Contamination:
Aircraft Components (Michigan Radiologic) (a/k/a D& L Sales), Benton 
        Harbor, Berrien County
H&K Sales (Michigan Radiologic), Belding, Ionia County
Organic Chemicals Incorporated, Grandville, Kent County
Ossineke Groundwater Contamination, Ossineke, Alpena County
Packaging Corporation of America, Filer City, Manistee County
South Macomb Disposal Authority #9. 9A, St. Clair Shores, Oakland 
        County
Thermo Chem Incorporated, Muskegon, Muskegon County
Willow Run Sludge Lagoon, Ypsilanti, Washtenaw County
MINNESOTA
Reilly Tar and Chemical Corporation Site, St. Louis Park, Hennepin 
County
U.S. Air Force Twin Cities Reserve Small Arms Range, Minneapolis, 
        Hennepin County
OHIO
Air Force Plant 85, Columbus, Franklin County
Buckeye Reclamation Landfill, St. Clairsville, Belmont County
Chem-Dyne Corporation, Hamilton, Butler County
Dover Chemical Corporation, Dover, Tuscarawas County
Fields Brook NPL Site, Ashtabula, Ashtabula County
Fultz Landfill, Byesville, Guernsey County
Miami County Incinerator, Troy, Miami County
Nease Chemical, Salem, Columbiana County
North Sanitary Landfill-Dayton, Dayton, Montgomery County
Powell Road Landfill, Dayton, Montgomery County
WISCONSIN
Delavan Municipal Well #4, Delavan Walworth County
Kohler Company Landfill, Kohler, Sheboygan County
Madison Metropolitan Sewerage District Sludge Lagoons, Madison (Town of 
        Blooming Grove), Dane County
Muskego Sanitary Landfill, Muskego, Waukesha County
Penta Wood Products, Town of Daniels, Burnett
Refuse Hideaway, Middleton, Dane County
Ripon City Landfill, Ripon, Fond du Lac County
Sauk County Landfill, Excelsior, Sauk County
Region 6
ARKANSAS
Popile, Incorporated, El Dorado Union County
South 8th Street Landfill, West Memphis, Crittenden County
LOUISIANA
American Creosote Works, Winnfield Winn Parish
Bayou Bonfouca, Slidell, St. Tammany Parish
Marine Shale Processors. Inc., Amelia, St. Mary Parish
Petro-Processors of Louisiana, Incorporated, Baton Rouge, East Baton 
        Rouge Parish
NEW MEXICO
AT & SF (Albuquerque), Albuquerque, Bernalillo County
Cal West Metals (USSBA), Lemitar, Socorro County
OKLAHOMA
Kerr-McGee Refinery Site, Cushing, Payne County
National Zinc Company, Bartlesville, Washington County
Oklahoma Refining Company, Cyril, Caddo County
Tinker Air Force Base (Soldier CR/Building 3001), Midwest City, 
        Oklahoma County
TEXAS
Air Force Plant #4 (General Dynamics), Fort Worth, Tarrant County
Alcoa (Point Comfort)/ Lavaca Buy, Point Comfort, Calhoun County
Brio Refining Inc., Houston, Harris County
French Limited, Crosby, Harris County
Geneva Industries/Fuhrmann Energy, Houston, Harris County
Odessa Super Site, Ector, Ector County
Pantex Plant, Amarillo, Carson County
RSR Corporation, Dallas, Dallas County
United Creosoting Company, Conroe, Montgomery County
Region 7
IOWA
Fairfield Coal Gasification Plant, Fairfield, Jefferson County
Mason City Coal Gasification Plant, Mason City, Cerro Gordo County
KANSAS
Ace Services Incorporated, Colby, Thomas County
MISSOURI
Armour Road Site, North Kansas City, Clay County
Big River Mine Tailings Desloge (a/k/a St. Joe Minerals), Desloge, St. 
        Francois County
St. Louis Airport, St. Louis, St. Louis County
Weldon Spring Site Remediation Action Project (Chemical Plant, 
        Raffinate Pits, Quarry), St. Charles, St. Charles County
Weldon Spring Training Area, Weldon Spring, St. Charles County
NEBRASKA
American Shizuki Corporation, Ogallala, Keith County
Bruno Coop & Associated Properties, Bruno, Butler County
Cleburn Street Well Site, Grand Island, Hall County
Sherwood Medical Company, Norfolk, Madison County
Region 8
COLORADO
Asarco Incorporated (Globe Plant), Denver, Denver County
Hansen Containers, Grand Junction, Mesa County
Rocky Mountain Arsenal, Adams Counky
Smeltertown/Koppers, Salida, Chaffee County
Summitville Mine, Del Norte, Rio Grande County
MONTANA
None available currently.
NORTH DAKOTA
None available currently.
SOUTH DAKOTA
Annie Creek Mine Tailings, Leade, Lawrence County
Williams Pipe Line Company, Sioux Falls, Minnehaha County
UTAH
Kennecott (North Zone), Magna, Salt Lake County
Kennecott (South Zone), Copperton, Salt Lake County
Monticello Mill Tailings (DOE) and Monticello Radioactively 
        Contaminated Properties (a/k/a) Monticello Vicinity 
        Properties), Monticello, San Juan County
Murray Smelter, Murray, Salt Lake County
Ogden Defense Depot, Ogden, Weber County
Petrochem Recycling Corporation/Ekotek, Salt Lake City, Salt Lake 
        County
WYOMING
None available currently.
Region 9
AMERICAN SAMOA
None available currently.
ARIZONA
Luke Air Force Base, Phoenix, Maricopa County
Phelps-Dodge Corp Douglas Reduction Works, Douglas, Cochise County
Williams Air Force Base, Mesa, Maricopa County
Yuma Marine Corps Air Station, Yuma, Yuma County
CALIFORNIA
El Toro Marine Corps Air Station, Santa Ana, Orange County
Fort Ord, Marina, Monterey County
Frontier Fertilizer, Davis, Yolo County
Riverbank Army Ammunition Plant, Riverbank, Stanislaus County
Sacramento Army Depot, Sacramento, Sacramento County
Sola Optical USA, Inc., Petaluma, Sonoma County
Naval Station Treasure Island, Hunters Point Annex, San Francisco 
        County
T.H. Agriculture and Nutrition Company, Fresno, Fresno County
Tracy Defense Depot, Tracy, San Joaquin County
Travis Air Force Base, Solano County
COMMONWEALTH OF THE NORTHERN MARIANAS ISLANDS
None available currently.
GUAM
None available currently.
HAWAII
Del Monte Corporation (Oahu Plantation), Kunia, Honolulu County
Naval Computer and Telecommunication Area, Wahiawa, Honolulu County
NEVADA
None available currently.
TRUSTED TERRITORIES
None available currently.
Region 10
ALASKA
Fort Richardson (U.S. Army), Fort Richardson, Anchorge County
IDAHO
Blackbird Mine, Cobalt, Lemhi County
Triumph Mine Tailings Piles, Halley, Blaine County
OREGON
East Multnomah, Gresham, Multnomah County
McCormick and Baxter Creosoting Company (Portland), Portland, Multnomah
    County
Northwest Pine and Casing Company, Clackamas, Clackamas County
Reynolds Metal Company, Troutdale, Multnomah County
U.S. Army Umatilla Depot Activity, Hermiston, Umatilla County
WASHINGTON
American Crossarm and Conduit Company, Chehalis, Lewis County
Bonneville Power Administration Ross Complex (USDOE), Vancouver, County
Boomsnub/Airco, Vancouver, Clark County
Commencement Bay, South Tacoma Field (a/k/a Commencement Bay, South 
        Tacoma Channel), Tacoma, Pierce County
Fairchild Air Force Base, Spokane, Spokane County
McChord Air Force Base, Tacoma, Pierce County
Old Navy Dump/Manchester Laboratory (USEPA/NOAA), Manchester, Kitsap
    County
Pacific Sound Resources, Seattle, King County
Seattle Municipal Landfill/Kent Highlands, Kent, King County
U.S. Navy Port Hadlock Detachment, Indian Island, Kitsap County

    Mr. Towns. All right, thank you very much.
    The majority staff circulated a memorandum to the 
subcommittee members for this hearing that EPA has completed 
remedial actions at slightly under 200 sites. First, is that an 
accurate statement or is it misleading?
    Mr. Fields. Well, from my perspective, it is a very 
misleading statement. We, in fact, have completed cleanup at 
many more than 200 sites. As I said in the very beginning, both 
Republican and Democratic administrations have all agreed that 
the construction-completion indicator is the best indicator of 
Superfund Program performance. We have, in fact, completed 
cleanup construction at 592 sites to date. We will completing 
cleanup construction at 670 by the end of this fiscal year. 
Almost half of the sites on the Superfund National Priorities 
List will have completed construction by the end of this year. 
That is significant progress. It is the appropriate indicator, 
and not the information that has been provided in the staff 
draft documents.
    Mr. Towns. So, I can just assume that that is inaccurate?
    Mr. Fields. We believe it is an inaccurate indicator and 
not the correct indicator to document Superfund Program 
performance.
    Mr. Towns. Mr. Fields, I have heard from many local 
government representatives that the reuse of contaminated 
properties is of great concern to our cities. I believe that we 
must focus on this concern, the cost to a community when a 
remedy is chosen that does not render the property usable. Can 
you describe whether redevelopment of other beneficial 
activities has taken place at Superfund sites that are either 
construction-complete or still have remedial construction 
ongoing?
    Mr. Fields. Yes, we definitely can document that at many of 
our sites, where construction is complete or construction is 
underway, major reuse is occurring, economic reuse, 
recreational reuse, those reuses that are very beneficial to 
communities. For example, in the industrial-plex site in 
Massachusetts, we have converted a Superfund site into a 
regional transportation center and a shopping complex. At the 
Anaconda site in Montana, we have converted a Superfund site 
that is still under construction into a world-class Jack 
Nicklaus Golf Course. The Chisman Creek site in York County, 
Pennsylvania, we converted that into a recreational area 
involving ball fields.
    We have documented more than 160 Superfund sites to date 
where major reuse, redevelopment, recycling has occurred while 
major construction activity is underway.
    Mr. Towns. Mr. Chairman, may I ask unanimous consent that 
Mr. Fields insert into the records other examples of 
redevelopment and beneficial activities that are now taking 
place at the Superfund sites?
    Mr. Oxley. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 60198.003
    
    [GRAPHIC] [TIFF OMITTED] 60198.004
    
    [GRAPHIC] [TIFF OMITTED] 60198.005
    
    [GRAPHIC] [TIFF OMITTED] 60198.006
    
    [GRAPHIC] [TIFF OMITTED] 60198.007
    
    [GRAPHIC] [TIFF OMITTED] 60198.008
    
    [GRAPHIC] [TIFF OMITTED] 60198.009
    
    [GRAPHIC] [TIFF OMITTED] 60198.010
    
    [GRAPHIC] [TIFF OMITTED] 60198.011
    
    [GRAPHIC] [TIFF OMITTED] 60198.012
    
    [GRAPHIC] [TIFF OMITTED] 60198.013
    
    [GRAPHIC] [TIFF OMITTED] 60198.014
    
    [GRAPHIC] [TIFF OMITTED] 60198.015
    
    [GRAPHIC] [TIFF OMITTED] 60198.016
    
    [GRAPHIC] [TIFF OMITTED] 60198.017
    
    [GRAPHIC] [TIFF OMITTED] 60198.018
    
    [GRAPHIC] [TIFF OMITTED] 60198.019
    
    [GRAPHIC] [TIFF OMITTED] 60198.020
    
    [GRAPHIC] [TIFF OMITTED] 60198.021
    
    [GRAPHIC] [TIFF OMITTED] 60198.022
    
    [GRAPHIC] [TIFF OMITTED] 60198.023
    
    [GRAPHIC] [TIFF OMITTED] 60198.024
    
    [GRAPHIC] [TIFF OMITTED] 60198.025
    
    [GRAPHIC] [TIFF OMITTED] 60198.026
    
    [GRAPHIC] [TIFF OMITTED] 60198.027
    
    [GRAPHIC] [TIFF OMITTED] 60198.028
    
    [GRAPHIC] [TIFF OMITTED] 60198.029
    
    [GRAPHIC] [TIFF OMITTED] 60198.030
    
    Mr. Oxley. The gentleman's time has expired. The gentleman 
from Ohio, Dr. Ganske.
    Mr. Ganske. Thank you, Mr. Chairman.
    Mr. Fields, I know that Mr. Greenwood is going to be asking 
you some questions about brownfields, and so I am going to move 
really to this chart that you have shown. What bothers me about 
your statement is--what bothers me is that your statement, the 
administration budget document, many of Administrator Browner's 
statements repeat over and over an argument that to me doesn't 
make since mathematically or logically. The question I want to 
ask you about is whether a given set of facts logically proves 
a given conclusion about the pace of cleanups. So, let me walk 
through this.
    I want to refer to an enclosure to a letter the GAO wrote 
to Carol Browner on January 28, 1998. The letter responds to 
EPA criticism of a GAO report on the current times for listing 
and moving a site through the cleanup process.
    The enclosure states that site completions are not evidence 
of the pace of cleanups. The GAO response to EPA states, ``This 
is not evidence of decreasing processing times. Rather, it is 
an indication that the program, now more than 15 years old, has 
been around long enough for a substantial number of sites to 
have had remedies constructed. Given the long cleanup times for 
many sites, it is not surprising that more sites, most listed 
years ago, are now reaching the end of the cleanup.''
    It seems to me the GAO report is correct. Do you agree?
    Mr. Fields. We have discussed this with the GAO and Mr. 
Guerrero, who will be speaking right after me. We have some 
serious disagreements about that study, and we have discussed 
this privately and publicly. Our disagreements with the GAO 
analysis of the timeline that they have documented in their 
report--and I have read that report several times--we, in fact, 
have documented, and I will be happy to provide for the record 
documentation which says the time it takes to go through the 
process has been reduced by 2 years. It now takes, on the 
average--and we can provide sites to give you documentation for 
this--eight years from the time you finalize a site on the NPL 
until construction is complete.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 60198.031
    
    [GRAPHIC] [TIFF OMITTED] 60198.032
    
    [GRAPHIC] [TIFF OMITTED] 60198.033
    
    [GRAPHIC] [TIFF OMITTED] 60198.034
    
    [GRAPHIC] [TIFF OMITTED] 60198.035
    
    [GRAPHIC] [TIFF OMITTED] 60198.036
    
    [GRAPHIC] [TIFF OMITTED] 60198.037
    
    [GRAPHIC] [TIFF OMITTED] 60198.038
    
    [GRAPHIC] [TIFF OMITTED] 60198.039
    
    [GRAPHIC] [TIFF OMITTED] 60198.040
    
    [GRAPHIC] [TIFF OMITTED] 60198.041
    
    [GRAPHIC] [TIFF OMITTED] 60198.042
    
    [GRAPHIC] [TIFF OMITTED] 60198.043
    
    [GRAPHIC] [TIFF OMITTED] 60198.044
    
    [GRAPHIC] [TIFF OMITTED] 60198.045
    
    [GRAPHIC] [TIFF OMITTED] 60198.046
    
    [GRAPHIC] [TIFF OMITTED] 60198.047
    
    [GRAPHIC] [TIFF OMITTED] 60198.048
    
    [GRAPHIC] [TIFF OMITTED] 60198.049
    
    [GRAPHIC] [TIFF OMITTED] 60198.050
    
    [GRAPHIC] [TIFF OMITTED] 60198.051
    
    Mr. Ganske. But, you would admit, then, that simply looking 
at a chart where you list just the number of projects being 
brought to completion in any given year is not an index of 
progress, in terms of the length of time that it is taking to 
get it completed, because you may just have that many more 
projects in the pipeline? So that, as you add more and more 
projects on, you can expect that you are eventually going to 
get more and more of them completed.
    Mr. Fields. You are right in the sense that there will be 
more sites completed because of time in the process. But, it is 
very clear that the progress you see on that chart could not 
have been achieved as quickly as it is being done without the 
administrative reforms. We were doing, if you look at that 
chart, 65 construction completions a year in the early 1990's. 
As you look at the data, we are now up to 85 a year. In the 
last 2 years alone we have achieved 175 construction-
completions. We were not operating at nearly that pace in the 
early 1990's.
    Mr. Ganske. Well, maybe you can explain to me--in 1992, the 
last year of the Bush administration, there were 87 
construction-completes. In the next 4 years, in the Clinton 
administration, there were 68, 60, 62, and 62, respectively. 
What was the difference?
    Mr. Fields. The difference was that we got an infusion of 
money just prior to that year that we achieved 87 in the Bush 
administration. It was, actually, the year before we adopted 
construction-completion as being the indicator of Superfund 
Program progress. The additional infusion of money, roughly, 
$400 million, was what allowed us to move faster toward getting 
more cleanups done that particular year. But, the overall 
budget that we achieved, $1.5 billion a year, that budget, as 
you have seen during the 4 years 1993, 1994, 1995, and 1996, 
that budget allows you to achieve 65 cleanups a year. That is 
what we told Congress 6 years ago--by 2000, we would have 650 
construction completions.
    Because of the administrative reform agenda we have been 
implementing, over the last 6 years, we are now going to 
achieve 650 construction-completions by this summer. That is 
about a year and a half earlier than we told Congress. And, the 
real reason we are getting there faster is because of the 
administrative reforms. We have the same amount of money, but 
we are doing it faster.
    Mr. Ganske. But it's your contention that you are getting 
the sites cleaned up in a shorter timeframe. Now, does the GAO 
agree with that?
    Mr. Fields. I think, when you look at the GAO testimony, 
the GAO testimony, as I read it last night, indicates that 
significant progress has been made in this program and that 
Superfund has been implementing its construction-completion 
initiative in a fair and constructive way. The General 
Accounting Office actually did a review. A document was 
prepared on our construction-completion initiative. The General 
Accounting Office's report was quite favorable about how we 
document and how we are completing many more constructions at 
Superfund sites.
    Mr. Oxley. The gentleman's time has expired. The gentlelady 
from Colorado.
    Ms. Degette. Thank you, Mr. Chairman.
    I bet you know what I want to talk about, Mr. Fields. And, 
I want to clarify a few things with you. The reason I said, in 
my opening statement, that with this new I-70 and Vasquez site 
in Denver, that I think that the wishes of the neighborhood and 
the property values should be taken into account, is because we 
have this existing Superfund site in Denver, the Shattuck site, 
which we have had a number of conversations about in the last 
year. In fairness to the EPA, this was a site that was closed 
before this administration came in.
    However, in my opinion, in the bipartisan opinion of every 
elected official who deals with this site, and in the opinions 
of over 80 percent of the Denver voters, the ``remedy,'' which 
is containment onsite in a residential neighborhood of uranium, 
was inappropriate in this situation. And, I have been trying to 
get a sense from the EPA now for about a year of what it is 
that you folks intend to do about this.
    Last fall, after the voters elected, by a referendum, that 
they wanted this stuff moved out, the EPA announced that it 
would appoint a blue-ribbon panel to figure out what was going 
on. And, I learned, a couple of weeks ago that nothing happened 
with the blue-ribbon panel. Then, after I met with you, and 
some other officials from the EPA, I received a letter from you 
saying that perhaps we could have a meeting of interested 
parties that the Keystone group could facilitate, giving me the 
impression that you folks wanted me to pay for, at least, part 
of that meeting.
    Then, after that, you visited Denver and announced that you 
were going to have an investigation whether lower standards 
were applied in cleaning up the waste. At the request of 
Senator Allard, you said you were going to appoint an EPA 
ombudsman; you said you were going to have an analysis by a 
Boston consulting firm, and, then, you also said you were going 
to have some meetings with the neighborhood.
    So, here is my question to you: Exactly what is it that the 
EPA intends to do, and exactly what is the timeframe in which 
you intend to do it?
    Mr. Fields. Thank you, Congressman. Again, we thank you for 
your active involvement at the site. I assure you that that 
active involvement has helped facilitate EPA's involvement at 
that site.
    In my meeting with you, I made a commitment that we would 
play a more active role in headquarters in the review of 
activities at that site, and we are doing so. We are going to 
do a full review of activities at that site. The Administrator 
has asked me to personally oversee the review of the remedy.
    We are doing four things: We are going to be doing a 
detailed scientific and technical review of the remedy, a 
contractor that we will be hiring will be evaluating all the 
technical and scientific issues raised by the community----
    Ms. Degette. And, what is the timeframe for that?
    Mr. Fields. That will be done by September.
    Second, we will be doing an ombudsman review. The National 
Ombudsman for Superfund, who works for me, will be doing a 
review of some of the community concerns that have been raised 
at the site, about environmental justice issues, about 
placement of that site in the community, and about the impact 
on re-development, some of the non-technical types of issues 
that have been raised about the Shattuck site.
    Ms. Degette. And when will that be done?
    Mr. Fields. Everything is going to be done this summer. All 
four of these pieces will be completed this summer.
    Ms. Degette. So the ombudsman review is not dependent on 
the scientific data? It is a separate assessment?
    Mr. Fields. No, all of these are being done on a parallel 
track to help facilitate getting the job done.
    Third, as you mention, we will be hiring the Keystone 
Center in Keystone, Colorado, to facilitate several meetings 
that I will be present at, with key stakeholders involved in 
the Shattuck site. The mayor's office, the Governor's office, 
representatives of Shattuck have agreed to participate, the 
responsible party, representatives of the community.
    We are going to schedule that meeting at a time that you 
can be there. We would like you to come and address that 
meeting when----
    Ms. Degette. Thanks for letting me know.
    Mr. Fields. We will not schedule it unless you are 
available, I assure you of that. And, that meeting I expect to 
be sometime in the April to early May timeframe.
    We are going to hire the contractor by April. We will have 
the contractor onboard at the Keystone Center. And then, that 
will be done during the summer.
    And then, last, I have agreed to, personally, meet with the 
parties--the meeting with you was one such meeting. I, 
subsequently, met with the mayor a couple of weeks ago. We will 
be meeting with Senator Allard. We will be meeting with the 
representatives of Shattuck, and their views and comments will 
be considered.
    Then, we have agreed, as an agency, to make our 
headquarters determination by the fall as to what we are going 
to do at the Shattuck site, based on the input from all four of 
those parallel efforts that will be underway.
    Mr. Oxley. The gentlelady's time has expired. The gentleman 
from Virginia, the chairman of the full committee.
    Chairman Bliley. Thank you, Mr. Chairman.
    Mr. Fields, many of us are familiar with the waves of 
litigation that the Superfund law causes, I want to go over 
them with you.
    Typically, EPA will go after a certain number of larger, 
potentially responsible parties. Those PRP's, in turn, can sue 
other small PRP's for contributions. The second group is 
allowed to sue even more PRP's. We have seen thousands brought 
into the mix, from Barbara Williams with her mashed potatoes, 
to auto dealers who recycle oil. In addition to these waves, 
PRP's can also create separate litigation against their 
insurance carriers. All of these are parties who probably will 
at least hire a lawyer and many incur thousands in unnecessary 
expenses--all of this, often for insignificant contributions of 
waste.
    Many are liable for activities that occurred over 30 years 
ago. Many are liable because they bought a company which was 
acting in full accordance with the law. The system is a 
travesty.
    The National Federation of Independent Businesses has 
testified, ``There have been over 100,000 different potentially 
responsible parties identified at Superfund sites.'' The effect 
of the current liability system is permeating all segments of 
the small business community. No issue, in this very complex 
public policy debate, will have a more direct impact on the 
present and future economic viability of many small businesses. 
That is, in one segment, whether it be a retail store, a 
professional service business, or a construction business that 
has not been touched. My question is: Why is the administration 
not working with us on statutory reforms to these problems?
    Mr. Fields. We agree with you that the litigation impact 
needs to be considered and addressed. We support getting 
Barbara Williams out of the system. That is why we support a 
legislative provision that would exempt and provide liability 
relief for small generators and transporters of municipal solid 
waste. Barbara Williams would not be in our liability system if 
that kind of legislative provision were enacted.
    Over the last 6 years, second, we have introduced an 
aggressive reform agenda where we have settled, with 18,000 de 
minimis parties, with 400 settlements, to get them out of the 
Superfund liability system, to make sure they are not sought 
after by third-party litigants and to cut down on litigation by 
that reform. We have implemented a de micromis enforcement 
policy that allows people to settle out for a dollar out of the 
Superfund liability system. We have offered $145 million in 
orphan share funding to help facilitate settlements. And we 
have found that, in terms of larger parties, we have seen more 
fairness being implemented as well. PRP's, over the last 3 
years, have agreed to conduct cleanup under the settlement 
reform, agreements rather than through unilateral 
administrative orders. That is up from 50 percent more than 3 
years ago.
    So, we think that in all aspects of the program, we have 
tried to be fair to the larger parties as well as the smaller 
parties. And we support, as you do, liability reform to get 
Barbara Williams and other small entities out of the Superfund 
liability system.
    Chairman Bliley. Thank you, Mr. Chairman. I have no further 
questions.
    Mr. Oxley. I thank the gentleman. The gentleman from 
Wisconsin, Mr. Barrett.
    Mr. Barrett. Thank you, Mr. Chairman.
    I apologize that I wasn't here to hear your testimony, but 
looking at your written submission, I note that you state that 
the agency has gone from cleaning up 65 sites per year to 
cleaning up 85 sites per year. And, obviously, that is 
something that I think that you can be proud of, if you are 
working more efficiently and effectively. What was the key that 
allowed you to get from 65 to 85?
    Mr. Fields. Well, it was the set of administrative reforms 
we have introduced over the last 3 years. We implemented three 
rounds of administrative reforms, and those reforms include 
things like presumptive remedies, where we don't have to spend 
2 years studying how to clean up certain categories of sites 
like volatile organic chemicals or municipal landfills; that 
saved time. The fact that we have reduced cost in the cleanup 
process by 20 percent, that has allowed us to do more cleanups 
with the same amount of money. So, it is this set of reforms 
that have allowed us to move faster in this process.
    We are now doing it faster and, because of that, we are now 
cleaning up 85 sites a year as opposed to 65, one-third 
increase in the number of cleanups that we are doing each year. 
So, we think that the administrative reform agenda is what has 
allowed us to address many more sites than we were formerly 
able to address during the early 1990's.
    Mr. Barrett. Have you found that, along with that increased 
speed, that you have increased hostility toward the agency?
    Mr. Fields. No, I don't think that that has increased 
hostility at all. We are finding that, you know, more than 70 
percent of the cleanups that we are effectuating are being done 
by responsible parties. The sites that were cleaned up in, for 
example, the construction-completions in fiscal year 1998, 72 
percent of those were done by responsible parties. So, we are 
seeing that, over the last 5 years, roughly, 70 percent of the 
cleanups are being done by responsible parties.
    We are thinking that the enforcement dollars we are putting 
into this program have been tremendously leveraged. We have 
obligated $2.3 billion over the last 18 years for enforcement 
and cost-recovery activities in this program. That has resulted 
in more than $15.5 billion in responsible-party activity. In 
addition to what we are putting in the trust fund, the 
responsible parties are stepping up to the plate and doing 
effective cleanup and helping us facilitate and do a greater 
number of cleanups each year, because of the aggressive job we 
have in enforcement and the responsible-party activity going on 
at many of these sites.
    Mr. Barrett. In my experience in Wisconsin, the State that 
I come from, it appears that a strong Federal cleanup program, 
with the Federal liability scheme and the threat of NPL 
listing, has, in a way, benefited the State cleanup program 
because you are so much the ``gorilla in the closet,'' if you 
will, that nobody wants to have the EPA come in and a Superfund 
come in. Is that experience similar in other States? Are you 
seeing more States becoming active, trying to avoid, at all 
costs----
    Mr. Fields. That is definitely true. We have seen that in 
many States, in implementing--as the chairman was indicating, 
it goes much beyond Superfund, much beyond the NPL. State 
programs are telling us that the fact that we have a joint and 
several liability scheme, a strong liability provision in the 
Superfund law, actually helps them in terms of getting more 
cleanup done. The regulated community, and other parties, would 
rather do cleanup pursuant to a State cleanup program than get 
involved in being on the Superfund List or have to get involved 
in being on the National Priorities List. The State programs 
have told us that a powerful Federal statute allows them to get 
much more cleanup. This fact has been documented, in reports 
prepared by the U.S. General Accounting Office as well.
    Mr. Barrett. When you have a situation--again, I am 
thinking of my own State--where you have got a cleanup site 
where the State, and most of the local players, desperately 
don't want to have the Superfund involvement, what is the 
criteria you are using to decide whether you are going to allow 
this State to move forward on its own or whether you are going 
to step in?
    Mr. Fields. Well, as we said earlier, we have been working 
closely with the States over the last 3 years, under our State 
Governor concurrence policy. We consider the threat posed by a 
site; we consider whether or not the State is willing to take 
that site on; we consider whether or not that site is one where 
there are willing, or unable or unwilling or incapable 
responsible parties to deal with the site. If the State is 
willing to take the site, we are willing to defer to a State 
voluntary cleanup program or to a State Superfund program, or 
to voluntary PRP action. We only utilize the National 
Priorities List, and make a site a Federal interest, if it 
cannot be dealt with any other way.
    Over the last 5 years, we have listed, roughly, 25, 26 
sites on the NPL each year. We don't put sites on the NPL just 
because they score above 28.5. We do it when we can't find an 
alternative way to deal with that site.
    Mr. Oxley. The gentleman's time has expired. The gentleman 
from Pennsylvania, Mr. Greenwood.
    Mr. Greenwood. Thank you, Mr. Chairman.
    I would like to place into the record, and provide to Mr. 
Fields, a set of statements from parties who have been seeking 
statutory reform to provide certainty and finality for State 
voluntary and brownfields cleanups. These parties supported the 
language in H.R. 3000, Congressman Oxley's bipartisan bill from 
last session, which included my brownfield provisions. This 
group includes the State waste management officials, the 
Governors, the State attorneys general, cleanup engineers, and 
contractors, and realtors. Do you have a copy of that yet, Mr. 
Fields?
    [The information referred to follows:]
Parties Seeking Statutory Reform to Provide Certainty and Finality for 
               State, Voluntary and Brownfields Cleanups
     excerpts from testimony and letters from hearings before the 
 subcommittee on finance and hazardous materials in the 105th congress 
                              on h.r. 3000
National Governors' Association
    ``The Governors believe that congressional direction is needed 
because the September 1997 EPA draft guidance on state voluntary clean-
up programs would have seriously eroded state authority at the expense 
of federal programs. Although the draft guidance was withdrawn, the 
Governors is still prevalent. They support the brownfields provisions 
in H.R. 3000 and believe that these changes would facilitate cleanups 
across the nation and provide certainty for remediating parties.
    States believe that voluntary cleanup programs and brownfields 
development are being hindered by the pervasive fear of liability under 
CERCLA. The Governors would strongly support provisions that encourage 
potentially responsible parties and prospective purchasers to 
voluntarily clean up sites and reuse and develop contaminated property 
by precluding federal enforcement at sites where cleanup has occurred 
under state programs . . .''
Association of State and Territorial Waste Management Officials
    ``Our second goal will be met if title III of H.R. 3000 is enacted 
and States are allowed to release sites from federal liability once a 
site has met State standards. The reality is the CERCLA statute has 
become a primary impediment to remediating sites not listed on the NPL, 
yet they are still subject to CERCLA liability even after the site has 
been listed on the NPL. The majority of sites classified as Brownfields 
will never be placed on the NPL, yet they are still subject to State 
standards. We can no longer afford to foster the illusion that State 
authorized cleanups may somehow not be adequate to satisfy federal 
requirements. The potential for EPA overfile and for third party 
lawsuits under CERCLA is beginning to cause many owners of Brownfields 
sites to simply ``mothball'' the properties . . . States should be able 
to release sites from liability once a site has been cleaned up to 
State standards . . .''
The National Association of Attorney Generals
    ``Federal statutory provisions should be flexible enough to 
accommodate different state voluntary cleanup laws. States should be 
able to self-certify, subject to EPA's approval. After such approval, 
the state should be authorized to issue a release from federal 
liability when a volunteer complies with a federally approved state 
brownfields program. In this fashion state brownfields programs can 
operate to their fullest potential.''
Clean-up Engineers and Contractors
    ``HWAC [Hazardous Waste Action Coalition] is our trade association 
representing more than 60 of the country's leading engineering, science 
and construction firms practicing in multimedia environmental 
management and remediation. [H.R. 3000] is badly needed. This bill IS 
protective of human health and environment; it Does promote and enhance 
clean-up. This bill Will ensure that innovations are applied to 
cleanups; it provides incentives for new technologies at hazardous 
waste sites. And the bill WILL spur essential state and local voluntary 
cleanup programs that sometimes languish due to the shadow of potential 
CERCLA liability that runs from the Beltway to every Brownfield site in 
this country.''
The National Association of Realtors
    ``Uncertainty over potential liability associated with real estate 
which is an actual or potential Superfund site has proven to be a 
significant deterrent in the purchase, sale and development of 
commercial and residential properties. Properties that could be 
positively contributing to local economies remain dilapidated, 
contributing to nothing but economic ruin''.

    Mr. Fields. Not yet.
    Mr. Greenwood. I think that it is coming at you here.
    Let me read some quotes from these statements, first from 
the--first, do you have one now, sir? Okay, very good. If you 
look at the National Governors Association, the second 
paragraph--I am just shortening it to get through this--states, 
``States believe that voluntary cleanup programs and 
brownfields development are being hindered by the pervasive 
fear of liability under CERCLA. The Governors would strongly 
support provisions that encourage potentially responsible 
parties and prospective purchasers to voluntarily clean up 
sites and to reuse and develop contaminated property by 
precluding Federal enforcement at sites where cleanup has 
occurred under State programs.'' That is the National Governors 
Association.
    If you look at the Association of State and Territorial 
Waste Management Officials, it says, ``The reality is that 
CERCLA statute has become a primary impediment to remediating 
sites not listed on the NPL. Yet, they are still subject to 
CERCLA liability, even after the site has been listed on the 
NPL. We can no longer afford to foster the illusion that State-
authorized cleanups may somehow not be adequate to satisfy 
Federal requirements. The potential for EPA overfile and for 
third-party lawsuits under CERCLA is beginning to cause many 
owners of brownfield sites to simply `mothball' the properties. 
States should be able to release sites from liability once a 
site has been cleaned up to State standards.''
    National Association of Attorney Generals, about halfway 
down: ``The States should be authorized to issue a release from 
Federal liability when a volunteer complies with federally 
approved State brownfields program, and in this fashion, State 
brownfields programs can operate to their fullest potential.''
    The cleanup engineers and contractors, the Hazardous Waste 
Action Coalition says: ``The bill will spur essential State and 
local voluntary cleanup programs that sometimes languish due to 
the shadow of potential CERCLA liability that runs from the 
Beltway to every brownfields site in this country.''
    And, finally, from the National Association of Realtors, 
quote, ``Uncertainty over potential liability associated with 
real estate which is an actual or potential Superfund site has 
proven to be a significant deterrent to the purchase, sale, and 
development of commercial and residential properties. 
Properties that could be positively contributing to local 
economies remain dilapidated, contributing to nothing but 
economic ruin.''
    Now, Mr. Fields, briefly, these groups say that when a 
party works with the State on a cleanup plan that should be 
final, there should be a release from further liability and 
cleanup issues. This would seem to require statutory change.
    As I read your testimony, the administration's answer to 
this point is that EPA has entered into 85 prospective 
purchaser agreements and issued over 250 conferred-status 
letters. And, I am aware that has happened in my district and 
it been helpful. But, this would suggest that EPA has to get 
involved at every site, at least in this manner, to get this 
kind of release.
    I understand that there would be tens of thousands of 
brownfields sites. The question is, do you really believe this 
administrative approach will solve the problem with so many 
sites involved?
    Mr. Fields. Well, we think that, you know, prospective 
purchaser agreements and comfort letters are tools that have 
been utilized, but we think the real answer here is to have an 
effective partnership between the Feds and the States. The 
General Accounting Office indicates that there are 450,000 
brownfields sites across the country. And, we, in the Federal 
Government, will not ever be able to deal with all those sites. 
We have enough difficulties just being able to address the, 
roughly, 1,300 sites on the Superfund National Priorities List. 
We believe the job, the answer to the finality questions, is to 
have the States enter into memoranda of agreement with the 
Federal Government, to make clear that there is a partnership 
where we are deferring to the State for cleanups of voluntary 
cleanup of brownfields and VCP sites in that State.
    Mr. Greenwood. But, isn't it the case of, if one PRP will 
not release another PRP from liability, that that is not going 
to solve the problem?
    Mr. Fields. Well, that is an issue that we have got to make 
sure that we have to better communicate the fact that we have 
never intervened. We have never intervened in an oversight of a 
cleanup by a State unless that State specifically asked. We 
think we have got to maintain a Federal safety net for those 
situations where a State wants us to come in.
    Mr. Greenwood. But, the problem is that a PRP can 
intervene--I mean, you have got two levels here; you have got 
DC, Washington, the Federal Government. EPA looms over and 
can--you say it hasn't--but the problem is you can't measure 
the invisible effect of the fact that you can and haven't. You 
can't measure what that does to property owners, potential 
buyers, and, also, potentially responsible parties can 
intervene, even if you don't, after a State has completed its 
work. Isn't that right?
    Mr. Fields. That is correct.
    Mr. Oxley. The gentleman's time has expired.
    Mr. Greenwood. So, to fix that, we need a statutory change. 
Okay.
    Mr. Oxley. The gentleman from Illinois, Mr. Rush.
    Mr. Rush. Thank you, Mr. Chairman. I don't have a lot of 
questions. I just have 1 or 2.
    Mr. Fields, can you go into more details about your 
cooperation between EPA and local stakeholders, community 
organizations, not-for-profits, universities? Exactly how is 
the EPA engaging the local components, local stakeholders, in 
brownfields cleanups? And can you explain, go into more detail, 
about how it actually works?
    Mr. Fields. Sure. We have made very clear, since the 
beginning of our brownfields initiative, in January 1995, that 
local stakeholder involvement is a critical component, as we 
cleanup brownfields, and that has been very successful. In 
addition to the grants we have given out to now 250 communities 
across America, the private parties have now contributed more 
than a billion dollars toward cleanup. And that is part of the 
answer to Mr. Greenwood's question. Private parties are 
actually finding that brownfields are something they want to 
invest in; they are coming to the table and are getting 
involved. More than 2,500 jobs have been created.
    And, we are making clear that, when we award a brownfields 
grant, roughly, $200,000 to one of these 250 communities, they 
have to have involvement with the local community. We require, 
before they can even get a grant, that there is clear 
demonstration that the community is involved; the community 
supports this grant; the State voluntary cleanup program is 
supportive of this grant being applied for and being given by 
EPA. So we assure that environmental justice and environmental 
and community concerns are addressed prior to the award of a 
brownfields grant.
    That is why we never had, in the 4-year history of this 
program, we have never had a title VI complaint filed around a 
brownfields site. It is because we have assured effective, 
coordinated community involvement upfront. So people are not 
filing civil rights complaints, because the communities are 
involved upfront, as we initiate brownfields activities in 
their communities. They are part of the process. We are looking 
at how they can be involved in job creation, how the reuse 
options that are looked at in that community are worked on with 
the community in mind and with community involvement.
    Mr. Rush. Does the local, regional EPA administrator--are 
they the first point of contact between the local stakeholders 
and the EPA or--what functions do the regional offices, what 
functions do they have in terms of this entire process?
    Mr. Fields. Well, each regional administrator has appointed 
a brownfields coordinator in their region. That brownfields 
coordinator works with the cities and the States who apply for 
a brownfields grant, and that brownfields application, when it 
comes into the regional office, that has been done with 
consultation by EPA and other Federal and State staff. 
Therefore, the regions do an initial screening, the brownfield 
coordinators, of those applications, and then the applications 
come to EPA headquarters, where we pick the finalists and those 
grantees that would be selected to be new brownfield pilots, 
either for assessment grants or, under the new support of 
Congress, a revolving loan fund grant. But, the regions each 
have their brownfields coordinator that reviews them before 
they come to Washington.
    Mr. Rush. Mr. Chairman, I am not sure if this should be 
transmitted through you, but I would like to have information 
regarding my district, the first district of Illinois, the city 
of Chicago, and the State of Illinois. I would like to know who 
has assessment grants, who has been given loans, what 
organizations are involved in your efforts there, because I am 
unaware of any entity, particularly in my district.
    Mr. Fields. We will be happy to provide that. We will be 
happy to give you that. We have, by congressional district, the 
brownfields grants that have been awarded and we will be happy 
to share that with you, for the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 60198.052
    
    [GRAPHIC] [TIFF OMITTED] 60198.053
    
    [GRAPHIC] [TIFF OMITTED] 60198.054
    
    [GRAPHIC] [TIFF OMITTED] 60198.055
    
    [GRAPHIC] [TIFF OMITTED] 60198.056
    
    [GRAPHIC] [TIFF OMITTED] 60198.057
    
    [GRAPHIC] [TIFF OMITTED] 60198.058
    
    [GRAPHIC] [TIFF OMITTED] 60198.059
    
    [GRAPHIC] [TIFF OMITTED] 60198.060
    
    [GRAPHIC] [TIFF OMITTED] 60198.061
    
    [GRAPHIC] [TIFF OMITTED] 60198.062
    
    [GRAPHIC] [TIFF OMITTED] 60198.063
    
    [GRAPHIC] [TIFF OMITTED] 60198.064
    
    [GRAPHIC] [TIFF OMITTED] 60198.065
    
    [GRAPHIC] [TIFF OMITTED] 60198.066
    
    [GRAPHIC] [TIFF OMITTED] 60198.067
    
    Mr. Oxley. The gentleman's time has expired. The gentleman 
from Maryland, Mr. Ehrlich.
    Mr. Ehrlich. I asked my colleague from Pennsylvania, Mr. 
Greenwood--Jimmy, I will be glad to yield some of my time to 
you because you are discussing an issue that is important to 
me, and I think a lot of us here. I, certainly, want you to 
have your full time because I think the question you asked was 
very relevant, sir, with respect to these non-NPL sites and 
sites that have a State plan.
    Obviously, I guess this is a philosophical view that you 
express, in answer to my colleague from Pennsylvania, in the 
sense that he asked you if it is possible for the Feds to sign 
off, and you discussed the context of various releases from 
liabilities, purchaser agreements, status letters, whatever. 
The fact that it is your view that you can engage in a variety 
of remedies, but it is your view that you should have the final 
signoff, the ``safety net,'' I believe is the phrase that you 
used--and, of course, as you know, it has been asked in various 
ways; that is the focal point of some of our problems. Because 
you have PRP's out there who are scared; there is a chilling 
effect, you know it and I know it.
    But, could you further engage this area of questioning? I 
am just interested in hearing, in the real world, how this 
plays out and whether there is a regulatory fix or how you can 
better remedy this particular situation which I know you know 
exists.
    Mr. Fields. Right. I think, Congressman, one clear way is 
to try to deal with the liability issue. We do not believe, 
however, that liability has prevented brownfields cleanup and 
redevelopment. A lot is occurring. We see billions of dollars 
of work going on every year. We see hundreds of sites being 
cleaned up across the country. We think that what we ought to 
do--the brownfields bills have been introduced, and Mr. 
Greenwood has been a real leader in the brownfields agenda, and 
we support his work on the various bills he has introduced.
    We think that what we have for brownfields is a good 
mechanism for funding. And, Congress has agreed that we should 
fund assessment grants and revolving loan fund grants, and some 
bills have proposed that, but we really don't think we need 
legislative authority for that because the authority is in the 
current Superfund law to fund brownfields, to fund those 
activities.
    Second, you need liability relief. We think, for 
brownfields we need liability relief for prospective purchases; 
we need liability relief for innocent landowners, for 
contiguous property owners, who had nothing to do with 
contamination that may be existing at their properties. We 
believe that we ought to have liability relief for small 
generators and transporters of municipal solid waste. You know, 
liability relief like that is kind of----
    Mr. Ehrlich. Truly innocent parties.
    Mr. Fields. Right. We see that as part of the brownfields 
agenda. The types of revisions that the administration is 
supporting, as part of targeted legislative reform, are the 
kinds of things, we believe that will help facilitate 
brownfields redevelopment.
    Mr. Greenwood's bills, that he has introduced--and I have 
reviewed those--those bills have included provisions along the 
lines of what the administration is supporting. like the type 
of targeted liability relief to get certain parties out of the 
system, so we don't have to worry about them getting entangled 
in transactions around brownfields.
    Mr. Ehrlich. Well, that is a mutually agreeable goal.
    I will be glad to yield to my colleague, Mr. Greenwood from 
Pennsylvania. On the basis of that statement, Mr. Chairman, I 
look forward to moving the bill out of this subcommittee 
shortly, but I don't know if Mr. Greenwood would like to follow 
up on that line of questioning. I will be glad to yield.
    Mr. Oxley. The gentleman from Pennsylvania.
    Mr. Greenwood. I thank the gentleman for yielding.
    I just want to be clear on--Mr. Fields, what is your view, 
ultimately, on release of Federal liability then? At what point 
are you prepared to release a site from any Federal liability 
as a matter of policy?
    Mr. Fields. As a matter of policy, Mr. Congressman, we 
believe that the process we have outlined in our November 1996 
guidance about voluntary cleanup programs and memorandum of 
agreements, we believe that by signing a memorandum of 
agreement, as we have done with 11 States, to date, and with 
other States under negotiation, that is the best way policywise 
to send a signal to the regulated community; that is an 
agreement between the Feds and the States, within this 
particular State, whereby, we are deferring to that State and 
are saying that a cleanup is being done by the State of those 
that we will allow to be the appropriate cleanup for the 
brownfields and the other contaminated properties in that 
State. A VCP program, with an agreement signed between the 
Federal Government and the State, we believe policywise is the 
best way to effectuate that finality. I assure you, we haven't 
done it in 18 years; we do not intend now to intervene, when we 
have an agreement with a State and we are deferring to them for 
a cleanup.
    I have had discussions with personnel in the Pennsylvania 
Environmental Department about entering into an agreement with 
Pennsylvania. We want to do so. And, we think that is the best 
way to assure the degree of finality we need for the regulated 
community.
    Mr. Greenwood. I thank the gentleman for yielding. Let me 
just, if I may, 30 seconds----
    Mr. Oxley. The gentleman's time has expired.
    Mr. Greenwood. The bottom line here is still, as a matter 
of policy, this administration doesn't trust the States to--in 
the final analysis, and that is a philosophical distinction 
that we have here, and I can't think of any reason why the 
Governors can't be trusted as well as the administration can't 
take care of the real estate that is in their own States.
    And, I yield back.
    Mr. Oxley. The gentleman yields back. The gentleman from 
Minnesota, Mr. Luther.
    Mr. Luther. Thank you, Mr. Chairman.
    Nice to see you.
    Mr. Fields, I believe that you have indicated some reasons, 
in some of your prior testimony, as to why you oppose mandatary 
gubernatorial concurrence. And, I wonder if you could just 
amplify, or expand, on that and give us your present thinking 
on that particular issue. Even though, as I understand it, you 
have concurred with

States on these sites, nevertheless, you have opposed that. 
Seems to me that there have been some persuasive arguments that 
have been presented, and I just wonder if you could expand on 
that?
    Mr. Fields. We, obviously, over the last 3 years, more than 
3 years now, have supported a policy of consulting with States 
on listings on the NPL. We believe that, for those few sites we 
do list on the NPL, it should be done in consultation with the 
State. We believe that the State should be involved in the 
process when we have made a determination that there are 
unwilling or incapable parties who are unable to do the 
cleanup. And, we are all in agreement with that. We do not 
believe that it is necessary to be mandatory. We believe it 
should be a flexible process. There may be situations where the 
State wants us to get involved and we would not want something 
that precludes that involvement. There are situations sometimes 
where there may be a severe public health threat, where we may 
have to get involved even if a State may choose or decide they 
don't want us to be. There are situations--and we have 
discovered those--where, in some cases, a State may be a 
responsible party. So, it will be a conflict of interest for a 
State, in that instance, to say they do not want a site listed 
if they are, in fact, a contributing party toward the 
contamination at that site.
    But, in general, our belief is that the current flexible 
policy process has worked quite well, and there is no need for 
a legislative construct to mandate a Governor concurrence 
process in the law.
    Mr. Oxley. The gentleman yields back.
    Mr. Luther. Thank you. I assume there could also be 
instances where there would be more than one State involved?
    Mr. Fields. Yes. That is a good point. There are some sites 
that the impact--I know one instance where sites impact three 
States, and we have seen differing views. One Governor of one 
State may feel that the best approach for dealing with that 
site is through a Superfund listing, and another Governor may 
feel that he or she would want to address that site under a 
voluntary cleanup program. That is why we believe there needs 
to be a flexible process, a partnership, that has gone on for 
more than 3 years now between the States and the EPA in 
deciding how to divvy up and decide on how to address sites 
within that State.
    Mr. Oxley. The gentleman yields back. The gentleman from 
Illinois, Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Mr. Fields, could you give me the example of that one site 
that has three Governors involved and where each of the three 
Governors may have a different view on that? Can you cite that 
particular specific--I mean, not now, but can you----
    Mr. Fields. Right. Sure. I will be happy to provide. I can 
give you one example. For example----
    Mr. Shimkus. No, just give it to me in writing and the 
dates.
    Mr. Fields. Sure. I can do it. I will be happy to provide 
it for the record.
    [The following was received for the record:]

    Leviathon Mine is a site that begins in the State of 
California, but contamination has spread from the mine areas 
downstream to impact lands of the Washoe Tribe, whose 
reservation straddles the California-Nevada border. The State 
of Nevada may also be appropriate to consult with on this site. 
The Washoe tribe is extremely supportive of NPL listing, but 
the State of California, who is a PRP for the site, has

not supported listing in response to a letter requesting their 
support from EPA Region IX.

    Mr. Shimkus. Because I believe that the Governors probably 
could come to some type of agreement.
    I am dealing with a site in Quincy, as many of you know, 
that the municipal landfill was closed in 1978. It was on the 
``watch list'' in 1984, NPL in 1990. The statute of limitations 
is quickly running out. So, in February of this year, they sent 
letters to about 165 small businesses, you know, to settle 
versus the threat of suit to buy the--I get the acronyms all 
messed up--the PRP's; the Principal Responsible Parties.
    So, this whole issue is near and dear, and I have been 
following it very closely for over 21 years. One settlement is 
$150,000, which is the entire total revenue generated, gross, 
of that company in 1 year. So, it would put many of these 
businesses out of business just to settle.
    EPA Administrator Browner stated to this committee in the 
past that innocent small -business owners were never meant to 
be dragged into Superfund liability. In fact, Administrator 
Browner stated that some kind of small business liability 
reform could be worked out to relieve innocent small business 
owners of Superfund liability.
    I would like to ask for unanimous consent to submit the 
attached quotes from Browner, for the record, Mr. Chairman.
    Mr. Oxley. Without objection.
    Mr. Shimkus. And to the best of your knowledge, Mr. Fields, 
is it still the position of the Administrator that small 
businesses, like those in the Quincy area, are in need of 
relief from Superfund liability?
    Mr. Fields. Well, we agree that there is a need to provide 
relief for the particular parties around the Quincy landfill. 
We have tried, as you know--we apologize for the late 
notification to your office about that, but we have----
    Mr. Shimkus. It wasn't late notification to me. It was late 
notification to the businesses, and they are given 5 weeks to 
decide if they are going to settle for $150,000, which wipes 
out their total annual income.
    Mr. Fields. And, as you know, it was because of a statute 
of limitations issue. And, we found out that the seven major 
responsible parties were going to go after, in litigation, 
those small parties. We want to try to protect them, and we try 
to provide litigation protection from the lawsuit by the major 
parties with these small parties, if we can find a way to enact 
appropriate liability relief. We believe that the small 
generator and transporter of the municipal solid-waste issue 
will address some of these parties----
    Mr. Shimkus. Let me go on because I don't have a lot of 
time.
    Does it have to be done legislatively or can you do that 
administratively?
    Mr. Fields. Well, we can do this administratively. What we 
are proposing to do at Quincy can be done administratively. 
However, we are concerned about, as you indicate, the issue of 
trying to reach agreement on a small business exemption. That 
is something we did discuss in the last two Congresses. We had 
difference of opinion as to what the number of employees ought 
to be, what the amount of money ought to be--should it be $3 
million, $2 million? Should it be 50 employees, 100 employees? 
We were not able to reach an agreement or consensus among a 
variety of people----
    Mr. Shimkus. Who is we?
    Mr. Fields. I mean the House Commerce Committee, the 
Transportation and Infrastructure Committee----
    Mr. Shimkus. And the administration?
    Mr. Fields. [continuing] the Senate Environment Committee. 
We had a lot of dialog on this issue, and there was not an 
agreement on how we define a ``small business.'' What we have 
tried to offer up and target at the reform are those things we 
think everybody can quickly agree on.
    Mr. Shimkus. Let me follow up with this question: Did the 
administration provide legislative language for a small 
business exemption in the last two Congresses?
    Mr. Fields. No. We were specifically requested not to offer 
legislative language in the last two Congresses. We did----
    Mr. Shimkus. By who?
    Mr. Fields. Well, the authorizing committees made clear to 
us----
    Mr. Shimkus. By this committee?
    Mr. Fields. I don't recall. I know the Senate. I don't know 
if the chairman, specifically--we got that message from----
    Mr. Shimkus. Let me ask the chairman; he is here. Mr. 
Chairman, would you accept a request, legislative language, for 
small business exemption from the administration, if they were 
to propose some?
    Mr. Oxley. We would hope that they would add that. And, 
there was never any discussion that I am aware of, to have the 
administration delete that language.
    Mr. Fields. Well, we would be happy to have a dialog about 
that, but we really believe that is going to be something 
difficult to agree on, just because of our history in the last 
two Congresses about what the definition of a small business is 
and who ought to be exempted. We will be happy to work with 
Congress. During the last Congress, for example, as we had 
discussions on this topic, we reached an agreement. We began at 
25 and we arrived at a number of 50----
    Mr. Shimkus. Well, I think that is a hurdle that can be 
overcome; I really do. And, if we want some litigation relief 
for small business, I think--we can start with any number--that 
can all be a change. But, I would request the administration 
engage, if they really believe that small business ought to 
have some liability protections and we ought to not close down 
businesses based upon legal dumping 30 years ago.
    Mr. Oxley. The gentleman's time has expired.
    Mr. Shimkus. I yield back my time.
    Mr. Fields. Just a quick response, the de minimis 
settlements policy we have had in place has eliminated a lot of 
small businesses liability. A lot of those de minimis parties 
are small businesses. And, second, we need to keep in mind this 
is something that, you know, is going to require, we believe, 
some difficulty in arriving at a definition. And, what we are 
proposing in legislative relief is liability relief for small 
generators and transporters of municipal solid waste. That will 
get rid of a lot of small businesses liability, by that 
exemption that we are proposing. It is something that we think 
everybody, generally, agrees on. That will help small 
businesses as well.
    Mr. Oxley. The gentleman's time has expired. The Chair 
would note, just for housekeeping purposes, without objection, 
Mr. Greenwood's submission also will be placed in the record, 
with his question, at the appropriate place.
    The gentleman from New York.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    Mr. Fields, throughout my tenure in Congress I have a high 
rating from environmental groups, and I pride myself in being 
an environmentalist. I think what you are hearing from some of 
my colleagues is frustration on the local level, and I want to 
just share with you some of the frustration that I have as 
well--not in terms of brownfields, but in terms of a water 
filtration plant that is being forced down the throat of my 
community, despite the fact that we feel there are 
alternatives, and that local people really know best about what 
is best for our communities. I don't in any way, shape, or 
form, denigrate the good work that you or the Department does, 
and it is work that is needed and work that is necessary.
    But, one of the things that you mentioned in your 
testimony--I was going over the testimony--in the brownfields 
section, you say that the initiative represents a comprehensive 
approach to empowering States, local governments, communities, 
and other stakeholders interested in environmental cleanup and 
economic redevelopment to work together--and I think that is 
the keyword--to prevent, assess, safely clean up, and 
substantially reuse brownfields.
    I think what you are hearing from my colleagues is a 
frustration that, in the working together, it is not working as 
a partner, but it is, sort of, ``Big Brother knows best.'' The 
Federal Government knows better than you who are living in the 
community.
    And, I would just like you to comment a little more on 
that, because I think it is a frustration we share across the 
aisle. And, it doesn't matter what your political philosophy 
is. We all represent districts and communities of more than 
half a million people, and we need to respond to our 
constituents. And, it is frustrating when you are sort of being 
knocked over the head and told that, no matter what you do, you 
don't know best; we know best.
    Mr. Fields. I appreciate that concern. As Mr. Shimkus 
talked about the Quincy situation, we recognize how sometimes 
we may come across as being heavy-handed and sometimes not 
caring. But, I assure you, the first reform agenda that the 
Administrator announced when she came onboard in February 1993, 
she said ``I want to do something about this fairness problem 
in the Superfund, where we need to be going after people who 
should not be caught in the Superfund liability net.'' That is 
why she announced the de minimis and de micromis settlements 
initiative--to get small parties, small businesses, and others, 
out of the Superfund system. We did not want them to be there, 
and, oftentimes, we do not intend for them to be caught up in 
Superfund. But, unfortunately, third-party litigation causes 
these parties to be there.
    We want to try to do all we can to get those people who 
should not be in Superfund out of this system. And we worked 
over the last 6 years, through our administrative reforms, to 
do so. The brownfields initiative, where we are giving grants 
directly to local governments, as opposed to a passthrough to 
the States, is one way we have tried to do all we can over the 
last 6 years to try to reach out to the communities directly, 
get involved with them, hear their concerns, and come across as 
a more caring, more fair government to our citizens. It does 
not always work. We recognize we still have a lot of work to 
do, but we think we have demonstrated a willingness to deal 
with local governments, deal with local communities, in a more 
effective and more useful way.
    The Superfund program has given out more than 200 technical 
assistance grants to local communities over the last 10 years. 
We have established community advisory groups at more than 40 
Superfund sites. These are all things we are doing to try to 
find ways in which we can reach out to communities, reach out 
to local governments, and deal with things in a community-based 
way. We have not always been successful, but, I assure you, it 
is a major priority for this administration.
    Mr. Engel. I just want to also use some of your words in 
the testimony to just kind of make a point the other way. In 
your conclusion, you wrote that the administration has 
achieved, in protecting public health, significant progress 
which must not be undermined by the passage of Superfund 
legislation based upon outdated information and ideas. And, I 
would just say that the outdated information idea really cuts 
both ways. There are some things in law which mandates things, 
and, again, it's got nothing to do with you, but I want to use 
it to make a point about the water filtration plant.
    We are told that there is a cutoff in 1992 for alternatives 
to filtration and, once you reach 1992, beyond that, it is too 
bad; no matter what the community comes up with, there can be 
no alternatives. And, I just have legislation which says that 
if a community can come up with reason or new technology as to 
what can happen as an alternative to filtration, we shouldn't 
be constrained by an artificial cutoff date in legislation that 
was passed several years ago, but we should be utilizing new 
technology. So, I just want to say, when we talk about outdated 
information ideas, it really cuts both ways.
    Mr. Oxley. The gentleman's time has expired. The gentlelady 
from New Mexico.
    Mrs. Wilson. Thank you, Mr. Chairman. Listening to some of 
the questions on both sides of the aisle, and the responses, I 
now understand why we need significant Superfund reform, if we 
can't achieve some of the things that need to be done 
administratively. And, it seems to me, there is resistance in 
doing that, and I am disappointed by that.
    I would like to ask you some questions, both specific and 
general ones. Last October, I asked the EPA about the Atcheson, 
Topeka, and Santa Fe site that is in my district. On May 12, 
1998, EPA gave Chairman Bliley a list of sites that would be 
affected by fiscal year 1999 funding. And then, 6 days later, 
it came out with a completely different list which added 111 
different sites to that list. When I asked, ``Why the 
difference?'', the answer I got was that ``the list is a 
dynamic list which may change;'' ``there is new information 
about physical site conditions or responsible-party involvement 
at a site changes.''
    I guess I have a couple of questions about that. First, 
since it seems to change so rapidly, is the Atcheson, Topeka, 
and Santa Fe site on the list today? What changed in 111 sites 
in 6 days to justify such a significant change in the site 
list? And, what are the criteria used to determine how 
appropriations will be used to prioritize cleanups?
    Mr. Fields. Well, I don't have a full response on the 111-
site list, but I can address the other two parts of your 
question now.
    The Atcheson, Topeka, and Santa Fe site is one that, in 
hindsight, maybe we should have made another decision on how we 
proceeded with cleanup. We made a decision to give the 
responsible party the lead on doing the remedial investigation 
feasibility study. Sometimes we make a judgment that we want to 
do that ourselves as a fund-lead action. We made a judgment 
here to let the PRP take the lead. I am happy to say that it is 
near completion. They are scheduled to have the remedial 
investigation report done by April and the feasibility study 
done by June, and a proposed plan issued by the summer.
    It is unfortunate that this has taken almost 3 years. We 
would have liked for it to have gone faster, but there were 
delays. We have tried to work with the State of New Mexico and 
the responsible party. Sometimes we make the wrong judgment. 
Sometimes we don't allow the responsible party to do it and we 
go on and do it ourselves. Maybe, in this case, we should have 
done that and maybe this would have been done faster.
    So, we apologize for the amount of time it has taken to do 
this remedial investigation and feasibility study. It should 
not have taken this long, and we regret that.
    In terms of how we set priorities for cleanup, we do each 
year rank sites and make decisions as to which ones get dealt 
with first. We have adopted a risk-based priority system. We 
rank about 50 sites a year. Based on health risks, based on 
uses of innovative technology, and other factors, we decide 
which sites get funded first. We can't always fund every site 
that is in the cue, but we try to make sure that the sites that 
have the most significant priority--and that priority is 
established on a national basis by the representatives of all 
10 regions. We then decide which one gets funded first in the 
cue, and we don't deviate from that priority order in deciding 
which ones get funded.
    That is why, when responsible parties are willing to step 
forward, we are willing to let them take the lead, if we think 
they can do a good job, because it allows us to get that job 
done and not be contingent upon whether or not there is fund 
money available to establish that priority.
    Mrs. Wilson. Thank you, Mr. Fields. I wonder if you could 
be just real clear and short and specific here. Is the AT&SF 
site in the fiscal year 1999 funding stream?
    Mr. Fields. Yes. The work will be completed in fiscal year 
1999 for the AT&SF site, I assure you.
    Mrs. Wilson. And, do you have any explanation for why it 
was on one list and not on another list released by the EPA?
    Mr. Fields. I do not know why it was on the one list and 
not the other.
    Mrs. Wilson. There is a tremendous fear--if I may just 
finish this question--there is tremendous fear in the community 
about being put on a Superfund list, because it leads to 
economic ruin in the neighborhood. You are not going to have 
economic development at the neighborhood with a Superfund site, 
and we have seen that in my district. And, we are potentially 
facing it again.
    What can you offer as possible solutions, given at AT&SF we 
have been waiting 7 years to even get anything started since it 
was listed as a Superfund site, and we see this economic 
devastation? What can we do legislatively to change this, so 
that we can clean up the environment, but we don't destroy 
people's neighborhoods and livelihoods in the process?
    Mr. Fields. I think that equation is changing. We have 
found that Superfund sites are very valuable properties. They 
are located near rail yards; they are located near waterfronts. 
We have seen tremendous success stories. I think I may have 
cited before you came in--we have got 160 cases where major 
reuse, redevelopment, has occurred on Superfund sites while 
they are under construction. So, the NPL stigma is not what it 
used to be, you know, 10, 15 years ago. We are finding major 
reuse for shopping centers; transportation centers are being 
created on living, existing, Superfund sites where our 
construction is underway. So, I don't think that that stigma is 
there like it used to be. People are investing and reusing many 
of these Superfund sites.
    Mrs. Wilson. Thank you, Mr. Fields. That is not happening 
in Albuquerque, New Mexico, but I am glad it is helping 
elsewhere in the United States. Thank you.
    Mr. Oxley. The gentlelady's time has expired. The gentleman 
from Louisiana, vice chairman of the subcommittee.
    Mr. Tauzin. Feels good to see you again, sir.
    Mr. Fields. Good to see you, sir.
    Mr. Tauzin. The fact is, I am sure you know that last year 
we filed a bill to limit the pool of PRP's that the EPA could 
name in an enforcement action under section 107. I want to 
thank the chairman, by the way, for incorporating that bill 
into his larger comprehensive legislation. But, the problem 
remains that EPA's enforcement under section 107 has, 
literally, proved to me rather Draconian for many small 
businesses.
    Chairman Bliley talked about that incredible series of 
lawsuits that flow from it in sort of a pipeline of lawsuits 
that almost never ends. And, I happen to think it is because of 
the badly drafted language of section 107. But, I don't blame 
EPA for the language of the statute. And, I appreciate your 
response to the chairman in terms of what you are trying to do 
to ameliorate some of the more serious consequences of that 
pipeline of litigation. But I want to site you a bunch of 
quotes.
    James Stock, the California Secretary of Environmental 
Protection, ``Superfunds have become a bonanza for lawyers and 
consultants.''
    The President of the United States, himself, ``We all know 
it doesn't work, Superfund has been a disaster.'' The word 
``disaster'' comes up several times in all of these quotes, by 
the way.
    The former chairman of this subcommittee, Mr. Al Swift, 
``The liability scheme is unfair, litigious, a policy 
disaster.''
    ``Disaster'' keeps coming up in characterizing this 
litigious scheme we have created--almost so that I almost think 
we ought to have a bill to invite the FEMA to come in and 
rescue the program in some fashion. What strikes me, in looking 
at what people say about the program, is that even the lawyers 
are on our side, to some extent. The editorial writers are on 
our side in wanting to reform the statute.
    The New York Times editorial of 1994, February: ``It has 
failed the efficiency test. The $13 billion spent, one-fourth 
has gone to what are euphemistically known as transaction 
costs, fees to lawyers and consultants, many of them former 
Federal officials who spun through Washington's revolving door 
to trade their Superfund expertise for personal gain.''
    USA Today puts it even more pedestrian, of course, but USA 
Today says: ``Superfund is absurdly expensive, hideously 
complex, sometimes patently unfair. As a result, it invites 
litigation the way dung attracts flies.'' That is a pretty 
awful, but I think somewhat accurate description--so much so 
that the lawyers, the flies depicted in the editorial, 
themselves, are revolting.
    I quote from a 1997 letter from Robert Evans, Director of 
Governmental Affairs, American Bar Association, to Sherry 
Boehlert, one of our colleagues. While massive time-consuming 
litigations may perhaps provide short-term pecuniary benefits 
to some in the legal profession, the American Bar Association 
and the attorneys it represents have no desire to stand by idly 
and profit from other people's misery.'' That is the lawyers 
talking.
    I mean, so we are down to this: we have got, roughly, 1,400 
sites that have been listed on the NPL; the EPA has already 
instituted enforcement actions on about 200 of them. That 
leaves you with a potential to begin enforcement action on 
1,200 new actions, if you wanted to.
    And, in the light of this, it is more likely, is it not, 
that the current liability scheme is going to continue to 
foster the endless streams, the pipelines of litigation, that 
ends up touching human beings so disastrously as it has? I have 
got testimonies here--we have heard them before--of little 
people in our society getting crucified on this cross of unjust 
and unending liability schemes.
    It seem to me, Mr. Fields, we are down to the issue: Is it 
because of the EPA's enforcement of section 107 or is it the 
statute? And, if it is not the EPA and it is the statute, why 
can't you join us in ending this awful, litigious scheme, the 
way the President himself said in his first State of the Union 
to us, ``I would like to use Superfund to clean up pollution 
instead of paying the lawyers.''? Why can't we just come to 
that agreement here in this government? Stop putting people 
through this horrible maelstrom of litigation that ends up 
robbing people of their energies and their resources, that 
ought to be better directed in this country, and simply change 
the statutes so you don't have to work your way around it, the 
way you described to the chairman. Can't you help us do that?
    Mr. Fields. Can I give one quick response?
    Mr. Tauzin. You've got it.
    Mr. Fields. We recognize those statements, and we recognize 
that people have those views. I think that some of those people 
you quoted would not have those same views today, 6 years 
later, in come cases. We believe that the comprehensive 
legislative reform agenda is not necessary now. We in the 
administration, including Carol Browner said, in 1993, that 
Superfund was something that really needed to be fixed and 
there were major problems. Carol Browner does not share the 
same view, 6 years later, that she had in 1993.
    Mr. Tauzin. My time is up. I just want to get a straight 
answer. Is it the EPA's fault then? If it is the statute, why 
don't you help us change it? Otherwise, tell me, today, that it 
is EPA's fault.
    Mr. Fields. Well, it's not necessary now because of where 
we are in the program. Half the sites have been cleaned up, 
construction completed. And, in 5 years, I am telling you----
    Mr. Tauzin. I am talking about the litigation pipeline, not 
the cleanup.
    Mr. Fields. But when you have already made the decisions on 
90 percent of the sites, and we have already implemented 
effective reforms that get out the de minimis parties, and we 
are suggesting to you that we can put in place liability relief 
for perspective purposes, innocent landowners, contiguous 
property owners, that is the kind of liability relief we think 
we really need. The other type of liability relief is not 
really necessary to implement an effective program that is fair 
to the American people as well as the parties involved in this 
program. We really don't believe that.
    Six years ago we were at comprehensive legislative reform 
for several Congresses. Now, at this point of where we are in 
this program, and seeing the end of the current Superfund 
program in sight, we no longer believe that comprehensive 
legislative reform is necessary.
    Mr. Tauzin. And leave all those people hanging out there in 
all those courtrooms?
    Mr. Fields. We don't think they are going to be hanging out 
there.
    Mr. Oxley. The gentleman's time has expired. The gentleman 
from Oklahoma.
    Mr. Largent. Thank you, Mr. Chairman.
    Welcome, Mr. Fields. It's almost over. I hope you feel 
better about that. You will sleep well tonight.
    I was interested when you made the comment that you have 
had trouble with the last two Congresses on coming to an 
understanding on certain definitions like the small business 
exemption. That doesn't surprise me. We have had trouble coming 
to an understanding on the definitions like what the word 
``is'' means and things like that. I wanted to see if we could 
come to some understanding on the definitions on your chart 
over here: Pace of cleanup is accelerated. Do you recognize 
that chart?
    Mr. Fields. Yes, sir.
    Mr. Largent. I am looking at this and seeing that, from 
1996 to 1998, there were--I wrote this down--88 sites cleaned 
up. From 1997 to 1998, there were 87 sites cleaned up. And, 
then you are projecting, from 1998 to 1999, that there will be 
85 cleaned up. So, we went from 88 to 87 to 85, and I am just 
wondering if we can come to some agreement on the definition of 
``pace'' and ``accelerated.'' Because, to me, that seems like 
that number is going down, and not up, and that would not be an 
acceleration in the way I would define acceleration. How do you 
define acceleration?
    Mr. Fields. When I define acceleration, I mean an increase 
in the pace; something is moving faster. And, what I was 
referring to, as you look at the prior 3 years, prior to the 3 
years you just referred to, we were doing an average of 65 
construction-completions a year, and now we are doing an 
average of 85. Our budget target, the budget we submit to 
Congress, provides for the payment of 85 construction-
completions a year with a $1.5 billion budget. The fact that we 
achieved 88 in 1987, what that meant was we did more than we 
were budgeted to do in those particular years, but, actually, 
our budget provides for 85. That is a great achievement, I 
believe. You have a third greater number of cleanups that are 
going on now for these 3 years than we had in the prior 3 
years. I think that is an acceleration of the pace of cleanup.
    Mr. Largent. Mr. Fields, have you ever heard the term, 
``What have you done for me lately?''
    Mr. Fields. Yes, I have heard that term.
    Mr. Largent. I heard it a lot, too, in my former life. My 
question here is really a very simple one. In your view, is the 
Superfund Program working?
    Mr. Fields. I think, as someone who has been involved in 
this program now for 15 years, I believe the Superfund Program 
is working. I have reports that have been done by various 
organizations on this program: the Information Network for 
Superfund Settlements, the Chemical Manufacturers Association. 
We can provide these reports to this committee for the record, 
but many parties have documents--the General Accounting Office, 
in their reports, I think they have done studies of our program 
probably more than any other organization. I think there are 
many reports, there are many documents, that point to the fact 
that progress in this program has improved; things are better 
than they were five to 6 years ago.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 60198.068
    
    [GRAPHIC] [TIFF OMITTED] 60198.069
    
    [GRAPHIC] [TIFF OMITTED] 60198.070
    
    [GRAPHIC] [TIFF OMITTED] 60198.071
    
    Mr. Largent. What is the average length of time it has 
taken to clean up these sites?
    Mr. Fields. The average length of time now, at the current 
time, Congressman, is 8 years on the average.
    Mr. Largent. I am talking about the sites that were cleaned 
up in 1996, 1997, and 1998.
    Mr. Fields. That is 8 years. An average of 8 years.
    Mr. Largent. And is that number going down or is it 
increasing?
    Mr. Fields. The number has gone down. It used to be, on the 
average, in 1991, 1992, 10 years from the time a site was 
listed on the NPL until construction was complete. We have now 
reduced that by 20 percent down to 8 years. That is one of the 
reasons we are now able to do 85 sites a year as compared to 65 
sites a year, you know, more than 3 years ago.
    Mr. Largent. And, so, is it the administration's view, and 
your view, Mr. Fields, that we should re-authorize the taxes 
for the Superfund without any reforms to the Superfund Program?
    Mr. Fields. We believe that Congress should reinstate the 
taxes for the Superfund to allow there to be a balance in the 
trust fund, but that we no longer need comprehensive, broad-
scale legislative reform, but we only need targeted liability 
relief for certain parties. That is our conclusion now, because 
we believe the reform agenda will allow us to continue to do 85 
sites a year for the next 5 years, funded at today's budget 
level, for the Superfund program. We don't need comprehensive 
legislative reform to continue cleanup, at the pace we are 
doing it, and to provide for liability relief and to provide 
for more fairness to parties affected by the Superfund program.
    Mr. Largent. Thank you, Mr. Fields.
    Mr. Oxley. The gentleman's time has expired. The gentleman 
from New York, Mr. Fossella.
    Mr. Fossella. Thank you, Mr. Chairman.
    Mr. Chairman, I want to place into the record and show Mr. 
Fields several items.
    Mr. Oxley. Without objection
    [The information referred to follows:]
                  Superfund Litigation Delays Cleanups
<bullet> ``On a site by site basis, it is clear that liability 
        negotiations consume a lot of time and delay completion of the 
        site.''--EPA Inspector General in testimony before House 
        Subcommittee on Government Reform and Oversight, May 1996.
<bullet> ``For nonfederal sites, the time required to complete cleanups 
        increased from 2.4 years in 1986 to 10.6 years in 1996 . . . 
        EPA officials also said that the effort to find the parties . . 
        . and to reach cleanup settlements with them can increase 
        cleanup times.''--Government Accounting Office Report, 
        Superfund, Times to Complete the Assessment and Cleanup of 
        Hazardous Waste Sites, March 1997.
<bullet> ``One of the most significant delays that occurs in the 
        Superfund process is the allocation of liability among 
        responsible parties.''--Statement of Carol Browner, 
        Administrator, U.S. EPA, before a hearing of the Subcommittee 
        on Transportation and Hazardous Materials on May 13, 1993.
<bullet> ``I think we all agree that the transaction cost portion is 
        one due very serious evaluation and consideration. Again, I do 
        not think we could have predicted 12 years ago that the result 
        of the law would be that responsible parties suing responsible 
        parties--insurance companies, I mean, the level of legal 
        actions that would take place. We need to do something to 
        address it.''--Statement of Carol Browner, Administrator, U.S. 
        EPA, before a hearing of the Subcommittee on Transportation and 
        Hazardous Materials on May 13, 1993.
<bullet> ``Superfund has been a bonanza for lawyers and consultants . . 
        . After over a decade of delay, cleanup is only now beginning 
        at the McColl site in Fullerton . . . cleanup was continually 
        put off as various defendants wrangled in court over how much 
        they would pay''.--James M. Strock, California Secretary for 
        Environmental Protection, 1994.
<bullet> ``Hastings . . . has already spent roughly $1.1 million under 
        Superfund, yet the cleanup is far from completed. More than 90 
        percent of the money has been spent on consultants and legal 
        fees.''--Governor Ben Nelson, Nebraska Journal, March 1, 1996.
<bullet> ``While massive, time-consuming litigation may perhaps provide 
        short-term pecuniary benefits to some in the legal profession, 
        the American Bar Association and the attorneys it represents 
        have no desire to stand by idly and profit from other people's 
        misery.''--May 21, 1997 letter from Robert D. Evans, Director 
        of Governmental Affairs, American Bar Association to Rep. 
        Sherwood Boehlert.
<bullet> ``Each of us has heard concerns from our constituents that the 
        pace of cleanup is too slow; that more money is being spent on 
        litigation than on cleanup activities; that citizens are not 
        properly involved in cleanup decisions; and that program costs 
        are unnecessarily high.''--Letter from Senators Robert Byrd and 
        John Rockefeller to Senator John Chafee, Chairman, Senate 
        Environment and Public Works Committee, dated June 25, 1997.
<bullet> ``One site in particular has escaped the effectiveness of 
        CERCLA simply because there are 18 or more PRPs and CERCLA 
        clearly provides the right to litigate. The litigation is not 
        aimed at the regulatory agencies but instead at the PRPs 
        themselves.
  With over 20 million dollars spent on characterizing Fields Brook at 
        least half has been devoted to suing non-participating PRPs by 
        participating PRPs; PRPs against other PRPs to determine who 
        put how much into the Brook; Who's material was more toxic and 
        should they pay more than less toxic polluters: litigation 
        against insurance companies to pay for the disposed materials 
        of PRPs they insured and on and on.''--Statement of Leonard E. 
        Eames, Owner Operator, Fish City Marina, Ashtabula, Ohio before 
        a Hearing of the Subcommittee on Finance and Hazardous 
        Materials, February 14, 1997.
<bullet> ``The uncertainties, disagreements, and litigation produced by 
        these aspects of joint and several liability have imposed 
        delay, profound resentment, and high transaction costs on the 
        basic process of achieving cleanups . . . [t]he basic mechanism 
        for funding Superfund cleanups is fundamentally unfair and 
        extremely inefficient. This problem cannot be solved by EPA's 
        administrative reforms . . .''--Statement of Michael W. 
        Stienberg, on behalf of the Superfund Settlements Project in a 
        Hearing before the Subcommittee on Water Resources and 
        Environment, April 10, 1997.
<bullet> ``Now, almost 15 years later, the matter is about to be fully 
        and finally settled. In the interim, EPA spent approximately 
        $1,300,000 investigating the site. Additionally, our company 
        spent almost $500,000 in attorney's fees and consulting fees 
        over the period. And for what? The actual cleanup of the site, 
        which EPA ordered and oversaw, cost approximately $38,000 . . . 
        It took over 15 years and cost our company nearly $2 million in 
        professional fees, lost profits, and environmental studies, all 
        for the sake of a $38,000, 2-day cleanup, which resulted in 
        three truck-loads of nonhazardous dirt being trucked to 
        Oklahoma.''--Statement of Michael Mallen, Southern Foundary 
        Supply Company, Subcommittee on Water Resources and 
        Environment, June 15, 1995.
        [GRAPHIC] [TIFF OMITTED] 60198.072
        
        [GRAPHIC] [TIFF OMITTED] 60198.073
        
    Mr. Fossella. Thank you, Mr. Chairman.
    Mr. Fields, the first set is just quotes from numerous 
parties to the effect that litigation delays cleanups, and the 
second set of charts that were presented at prior hearings by 
Mr. David Oward. The charts indicate that sites with numerous 
parties to litigate and negotiate will take substantially 
longer to go through the Superfund process than parts where 
there are fewer parties. The charts graph the percentage of 
sites that have reached construction-complete versus the number 
of parties per site.
    Did you find that, Mr. Fields?
    Mr. Fields. Yes, I see it.
    Mr. Fossella. And, this data, I understand, is a few years 
old. Do you agree with the thrust of these charts or what these 
charts seek to represent?
    Mr. Fields. You mean the totality of these statements?
    Mr. Fossella. Well, first and foremost, are the charts 
themselves, the number of parties besides----
    Mr. Fields. Oh, I am sorry. I am looking at your charts. 
Okay.
    Mr. Fossella. [continuing] average time to construction-
complete and the numbers of parties per site. The second chart 
is the percentage of sites that have reached construction-
complete relative to the number of parties per site. Are you 
familiar with these at all?
    Mr. Fields. Yes. I am looking at these charts now. Yes, I 
see them. We can't say categorically that the number of parties 
associated with the site will cause that site to take longer to 
clean up, but that is why we want to introduce targeted 
liability relief, to get certain parties out of the Superfund 
system, so we can then only have to negotiate with those larger 
parties who are the major contributors to contamination at 
sites. Those are the parties that we primarily focus on. We 
don't want to focus on all the de minimis and de maximus 
parties that are involved in cleanup.
    Mr. Fossella. So you agree that, the more parties there 
are, the longer it is going to take to complete?
    Mr. Fields. Well, I can't say that that is going to be 
always the case. I have seen sites where you have a few hundred 
parties and the site can be cleaned up in less than 8 years. I 
have seen other sites where we only have two or three parties, 
and it has taken us 10 years. So, you can't always just say 
that the number of parties equates to the length of time it is 
going to take for cleanup.
    The best I can say here, Congressman, is we will be happy 
to review this data. This is the first time I am actually 
seeing this data today. I would be happy to review it and get 
back to you in writing with our analysis of this, but I don't 
know what sites this data represents.
    But I have seen it both ways. I have seen a number of sites 
with large parties get done quickly. I have seen sites where a 
fewer number of parties take a long time. So, in general, I 
can't say it is a one-to-one correlation between number of 
parties and the length of time it takes for cleanup. But, I 
would be happy to review this data and get back to the 
subcommittee in writing.
    Mr. Fossella. Okay. Thank you.
    [The following was received for the record:]

    During the March 23, 1999, Representative Fossella presented a 
graph developed by a Mr. David Alward of National Strategies which 
asserted that the greater the number of Potentially Responsible Parties 
(PRPs) at a Superfund site, the longer that site takes to get from 
final listing on the NPL to site construction completion. Mr. Fossella 
asserted that in the greater number of PRPs at the site, the more 
third-party contribution litigation which in turn results in cleanup 
delays.
    In fact, in looking at the sites in the analysis we found that 
there are a number of sites with large numbers of PRPs, (over 300) 
where the time to get from final listing to construction completion was 
8 years or less. For example, the Cannon Engineering Site in 
Massachusetts which was completed in just slightly over 8 years had 
nearly 500 identified PRPs. Similarly, the Union Chemical site in Maine 
had over 400 PRPs but was completed in less than 8 years.
    Conversely, we identified a number of sites in Mr. Award's analysis 
with relatively few PRPs (5 or less) which took over 16 years to 
complete. In fact, at the United Nuclear site in New Mexico, only 1 PRP 
was identified by EPA but it still took over 15 years to get from final 
listing to construction completion. Similarly, the Stanley Kessler site 
in Pennsylvania had only 5 identified PRPs but still took over 15 years 
to complete. We believe that there are numerous factors which affect 
site cleanup duration, including site complexity, site size, numbers of 
contaminants, community interest at the site. However, we believe that 
no single factor consistently influences site duration.
    With respect to enforcement delays, this belief is supported by a 
GAO report issued in September 1994 on the Status, Cost, and Timeliness 
of Hazardous Waste Site Cleanup (GAO/RCED-94-256) that found that 
``Cleanup Times Are Similar for Fund- and Responsible Party-Financed 
Work''. In that report, GAO found that ``Our analysis of EPA's data 
shows little difference in the average times taken to complete each of 
our four phases of cleanup that we measure for both fund- and 
responsible party-finance cleanup work.''

                     Sites and Associated Durations
------------------------------------------------------------------------
                                                       # of
         EPA ID Number                Site Name        PRPs    Duration
------------------------------------------------------------------------
Low PRP/High Duration Sites
PAD014269971...................  Stanley Kessler...        5  15.2 years
NYD980652267...................  Vestal Water              6  15.1 years
                                  Supply Well 4-2.
NMD030443303...................  United Nuclear            1  15.1 years
                                  Corp.
FLD980727820...................  Kassauf-Kimmerling        2  15.1 years
                                  Battery Disp.
NJD980529713...................  Reich Farms.......        1  15.1 years
ARD00023440....................  Vertac, Inc.......        2  15.0 years
High PRP/Low Duration Sites
MOD000829705...................  Conservation            300   1.9 years
                                  Chemical.
KYD980557052...................  Lee's Lane              141   4.5 years
                                  Landfill.
WID980610141...................  Sauk County             110   5.9 years
                                  Landfill.
WAD980833974...................  Northwest               178   7.8 years
                                  Transformer.
MED042143883...................  Union Chemical          403   8.0 years
                                  Co., Inc.
ALD031618069...................  Mowbray                 119   8.0 years
                                  Engineering Co.
MND980704738...................  Washington County       750   8.0 years
                                  Landfill.
MAD079510780...................  Cannon Engineering      478   8.1 years
                                  Corp.
------------------------------------------------------------------------


    Mr. Fossella. Let me just read, Mr. Chairman, and for the 
record, see if you agree or disagree with some of these folks. 
For example, the Governor of Nebraska, Mr. Ben Nelson, the 
March 1, 1996 Hastings program he was dealing with in Nebraska 
has already spent $1.1 million of the Superfund; yet, the 
cleanup is far from completed. More than 90 percent of the 
money has been spent on consultants and legal fees.
    Or, Mr. Strock, California Secretary for Environmental 
Protection, 1994: ``Superfund has been a bonanza for lawyers 
and consultants. After a decade of delay, cleanup is only now 
beginning at the McCall site in Fullerton. Cleanup was 
continually put off as various defendants wrangled in court 
over how much they would pay.''
    Or, at the top of the page there: ``On a site-by-site 
basis, it is clear that liability and negotiations consume a 
lot of time and delay completion of the site.'' That was from 
the EPA Inspector General in testimony before the House 
Subcommittee on Government Reform and Oversight in May 1996.
    Or, for example, according to the GAO, ``Superfund times to 
complete the assessment and cleanup of hazardous waste sites in 
March 1997. For non-Federal sites, the time required to 
complete cleanups increased from 2.4 years in 1986 to 10.6 
years in 1996.'' EPA officials also said that ``The effort to 
find these parties and to reach cleanup settlements with them 
could increase cleanup times.''
    Does any of this----
    Mr. Fields. I have heard and I have seen the reports that 
you are referring to. We strongly disagree with the statements 
on duration; we do not believe that data. It does not take 10.6 
years to clean up a site. And, we stand by our data which shows 
that the length of time it takes to go through the cleanup 
process has, in fact, been decreased by 20 percent. So, we do 
not agree with some of those statements in the reports that you 
are mentioning.
    Mr. Oxley. The gentleman's time has expired.
    And, Mr. Fields, we appreciate your testimony and your 
appearance before the subcommittee once again. Thank you very 
much.
    Mr. Fields. Thank you, Mr. Chairman.
    Mr. Oxley. The Chair would call our next panel. Mr. Peter 
F. Guerrero, Director of the Environmental Protection Issues of 
the GAO, General Accounting Office, and Ms. Claudia Kerbawy, 
Chair of the Federal Superfund Focus Group, Association of 
State and Territorial Solid Waste Management Officials.
    Thanks to both of you for your appearance.

   STATEMENTS OF PETER F. GUERRERO, DIRECTOR, ENVIRONMENTAL 
   PROTECTION ISSUES, GENERAL ACCOUNTING OFFICE; AND CLAUDIA 
 KERBAWY, CHAIR, FEDERAL SUPERFUND FOCUS GROUP, ASSOCIATION OF 
     STATE AND TERRITORIAL SOLID WASTE MANAGEMENT OFFICIALS

    Mr. Guerrero. Mr. Chairman, if I can take the liberty of 
having two of my colleagues with me?
    Mr. Oxley. Yes, would you identify them, for the record, 
please?
    Mr. Guerrero. Eileen Lawrence on my right and Jim Donaghy 
on my left.
    Mr. Oxley. Thank you. Mr. Guerrero. You may proceed.
    Mr. Guerrero. Thank you, Mr. Chairman, for this opportunity 
to talk about GAO's work on the Superfund Program. As has been 
mentioned earlier today, that body of work is quite extensive. 
My comments today will focus on three issues: the pace of 
cleanups, program management, and the remaining future 
workload.
    First, to Superfund's pace. Even though cleanups have taken 
a long time to accomplish, if the Superfund maintains its 
current pace, the Superfund Program will complete the 
construction of cleanup remedies at the great majority of 
current sites within the next several years. This is largely 
because few new sites have been added this decade. In fact, 89 
percent of Superfund sites entered the program between 1982 and 
1990. So, most sites have been in the cleanup process long 
enough to finally have moved beyond the remedy-selection phase.
    In my written statement, there is figure 1, which shows the 
number of sites listed by year and shows this trend. EPA plans 
to complete, by the end of this year, selection of remedies for 
about 95 percent of the non-Federal sites in the program. EPA 
reports that it has completed the construction of cleanup 
remedies at 585 sites as of January of this year, and will 
finish a total of about 1,200 sites by the end of the year 
2005. However, groundwater cleanups will continue at some sites 
for many years beyond that date.
    I now would like to turn to my second point, the 
longstanding management problems of the program. For several 
years, GAO has included Superfund on its list of Federal 
programs that pose significant financial risk to the government 
and the potential for waste and abuse. We included Superfund on 
the list for three reasons: first, because of the problems with 
the management of cleanup contractors; second, because of 
insufficient recovery of cleanup costs from responsible 
parties; and, third, because there was no assurance that the 
highest-risk sites were being cleaned up first. EPA has 
corrected some of these problems, but enough remain that we 
have not yet been able to remove Superfund from the high-risk 
list.
    For example: we reported that EPA had difficulty 
controlling the overhead costs of its contractors. To ensure 
that it had enough contractors to conduct cleanups, EPA 
initially hired a very large number--more, it turned out, than 
it needed. Even though it did not have enough cleanup work to 
keep them all busy, it still had to pay their overhead costs. 
For example, the cost of maintaining the capacity to respond to 
work assignments requires office space. Although EPA 
subsequently cut in half the number of Superfund contractors, 
our recent work indicates that this reduction may not have been 
enough, since overhead rates remain high, at about 76 percent, 
in one particular case.
    We have also reported that EPA has not charged responsible 
parties for certain costs of operating the cleanup program--
mainly, indirect program costs such as personnel and 
facilities. Over the years, EPA has lost the opportunity to 
recover up to $3 billion, or about 20 percent of the $15 
billion it has spent on Superfund through fiscal year 1997. 
Recently, EPA has developed a new way to determine recoverable 
indirect costs that could increase its recoveries.
    The final Superfund issue we discussed in our high-risk 
series is the absence of a priority system for cleaning up 
sites, one that is based on risks to human health and the 
environment. In 1995, EPA created a national panel to help it 
set funding priorities for the final stages of cleanup. 
However, EPA doesn't have assurance that sites posing the 
greatest risks are admitted to the program in the first place. 
In our discussions with EPA, we found that the agency relies on 
the States to screen sites for cleanup under Superfund. Because 
of this reliance on the States, EPA may not be aware of the 
sites that pose the greatest health and environmental risks. 
And, because EPA does not usually track the stages of cleanups 
that take place outside of the Superfund program, EPA does not 
know if the States are addressing the worst sites.
    EPA's cleanup managers have also expressed concerns that 
the future Superfund sites will not necessarily be the most 
risky, but, rather, those that the States find to be large, 
complex, and therefore, costly, or those without responsible 
parties willing and able to pay for the cleanups.
    In addition to our work in the high-risk aspects of the 
program, we also conducted a detailed analysis of Superfund 
spending. In summary, we have reported that, while the share of 
Superfund expenditures that go to cleanup contractors, or the 
study, design, and implementation of cleanups, increased from 
fiscal year 1987 through 1996, it declined in 1997 and appears 
to continue to decline. This trend is in the wrong direction 
for a program; that, given its maturation, should be focusing 
more of its resources on actual cleanups and less on program 
support. Those trends are shown in figure 2 in my prepared 
written statement.
    Finally, Mr. Chairman, I would like to turn to what is 
perhaps the most vexing issue of all, and that is how to deal 
with the sites that may still require cleanup. As of the end of 
fiscal year 1997, there were still some 1,800 sites judged by 
EPA as to be potentially eligible for Superfund. Many of these 
sites present risks to human health and the environment. 
According to EPA and the States, 73 percent have caused 
contamination of groundwater; another 22 percent could 
contaminate groundwater in the future. About 32 percent of the 
sites caused contamination of drinking water, and another 56 
could do so in the future. Ninety-six percent are located in 
the populated areas within a half a mile of residences or 
places of regular employment. And direct contact with 
contaminants may occur at 55 percent of the sites. Over all, 
either EPA or the States say that about a quarter of these 
sites pose high risks to human health and the environment, and 
that is shown in figure 3 of the prepared statement.
    Although these sites have been around for a long time, 10 
years in most cases, many may not be getting attention. We are 
able to confirm that some cleanup activities have taken place 
at only about a third of the potentially eligible sites. And, 
these were activities not described as final cleanups.
    There also appears to be no relationship between how long a 
site has been awaiting an NPL decision and the likelihood that 
some cleanup has occurred during that time. It is uncertain 
when and how most of these sites will, ultimately, be cleaned 
up, as shown by figure 4.
    EPA and State officials identify 232 sites that might be 
placed on the NPL in the future. Officials estimate that a 
third of the potentially eligible sites are likely to be 
cleaned up under State programs. However, we were also told by 
the States that their capability to undertake these cleanups 
varies. Half of the States express concerns about their 
financial capacity to clean up potentially eligible sites, and 
another 20 percent say that their ability to compel responsible 
parties to clean up sites was fair to very poor.
    Our November report recommends that EPA review its 
inventory of sites to determine which of them need immediate 
action and which will require long-term cleanup, and, in 
consultation with the States, develop a timetable for taking 
these actions. Given the long time that many of these sites 
have awaited NPL decisions, it is also imperative that EPA 
notify the public whether it or the States will assume 
responsibility for the sites, whether cleanups are, indeed, 
needed, and when the cleanup work can be expected to be done.
    In conclusion, Mr. Chairman, despite the long durations of 
cleanups in the past, Superfund is within sight of completing 
the construction of cleanup remedies over the next several 
years. While recognizing this accomplishment, we believe that 
important management issues remain unsolved. More importantly, 
EPA and the States need to come to grips with what to do with 
the potential NPL sites still waiting final cleanup decisions. 
The Superfund re-authorization process gives the Congress an 
opportunity to help guide EPA and the States in allocating 
responsibility for these sites, and others that may qualify for 
the program in the future.
    Thank you.
    [The prepared statement of Peter F. Guerrero follows:]
   Prepared Statement of Peter F. Guerrero, Director, Environmental 
   Protection Issues, Resources, Community, and Economic Development 
                  Division, General Accounting Office
    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to discuss the current status and management of the 
Superfund program and the outlook for the program's future. My comments 
today are based on a number of reports we have issued in recent years 
that relate to three specific issues: (1) progress made toward cleaning 
up sites in the program, (2) continuing management problems, and (3) 
factors affecting Superfund's future workload. In summary, our work has 
shown the following:

<bullet> In the past, we have called attention to the slow pace of 
        cleanups in the Superfund program. For example, we reported 
        that cleanups completed in 1996 took an average of over 10 
        years.<SUP>1</SUP> However, now, 17 years after sites were 
        first placed on the Superfund list, many of the sites have 
        progressed a considerable distance through the cleanup process. 
        Decisions about how to clean up the great majority of these 
        sites have been made, and the construction of cleanup remedies 
        has been completed at over 40 percent of the sites. EPA's goal 
        is to complete the construction of remedies at 1,200 sites by 
        2005. Work to clean up groundwater will continue at many sites 
        after remedies are constructed.
---------------------------------------------------------------------------
    \1\ Superfund: Times to Complete the Assessment and Cleanup of 
Hazardous Waste Sites (GAO/RCED-97-20, Mar. 31, 1997).
---------------------------------------------------------------------------
<bullet> Despite the progress that Superfund has made toward site 
        cleanups, certain management problems persist. These problems 
        include the difficulty in controlling contract costs, the 
        failure to recover certain federal cleanup costs from the 
        parties who are responsible for the contaminated sites, and the 
        selection of sites for cleanup without assurance that they are 
        the most dangerous sites to human health and the environment. 
        These problems have caused us to include the program on our 
        list of federal programs vulnerable to waste and abuse. 
        Furthermore, our analysis indicates that the costs of on-site 
        work by cleanup contractors represent less than half of the 
        spending in the program.
<bullet> There is considerable uncertainty about the future workload of 
        the Superfund program. Resolving this uncertainty depends 
        largely on deciding how to divide responsibility for the 
        cleanup of sites between EPA and the states. The number of 
        sites that have entered the Superfund program in recent years 
        has decreased as EPA has focused its resources on completing 
        work at existing sites and the states have developed their own 
        programs for cleaning up sites. However, according to EPA and 
        state officials who responded to our survey, a large number of 
        sites in EPA's inventory of potential Superfund sites are 
        contaminating groundwater and drinking water sources and 
        causing other problems and may need cleanup. We have 
        recommended that EPA work with the states to assign 
        responsibility for these sites among themselves. The Superfund 
        reauthorization process gives the Congress an opportunity to 
        help guide EPA and the states in allocating responsibility for 
        addressing these sites.
                               background
    In 1980, the Congress passed the Comprehensive Environmental 
Response, Compensation, and Liability Act (CERCLA), creating the 
Superfund program to clean up highly contaminated hazardous waste 
sites. CERCLA authorizes EPA to compel the parties responsible for the 
contaminated sites to clean them up. The law also allows EPA to pay for 
cleanups and seek reimbursement from the parties. EPA places sites that 
it determines need long-term cleanup action on its National Priorities 
List (NPL). As of early 1999, there were 1,264 sites on or proposed for 
the NPL. Another 182 sites had completed the cleanup process or were 
determined not to need cleanup and had been deleted from the NPL. Once 
listed, the sites are further studied for risks, and cleanup remedies 
are chosen, designed, and constructed. EPA relies extensively on 
contractors to study site conditions and conduct cleanups.
    Cleanup actions fall into two broad categories: removal actions and 
remedial actions. Removal actions are usually short-term actions 
designed to stabilize or clean up hazardous sites that pose an 
immediate threat to human health or the environment. Remedial actions 
are usually longer term and more costly actions aimed at permanent 
remedies.
    According to a 1998 report by the Environmental Law 
Institute,<SUP>2</SUP> all 50 states have established their own cleanup 
programs for hazardous waste sites. In addition to handling less 
dangerous sites, some of the state programs can handle highly 
contaminated sites, whose risks could qualify them for the Superfund 
program. Some states initially patterned their cleanup programs after 
the Superfund program but over the years, in an effort to clean up more 
sites faster and less expensively, have developed their own approaches 
to cleaning up sites.
---------------------------------------------------------------------------
    \2\ An Analysis of State Superfund Programs: 50-State Study, 1998 
Update, Environmental Law Institute.
---------------------------------------------------------------------------
    States accomplish cleanups under three types of programs: (1) 
voluntary cleanup programs that allow parties, who are often interested 
in increasing sites' economic value, to clean them up without state 
enforcement actions; (2) brownfields programs that encourage the 
voluntary cleanup of sites in urban industrial areas to enable their 
reuse; and (3) enforcement programs that oversee the cleanup of the 
most serious sites and force uncooperative responsible parties to clean 
up their sites. States generally use their voluntary and brownfields 
programs to clean up less complex sites by offering various incentives 
to responsible parties, such as reduced state oversight. States 
maintain that these programs accomplish site cleanups quickly and 
efficiently.
    Some states also maintain cleanup funds to pay all or a portion of 
the costs of cleanups at sites for which responsible parties that are 
able to pay for full cleanups cannot be found. The states vary greatly 
in the resources that they have devoted to cleanups. For example, the 
1998 Environmental Law Institute study determined that states had 
cleanup funds totaling $1.4 billion as of the end of the states' 1997 
fiscal year, with 6 states having fund balances of $50 million or more 
and 26 states having fund balances of less than $5 million. The study 
also reported that states spent a total of $565 million on their 
cleanup programs in fiscal year 1997, <SUP>3</SUP> with 2 states 
spending $50 million or more and 27 states spending less than $5 
million.
---------------------------------------------------------------------------
    \3\ Six states did not report on their spending.
---------------------------------------------------------------------------
             superfund has made progress cleaning up sites
    Even though cleanups have taken a long time to accomplish, if it 
maintains its current pace, the Superfund program will complete the 
construction of cleanup remedies at the great majority of current NPL 
sites within the next several years. In our March 1997 report, we said 
that cleanups completed in 1996 took an average of 10.6 years. Much of 
the time taken to complete cleanups was spent during the early planning 
phases of the cleanup process during which cleanup remedies are 
selected. We said that less time had been spent on actual construction 
work at sites than on the selection of remedies.
    Now, however, most NPL sites have been in the cleanup process for a 
long time and have moved beyond the remedy selection phase. Last year, 
we reported that EPA had completed the selection of remedies at about 
70 percent of the NPL sites as of the end of fiscal year 1997. 
<SUP>4</SUP> It had plans to complete, by the end of fiscal year 1999, 
remedies for about 67 percent of the federally owned or operated sites 
and 95 percent of the nonfederal sites that were listed as of the end 
of fiscal year 1997. EPA reports that it has completed the construction 
of cleanup remedies at 585 sites as of January 1999; will complete 
construction at 85 sites in each of fiscal years 1999 and 2000; and 
will finish a total of 1,200 sites by 2005. Groundwater cleanups will 
continue at many of these sites after the completion of remedy 
construction.
---------------------------------------------------------------------------
    \4\ Superfund: Information on the Status of Sites (GAO/RCED-98-241, 
Aug. 28, 1998).
---------------------------------------------------------------------------
    These completion rates reflect EPA's decision to make the 
completion of construction at existing sites the Superfund program's 
top priority and to reduce new entries into the program. About 89 
percent of the NPL sites were placed on the list between 1982 and 1990. 
Figure 1 shows the number of sites listed on the NPL and the number of 
sites where the construction of the cleanup remedy was completed during 
the years 1986 through 1998.

    Figure 1: Numbers of Sites Listed on the NPL and for Which the 
  Construction of Final Cleanup Remedies Were Completed, 1986 Through 
                                  1998
[GRAPHIC] [TIFF OMITTED] 60198.074

    Source: Compiled by GAO from Environmental Protection Agency data.

    Under the Superfund program, in addition to its remedial work, EPA 
has conducted removals at 595 NPL sites and 2,591 other contaminated 
sites. Cleanup work has also been conducted at sites where construction 
of the final cleanup remedy has not yet been completed. At the request 
of this committee, we are conducting a review to determine the extent 
of this ongoing cleanup activity.
        uncorrected problems make superfund a high-risk program
    For several years, GAO has included the Superfund program on its 
list of federal programs that pose significant financial risk to the 
government and the potential for waste and abuse. We included Superfund 
on the list because of (1) problems with the management of cleanup 
contractors, (2) insufficient recovery of cleanup costs from 
responsible parties, and (3) the absence of risk-based priorities for 
site cleanups. <SUP>5</SUP> EPA has corrected some of these problems, 
but enough remain that we have not yet been able to remove Superfund 
from the high-risk list. I would like to review these problems and 
EPA's response.
---------------------------------------------------------------------------
    \5\ High-Risk Series: Superfund Program Management (GAO/HR-93-10, 
Dec. 1992, GAO/HR-95-12, Feb. 1995, GAO/HR-97-14, Feb. 1997, and GAO/
OCG-99-17, Jan. 1999).
---------------------------------------------------------------------------
Contract Management
    First, we raised concerns about several contracting practices. We 
said that EPA had a backlog of more than 500 audits of its Superfund 
contracts. The purpose of these audits is to evaluate the adequacy of 
contractors' policies, procedures, controls, and performance. The 
audits are necessary for effective management and are a key tool for 
deterring and detecting waste and abuse. The agency has now almost 
eliminated its backlog of contract audits.
    We also found that EPA was approving contractors' cleanup cost 
proposals without estimating what the work should cost. As a result, 
the agency could not negotiate the best contract price for the 
government. In response, EPA is now developing its own cost estimates 
and using them to guide its price negotiations with contractors. 
However, EPA was still having problems developing accurate estimates in 
about half the cases we recently reviewed. Furthermore, many of the 
cost estimators in the EPA regions told us that they lacked the 
experience and historical data they needed to do a better job at 
developing these estimates. EPA has requested the U.S. Army Corps of 
Engineers, an agency with extensive contracting experience, to conduct 
an assessment of EPA's cost-estimating practices and recommend 
potential improvements. The assessment is still ongoing and will be 
completed in mid 1999. Unless EPA ensures that its regions implement 
and sustain corrective measures resulting from this review, problems 
can reoccur. EPA has taken similar corrective actions in the past, yet 
we continue to find problems with estimates.
    Lastly, with respect to contracting, we reported that EPA had 
difficulty controlling the overhead, or program support costs, of its 
contractors. To ensure that it had enough contractors to conduct 
cleanups, EPA hired a large number of contractors--more, it turned out, 
than it actually needed. Even though it did not have enough cleanup 
work to keep them all busy, it had to pay their overhead costs (i.e., 
the costs of their maintaining the capacity to respond to work 
assignments--such as office space). Although EPA cut in half the number 
of contractors that it keeps in place, our recent work indicates that 
this reduction may not have been enough. We found that, for the 
majority of contracts we reviewed, EPA continues to pay overhead costs 
ranging from 16 percent to 76 percent of the overall contract's costs, 
exceeding EPA's 11 percent target. In addition, persistent high 
overhead costs and uncertainty about the future size of the program 
raise broader questions about the type and the number of contracts EPA 
really needs to have in place.
Cost Recovery
    Even though CERCLA makes parties who are responsible for 
contaminated sites liable for cleanup costs, we have repeatedly 
reported that EPA has not charged responsible parties for certain costs 
of operating the cleanup program--mainly indirect program costs, such 
as personnel and facilities. EPA has excluded about $3 billion--about 
20 percent of the $15 billion it has spent on Superfund through fiscal 
year 1997--in indirect costs from final settlements with responsible 
parties. In the early years of the program, EPA took a conservative 
approach to allocating indirect costs to private parties because it was 
uncertain which indirect costs the courts would agree were recoverable 
if parties legally challenged EPA. The agency could lose the 
opportunity to recover at least a half billion more if it does not soon 
reverse this practice. Recently, Superfund program officials have 
developed a new way to determine recoverable indirect costs that could 
increase EPA's cost recoveries, but the Superfund program has not yet 
used this new method because it is waiting for approval from EPA and 
the Justice Department.
Priority Setting
    The final Superfund issue that we discussed in our high-risk series 
is the absence of a system for prioritizing sites for cleanup based on 
the risk they pose to human health and the environment. EPA has 
partially corrected this problem. In 1995, it created the National 
Prioritization Panel to help it set funding priorities for sites at 
which remedies had been selected and that were ready for cleanup. The 
panel, which is composed of regional and headquarters cleanup managers, 
ranks all of the sites ready for cleanup construction nationwide on the 
basis of the health and environmental risks and other project 
considerations, such as cost-effectiveness. EPA then approves funding 
for projects on the basis of these priority rankings.
    EPA, however, does not use relative risk as a major criterion when 
deciding which of the eligible sites to place on the NPL. <SUP>6</SUP> 
In our discussions with EPA managers responsible for assessing sites 
for Superfund consideration, we found that the agency relies on the 
states to choose which of the eligible sites to refer to EPA for 
placement on the NPL. States refer sites after selecting those that 
they will address through their own enforcement or voluntary cleanup 
programs. The EPA cleanup managers with whom we talked expect that 
future sites placed on the NPL will not necessarily be the most risky 
but, rather, those that the states find to be large, complex, and 
therefore costly, or those without responsible parties willing and able 
to pay for the cleanup.
---------------------------------------------------------------------------
    \6\ A site is eligible for the NPL if it scores sufficiently high 
on EPA's Hazard Ranking System, which evaluates a site's potential risk 
to public health and the environment.
---------------------------------------------------------------------------
    Because EPA does not usually track the status of cleanups that take 
place outside of the Superfund program, EPA does not know if the worst 
sites in the nation are being addressed first. Some EPA regions are 
encouraging their states to voluntarily provide EPA with information on 
the cleanup status of the sites that the states are addressing and that 
EPA considers as potentially posing significant risk.
    In addition to our work on the high-risk aspects of the Superfund 
program, we have conducted detailed analyses of spending in the program 
<SUP>7</SUP>. In summary, we have reported that the share of Superfund 
expenditures that go to cleanup contractors for the study, design, and 
implementation of cleanups increased from fiscal years 1987 through 
1996, but declined in fiscal year 1997. We also reported that between 
fiscal years 1996 and 1997, EPA's Superfund costs for administration 
and support activities correspondingly increased (see fig. 2). As you 
know, we are currently conducting additional analysis of the Superfund 
program's expenditures for this Committee and others. We plan to report 
on the results of this work in May.
---------------------------------------------------------------------------
    \7\ Superfund: Trends in Spending for Site Cleanups (GAO/RCED-97-
211, Sept. 4, 1997) and Superfund: Analysis of Contractor Cleanup 
Spending (GAO/RCED-98-221, Aug. 4, 1998).
---------------------------------------------------------------------------

  Figure 2: Superfund Spending for Contractor Cleanup Work and Other 
     Program Activities, Fiscal Years 1996-97, Dollars in Millions
[GRAPHIC] [TIFF OMITTED] 60198.075

    Note: ``Other costs'' includes costs for enforcement activities, 
research and development/laboratories, and other directly related 
costs.
    Source: Superfund: Analysis of Contractor Cleanup Spending (GAO/
RCED-98-221, Aug. 4, 1998).
             the future direction of superfund is uncertain
    EPA's inventory of potential NPL sites contains sites that have 
been awaiting a decision for several years or more on whether they 
should be listed on the NPL. EPA and state officials believe that many 
of these sites need cleanup work, but the respective cleanup 
responsibilities of EPA and the states have not been established.
    As of the end of fiscal year 1997, EPA's Superfund database 
indicated that the risks of over 3,000 sites had been judged on the 
basis of preliminary evaluations to be serious enough to make the sites 
potentially eligible for the NPL. EPA classified these sites as 
``awaiting an NPL decision.'' Information about the nature and the 
extent of the threat that these sites pose to human health and the 
environment, the extent of states' or EPA's cleanup actions at the 
sites, and the states' or EPA's cleanup plans for the sites is 
important to determining the future size of the Superfund program.
    We surveyed EPA regions, other federal agencies, and the states to 
(1) determine how many of the over 3,000 sites remain potentially 
eligible for the NPL; (2) identify the characteristics of these sites, 
including their health and environmental risks; (3) determine the 
status of any actions to clean up these sites; and (4) collect the 
opinions of EPA and other federal and state officials on the likely 
final disposition of these sites, including the number of sites that 
are expected to be placed on the NPL. We reported the results of our 
surveys in two November 1998 reports. <SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ Hazardous Waste: Unaddressed Risks at Many Potential Superfund 
Sites (GAO/RCED-99-8, Nov. 30, 1998, and Hazardous Waste: Information 
on Potential Superfund Sites (GAO/RCED-99-22, Nov. 30, 1998).
---------------------------------------------------------------------------
    On the basis of our surveys, we determined that 1,789 of the 3,036 
sites that EPA's database classified as ``awaiting an NPL decision'' in 
October 1997 are still potentially eligible for placement on the list. 
<SUP>9</SUP> EPA, other federal agency, and state officials responding 
to our survey said that many of these sites presented risks to human 
health and the environment. According to these officials, about 73 
percent of the sites have caused contamination in groundwater and 
another 22 percent could contaminate groundwater in the future; about 
32 percent of the sites caused contamination in drinking water sources 
and another 56 percent could contaminate drinking water sources in the 
future; 96 percent of the potentially eligible sites are located in 
populated areas within a half-mile of residences or places of regular 
em-

ployment; and workers, visitors, or trespassers may have direct contact 
with contaminants at about 55 percent of the sites.
---------------------------------------------------------------------------
    \9\ We refer to these 1,789 hazardous waste sites as ``potentially 
eligible sites.'' We consider the 1,234 other sites as unlikely to 
become eligible for various reasons. For example, some sites were 
erroneously classified as awaiting an NPL decision or do not meet EPA's 
criteria for placement on the list. Other sites do not require cleanup 
in the view of the responding officials, have already been cleaned up, 
or have final cleanup activities underway. Whether potentially eligible 
sites are eventually listed depends on, among other things, a final 
evaluation by EPA and the states' concurrence.
---------------------------------------------------------------------------
    We asked officials of EPA, other federal agencies, and states to 
rank the risks of the potentially eligible sites. These officials 
collectively said that about 17 percent of the potentially eligible 
sites currently pose high risks to human health and the environment, 
and another 10 percent of the sites (for a total of 27 percent) 
reportedly may also pose high risks in the future if they are not 
cleaned up (see fig. 3). For about one-third of the sites, the 
officials said that it was too soon or they needed more information to 
determine the seriousness of the sites' risks, or they provided no risk 
characterization.

Figure 3: Number of Potentially Eligible Sites With High, Average, and 
                          Low Potential Risks
[GRAPHIC] [TIFF OMITTED] 60198.076

    Source: Hazardous Waste: Unaddressed Risks at Many Potential 
Superfund Sites (GAO/RCED-99-8, Nov. 30, 1998).

    Officials responding to our surveys said that some cleanup 
activities (which they stated were not final cleanup actions) have 
taken place at 686 of the potentially eligible sites. These actions 
were taken at more than half of the sites that were reported to 
currently or potentially pose high risks, compared to about a third of 
the sites that have been reported to currently or potentially pose 
average or low risks. No cleanup activities beyond initial site 
assessments or investigations have been conducted or no information is 
available on any such actions at the other 1,103 potentially eligible 
sites.<SUP>10</SUP> Many of the potentially eligible sites have been in 
state and EPA inventories of hazardous sites for extended periods. 
Seventy-three percent have been in EPA's inventory for more than a 
decade. No cleanup progress was reported at the majority of the sites 
that have been known for 10 years or more.
---------------------------------------------------------------------------
    \10\ Of the 1,103 sites for which no cleanup actions were reported, 
both EPA and the states said that they had taken no cleanup actions 
beyond initial site assessments at 719 of them. For 336 sites, EPA 
officials alone said that their agency had taken no cleanup actions, 
but the states provided no information. California, Massachusetts, and 
New Jersey accounted for about 85 percent of these sites. Similarly, 
for six sites, the states said that they had taken no action, but EPA 
provided no information. Neither EPA nor the states provided 
information on any cleanup actions that may have occurred at the 
remaining 42 of the 1,103 sites.
---------------------------------------------------------------------------
    It is uncertain whether most potentially eligible sites will be 
cleaned up; when cleanup actions, if any, are likely to begin; who will 
do the cleanup; under what programs these activities will occur; and 
what the extent of responsible parties' participation will be. We did 
not receive enough information from our survey to determine what 
cleanup actions will be taken at more than half of the 1,789 
potentially eligible sites and whether EPA or the states will take 
these actions (see fig. 4). We are making no forecast of the number 
from the group of 1,789 potentially eligible sites that will be added 
to the NPL in the future. However, EPA and state officials collectively 
believed that 232 (13 percent) of the potentially eligible sites might 
be placed on the NPL in the future.<SUP>11</SUP> Officials estimated 
that almost one third of the potentially eligible sites are likely to 
be cleaned up under state programs but usually could not give a date 
for the start of cleanup activities. State officials stated that, for 
about two-thirds of the sites likely to be cleaned up under state 
programs, the extent of responsible parties' participation is 
uncertain. This is important because officials of about half of the 
states told us that their state's financial capability to clean up 
potentially eligible sites, if necessary, is poor or very poor. In 
addition, officials of about 20 percent of the states said that their 
enforcement capacity (including resources and legal authority) to 
compel responsible parties to clean up potentially eligible sites is 
fair to very poor.
---------------------------------------------------------------------------
    \11\  However, EPA and the states agreed on the listing prospects 
of only 26 specific sites.
---------------------------------------------------------------------------

   Figure 4: Estimates of the Likely Final Cleanup Outcome for 1,789 
                       Potentially Eligible Sites
[GRAPHIC] [TIFF OMITTED] 60198.077

    Note: ``Other sites'' includes sites likely to be cleaned up under 
other EPA programs (43), sites that either EPA or state programs may 
clean up (13), and sites that are reportedly unlikely to be cleaned up 
(19).
    Source: Hazardous Waste: Unaddressed Risks at Many Potential 
Superfund Sites (GAO/RCED-99-8, Nov. 30, 1998).

    Our November report recommends that EPA review its inventory of 
potential NPL sites to determine which of them need immediate action 
and which will require long term cleanup action and, in consultation 
with the states, develop a timetable for taking these actions.
    In conclusion, Mr. Chairman, despite the long durations of cleanups 
in the past, Superfund is within sight of completing the construction 
of cleanup remedies at most of the sites on the NPL. While recognizing 
this accomplishment, we believe that management problems and cost 
control issues we have reported on for several years remain to be 
solved. Because few sites have been admitted to the program in recent 
years, the NPL pipeline is clearing out. On the other hand, there are 
many sites in EPA's inventory of potential NPL sites that still need 
attention and possible cleanup, but EPA and the states have postponed 
decisions, sometimes for up to 10 years or longer, on how to address 
them.
    Over the last two decades, the states have built up the capacity to 
deal with site cleanups to varying degrees. Some have substantial 
programs, but others have limited resources and report that their 
ability to pay for cleanups is poor. Furthermore, not all of the states 
have adequate enforcement authority to force responsible parties to pay 
for cleanups. Because states generally now have the lead for screening 
sites for NPL consideration, future NPL sites may disproportionately 
represent complex cleanups for which responsible parties cannot be 
found or are unwilling to ante up the full cost of the cleanup. We have 
recommended that EPA work with the states to assign responsibility 
among themselves for these sites. The Superfund reauthorization process 
gives the Congress an opportunity to help guide EPA and the states in 
allocating responsibility for addressing these sites.
    Mr. Chairman, this concludes my prepared statement. I will be happy 
to respond to your questions or the questions of committee members.

    Mr. Oxley. Thank you, Mr. Guerrero.
    Now, the Chair would note that there are four votes on the 
floor. We have about 10 minutes, or less than 10 minutes, to go 
and, then, we have a 5-minute vote. So, we will be gone a good 
half an hour.
    Ms. Kerbawy, could we get your testimony, say, within the 
next 5 minutes, or would you prefer that we come back and begin 
your testimony then?
    Ms. Kerbawy. It really doesn't matter to me. It might take 
7 minutes.
    Mr. Oxley. Okay, then, why don't we recess, if that is okay 
with you. And, then we will return as soon as the votes are 
over, which I would think would probably take a total of about 
a half an hour.
    [Brief recess.]
    Mr. Oxley. The committee will reconvene.
    When we last met several days ago Ms. Kerbawy was just 
going to give us her testimony. So, with that, let me recognize 
Ms. Kerbawy, representing ASTSWMO.

                  STATEMENT OF CLAUDIA KERBAWY

    Ms. Kerbawy. Thank you very much. Hopefully, you folks had 
a good vote.
    Good afternoon, and it's getting close to evening. I am 
Claudia Kerbawy, Chief of the Michigan Superfund Program. I 
have been around this program for quite a while--not quite as 
long as it has been in existence, but just about. I had a 
little bit of a hiatus for a while working strictly on 
brownfields, but now I am back.
    I am also the primary spokesperson on re-authorization 
issues for the Association of State and Territorial Solid Waste 
Management Officials, and I am here today representing ASTSWMO.
    As the day-to-day implementers of the State and Federal 
cleanup programs, the members of ASTSWMO believe we can offer a 
unique perspective to this dialog, and thank you for 
recognizing the importance of the State perspective. We commend 
you for taking this opportunity to review the status of State 
and Federal cleanup programs prior to the development of 
legislation. I think that will be quite valuable.
    The Superfund statute has facilitated cleanup of some of 
our Nation's most severely contaminated sites. Perhaps even 
more importantly, it has fostered the development of State 
cleanup programs, so that today over 40 States have enacted 
State Superfund statutes, as well as State voluntary cleanup 
programs and the brownfields programs.
    As with the Federal Superfund Program, most State programs 
have had the benefit of 18 years to grow and mature in 
infrastructure capacity and cleanup sophistication. We believe 
it is very important that Congress understand the status of 
State programs, in order to make a fully informed decision 
regarding the future of the Federal Superfund Program.
    ASTSWMO recently conducted a study of the accomplishments 
of the States' cleanup programs. The association asked States 
to provide detailed information on all removal and remedial 
actions conducted between January 1, 1993 and September 30, 
1977, for each site in the State system, where hazardous waste 
cleanup efforts were performed by States directly, were 
performed under State enforcement authority, and were done 
under voluntary cleanup and property transfer or brownfields 
programs. It should be noted that sites listed on the NPL, RICO 
corrective actions, and underground and above-ground storage 
tank, and other petroleum spills were not included in this 
study.
    The association received information on over 27,000 sites 
from 33 responding States. I should note that the primary 
ground rule for the study was that information had to be 
reported site-specifically and had to be accompanied by 
background data. Estimates and program summaries were not 
counted as part of either the individual State or national 
totals.
    As a result, while this study does not capture the complete 
site universe, either on a national or individual State level, 
it is the view of ASTSWMO that enough information was obtained 
to confirm that a trend has developed demonstrating State 
programs have substantially matured and are addressing a 
significantly increased number of sites.
    Some of the key results of the ASTSWMO study include: The 
States are now completing an average of 1,475 sites a year as 
compared to 200 completions per year previously, for a total of 
6,768 completions. The sevenfold increase in completions can be 
attributed to the growth in the State programs, the advent of 
the State voluntary cleanup programs, and the development of 
State cleanup standards.
    On a national basis, States completed approximately 485 
removals per year, as compared to 293 per year during the first 
12 years of the program. This indicates a substantial increase 
in risk reduction in the field.
    Today States are addressing an average of approximately 
4,700 sites at any given time, as compared to 1,850 during the 
first 12 years of the program. This, clearly, shows that State 
programs have increased in their capacity to identify and 
address more sites.
    Only 8.9 percent of the total sites identified by States 
were classified as ``inactive.'' As the data indicate, State 
capacity to address large numbers of sites has increased 
dramatically. Most sites are being actively worked on by 
States, either through traditional Superfund programs or 
through voluntary cleanup programs. The majority of sites 
classified as ``inactive'' are probably of lower relative risk 
and not destined for the NPL anyway.
    Obviously, the problem of hazardous waste remediation in 
this country was much larger than anyone anticipated when 
CERCLA was enacted. And, the role the States would play in this 
process was vastly underestimated. Today, there are 
approximately 1,300 sites listed on the National Priorities 
List. And, after 18 years, approximately 90 percent of all the 
sites on the NPL now have records of decision signed.
    State programs, in just the last 4 years, have completed 
6,768 sites and are working on an additional 20,467 sites. The 
purpose in stating these numbers is not to compare or compete 
with the Federal Government, but to illustrate that the Federal 
Government will only be addressing a finite number of sites, 
and that the remaining universe of sites is left for the States 
to address.
    The question before this committee is, what should the 
appropriate role of the Federal Superfund Program be in the 
future? There are over 40 States with cleanup programs; 
however, there will always be States who choose to not develop 
a program, and Federal assistance may be warranted there. There 
will also be sites which, due to either technical or legal 
complexities, or cost a State either can not address or may 
prefer to have the Federal Government address--the point I wish 
to stress is, with the current status of State programs, the 
choice as to whether a site is addressed under the Federal 
Government or the State government should be determined by the 
State. The Governor should be able to request Federal 
assistance or veto a site from being listed on the National 
Priority List. And, legislation is needed to accomplish this.
    As indicated by both the ASTSWMO and GAO surveys, EPA is no 
longer at the center of the site-remediation universe. The 
States have, clearly, become the primary regulators for 
overseeing site remediation. The NPL should be reserved for 
those sites where both the State and Federal Government believe 
the expenditure of Federal resources is warranted. The NPL is 
no longer reserved for the worst of the worst sites. Rather, 
the NPL has shifted to a venue for remediating serious sites 
which require Federal resources.
    Right now, the Federal Superfund statute technically 
applies to any site where a release occurs. However, the 
reality is that the States are really responsible for 
remediation of all sites which are not on the NPL. The EPA 
removal program is able to address some of those sites, but the 
program is designed to stabilize sites not ensure complete 
remediation. The majority of these sites will never be on the 
NPL, and, therefore, EPA does not even have the regulatory 
authority to compel responsible-party action or spend money at 
these sites to perform the necessary remedial actions. 
Consequently, the State is often still responsible for 
completing the remediation of a site, even after an EPA removal 
action has been performed.
    Although the majority of these sites will never be placed 
on the NPL, they are still subject to CERCLA liability, even if 
a site has been cleaned up to State standards. The potential 
for overfile by EPA, and for third-party lawsuits under CERCLA, 
clearly inhibits redevelopment of brownfields sites.
    We believe it is imperative that Congress seek to clarify 
the State and Federal roles and potential liability 
consequences under the Federal Superfund Program. States should 
be able to release sites from liability once a site has been 
cleaned up to State standards, and emergency action should be 
the only exceptions to such releases from Federal liability.
    We believe the universe of sites to be addressed by State 
cleanup programs and the sites eligible for releases from 
Federal liability is the non-NPL universe of sites. Some people 
will suggest that the non-NPL universe can be divided into two 
categories: NPL-caliber and low-risk sites. As the primary 
regulators for non-NPL sites, we are here to tell you that 
there is no clear line that differentiates these sites. If a 
site is not on or proposed for listing on the NPL, the State 
should be free to address the site without EPA interference.
    We believe legislation is needed in this area, and hope 
that Congress chooses to recognize the benefits of State 
programs, which have had over 18 years to grow and mature, and 
which, clearly, have become the leaders in site-remediation 
today.
    We look forward to working with this subcommittee as this 
issue is debated.
    [The prepared statement of Claudia Kerbawy follows:]
    Prepared Statement of Claudia Kerbawy, Association of State and 
              Territorial Solid Waste Management Officials
    Good morning. I am Claudia Kerbawy and I am the Chief of the 
Michigan Superfund program. I am also the primary spokesperson on 
reauthorization issues for the Association of State and Territorial 
Solid Waste Management Officials (ASTSWMO) and am here today 
representing ASTSWMO. ASTSWMO is a non-profit association which 
represents the collective interests of waste program directors of the 
nation's States and Territories. Besides the State cleanup and remedial 
program managers, ASTSWMO's membership also includes the State 
regulatory program managers for solid waste, hazardous waste, 
underground storage tanks, and waste minimization and recycling 
programs. Our membership is drawn exclusively from State employees who 
deal daily with the many management and resource implications of the 
State waste management programs they direct. As the day-to-day 
implementors of the State and Federal cleanup programs, we believe we 
can offer a unique perspective to this dialogue and thank you for 
recognizing the importance of the State perspective.
    The Superfund statute has served an important purpose. First, it 
has facilitated the cleanup of some of our nation's most severely 
contaminated sites; and second, and perhaps most importantly, it has 
fostered the development of State Superfund programs and State 
Voluntary Cleanup programs. Today, over 40 States have enacted State 
Superfund statutes as well as State Voluntary Cleanup/Brownfield 
programs. I would like to dedicate the first part of my testimony to 
speaking on the accomplishments of State programs. As with the federal 
Superfund program, most State programs have had the benefit of 18 years 
to grow and mature in infrastructure capacity and cleanup 
sophistication. We believe it is very important that Congress 
understand the status of State programs, in order to make a fully 
informed decision regarding the future of the federal Superfund 
program. The second part of my testimony will be devoted to analyzing 
the current federal program and providing recommendations for the 
future program.
ASTSWMO State Accomplishments study:
    The Association of State and Territorial Solid Waste Management 
Officials recently conducted a study on the accomplishments of State 
cleanup programs. The association asked States to provide detailed 
information on all short-term removal actions and long-term remedial 
actions conducted between January 1, 1993 and September 30, 1997 for 
each site in the State system where hazardous waste cleanup efforts 
were performed by States directly, under State enforcement authority, 
and under State voluntary cleanup and property transfer/brownfield 
programs. Sites listed on the National Priorities List, Resource 
Conservation Recovery Act corrective actions and underground and above 
ground storage tank and other petroleum spills were not included in 
this study. The association received information on 27,235 sites from 
thirty-three responding States. I should note that the primary ground 
rule for the study was that information had to be reported site-
specifically and had to be accompanied by background data. Estimates 
were not accepted or counted as part of either the individual State or 
national totals for work accomplished.
    While this study does not capture the complete site universe either 
on a national level or individual State level, it is the view of 
ASTSWMO that enough information was obtained to confirm that a trend 
has developed whereby on a national level States are not only 
addressing more sites at any given time, but are also completing 
(construction completes) more sites through streamlined State programs. 
State programs have matured and increased in their infrastructure 
capacity.
    Key results of the ASTSWMO study included:

<bullet> States have completed seven times as many sites per year these 
        last four and three-quarter years than they did during the 
        first twelve years of the program. During the first twelve 
        years of the program, States completed 202 sites per year on 
        average. Over the last four and three-quarter years, States 
        have averaged 1, 475 completions per year for a total of 6,768 
        completions. State managers believe the large increase in 
        completions can be attributed to the growth of State programs, 
        the advent of State Voluntary Cleanup programs and the 
        development of State cleanup standards (i.e., clearly defined 
        endpoints).
<bullet> States have completed almost twice as many removals per year 
        during the last four and three-quarter years of the program 
        than they did during the previous twelve years of the program. 
        On a national basis, States completed approximately 485 
        removals per year as compared to 293 per year during the first 
        twelve years of the program. This doubling of the pace of 
        removals indicates a substantial increase in risk reduction in 
        the field.
<bullet> Three times as many confirmed contaminated sites have been 
        identified and are working their way through the State system 
        than during the first twelve years of the program. During the 
        first twelve years of the program, States had approximately 
        1,850 sites working their way through their systems at any 
        given time. Today, States are addressing an average of 
        approximately 4,700 sites at any given time. NOTE: the word 
        ``address'' could refer to site remediation, no further action 
        designations, or site prioritizations. These findings clearly 
        show that States programs have matured and State 
        infrastructures have increased in their capacity to identify 
        and address more sites.
<bullet> Only 8.9% (2,426) of the total sites identified by States 
        (27,235) were classified as inactive. As the data indicate, 
        State capacity to address large numbers of sites has increased 
        dramatically. Most sites are being actively worked on by States 
        either through traditional State superfund programs or through 
        voluntary cleanup programs and it is the professional judgement 
        of the ASTSWMO membership that the majority of sites classified 
        as inactive are probably of lower relative risk and not 
        destined for the NPL due to the triage system employed by most 
        States.
Analysis of the Current Federal Superfund Program and Recommendations 
        for the Future:
    It is our understanding that when Congress enacted the 
Comprehensive Environmental Response Compensation and Liability Act 
(CERCLA) in 1980, commonly known as Superfund, it was envisioned that 
there were approximately 400 serious abandoned hazardous waste sites 
requiring remediation across the country and that the Superfund program 
would have a life-span of perhaps five years. Congress did not provide 
for a meaningful role for State programs until 1986 with the Superfund 
Amendments and Reauthorization Act (SARA).
    Obviously the problem of hazardous waste remediation in this 
country was much larger than anyone anticipated and the role the States 
would play in this process had been vastly underestimated. Today, there 
are approximately 1300 sites listed on the National Priorities List. 
After 18 years, the Environmental Protection Agency can legitimately 
claim that approximately 90% of all sites listed on the National 
Priorities List have signed records of decision. State programs in just 
the last four years have completed 6,768 sites and are working on an 
additional 20,467 sites. The purpose in stating these numbers is not to 
compare or compete with the federal government, but to illustrate that 
Congress was correct in envisioning that the federal government would 
address only a finite number of sites.
    As the recent ASTSWMO survey illustrates, State programs have 
developed and matured in terms of sophistication and infrastructure 
capacity. Only 8.9% (2,426) of the total sites (27,235) identified by 
the ASTSWMO survey are classified as inactive. States today employ a 
triage system whereby, the worst sites are addressed first. It is, 
therefore, the strong belief of the ASTSWMO membership that most sites 
that have been identified within a State that could qualify for listing 
on the NPL are already being worked on by the State.
    We believe the views of our membership were validated by the recent 
General Accounting Office (GAO) Report entitled, ``Hazardous Waste: 
Unaddressed Risks at Many Potential Superfund Sites''. In this report 
the GAO reviewed the status of 3,036 sites which had pre-scored above 
28.5 but for a variety of reasons had not been placed on the NPL. Out 
of a total of 3,036 sites only 7.6% (232) were estimated by both EPA 
and State officials to potentially warrant listing on the NPL. This 
confirms that the EPA regional staff had utilized good judgement in not 
placing the vast majority of these sites on the NPL; it also confirms 
that the hazard ranking system could be improved.
    The question before this Committee is what should be the 
appropriate role of the federal Superfund program in the future? While 
there may be forty plus States with State Superfund programs and 
Voluntary Cleanup programs there will always be States who choose not 
to develop a program and federal government assistance may be 
warranted. There will also be sites which due to either technical or 
legal complexity or cost, a State either cannot or may prefer to have 
the federal government address. The point I wish to stress is that with 
the current status of State programs the choice as to whether a site is 
addressed by the federal government or State government should be 
determined by the State. A Governor should be able to veto a site from 
being listed on the National Priorities List. While it is EPA policy to 
routinely seek concurrence from the Governor before a site is listed on 
the NPL, it is not mandatory that the concurrence be received. If a 
dispute should arise between EPA and a Governor the process within EPA 
is to have the Assistant Administrator for OSWER make the final 
determination. Frankly, that is not a satisfactory policy.
    Fortunately, there are very few sites where the States and EPA 
disagree, however, when a dispute does occur the site quickly becomes 
high profile and both the State and federal government can lose 
credibility. As indicated by the ASTSWMO survey and GAO survey, the 
States have clearly become the primary regulators for overseeing site 
remediation. The NPL should be reserved for those sites which both the 
State and federal governments believe warrant expenditure of federal 
resources. If a site has a viable responsible party and a State agency 
willing to assume responsibility, the State should have the opportunity 
to remediate the site without federal intervention. The NPL is no 
longer reserved for the ``worst of the worst'' sites, rather the NPL 
has shifted to a venue for remediating sites which require federal 
resources. The criteria for listing sites on the NPL may quickly shift 
from one of risk based determinations to one based on resource needs. 
Legislative change is needed.
    Congress also must consider whether they wish to see the role of 
the federal Superfund program expanded in the future. The federal 
Superfund statute technically applies to any site where a release 
occurs. However, the reality today is that States are responsible for 
ensuring the remediation of all sites which do not score above 28.5 
using EPA's Hazard Ranking System (HRS)--the cutoff for federal listing 
on the NPL. The EPA removal program is able to address some sites which 
are not listed on the NPL, but the program is designed to stabilize a 
site, not to ensure the full remediation of the site. EPA can not 
expend fund money for remediating a site not listed on the NPL. 
Consequently, the State is often still responsible for completing the 
remediation of a site even after an EPA removal action has been 
performed at a site.
    It is our belief that Congress needs to decide definitively whether 
EPA should retain a role in the remediation of non-NPL sites. While in 
practicality EPA has no to little role at these sites and as our survey 
indicated, the States are addressing the large universe of non-NPL 
sites, the statute still maintains a role for EPA in theory. Although 
the majority of these sites (typically brownfield sites) will never be 
placed on the NPL, they are still subject to CERCLA liability even 
after the site has been cleaned up to State standards. It is our belief 
that we can no longer afford to foster the illusion that State 
authorized cleanups may somehow not be adequate to satisfy federal 
requirements. The potential for EPA overfile and for third party 
lawsuits under CERCLA is beginning to cause many owners of potential 
Brownfields sites to simply ``mothball'' the properties. We believe it 
is imperative that Congress seek to clarify the State-Federal roles and 
potential liability consequences under the Federal Superfund program. 
States should be able to release sites from liability once a site has 
been cleaned up to State standards. In situations which are deemed 
emergencies and where the State requests assistance, we believe the 
federal government should be able to address the site and if necessary 
hold the responsible party liable consistent with liability assigned 
under State cleanup law. Emergency actions should be the only 
exceptions to such releases from federal liability.
    This has been a very contentious issue and we understand that many 
in the Administration have raised objections to provisions of this 
nature. We do not understand the basis for these objections for several 
reasons. First, EPA does not have the ability to compel parties to take 
remedial actions at sites not listed on the NPL, except for removal 
actions. Second, the majority of these sites will never be listed on 
the NPL, therefore, EPA does not have regulatory authority to spend 
fund money at these sites to perform the necessary remedial actions. 
Third, if a State should release a site from State liability (of 
course, all States have standard reopener provisions contained in their 
liability releases), and a situation should develop which warrants 
federal attention, the State will act responsibly and contact EPA. For 
example, the Hoboken site in New Jersey was remediated under the State 
Voluntary Cleanup program and a certificate of completion was issued by 
the State. Previously unknown mercury was later found to be present at 
the site and the State for financial and technical reasons called EPA 
in to address the site. The State of New Jersey has remediated over 
6,000 sites through its Voluntary Cleanup program and receives 150 
applications a month. We recognize that situations such as the Hoboken 
site will occur and believe that the recommendation we have offered 
adequately addresses the situation. While it is clear in emergency 
situations that EPA should have the ability to enter a site, we believe 
the second prong of the condition must also be met, i.e., with State 
concurrence similar to our recommendation for listing sites on the NPL. 
We wish to avoid duplication as much as possible and therefore believe 
that if a State is capable of addressing the emergency than there is no 
need to utilize EPA's resources. The States have proven they act 
responsibly in these situations and it is to the State's advantage to 
notify EPA when either the State's financial or technical resources are 
not sufficient to adequately address the problem.
    We believe the universe of sites to be addressed by State Cleanup 
(State Superfund and State Voluntary Cleanup) programs and the sites 
eligible for releases from federal liability is the non-NPL universe of 
sites. It seems only practical to officially exclude proposed and 
listed NPL sites simply for the fact that much work has already ensued 
in order to place these sites on the NPL. Some suggest that the non-NPL 
universe can be divided into two categories, NPL-caliber and low risk 
sites. We are the primary regulators for non-NPL sites and we are here 
to tell you that there is no clear line that differentiates these 
sites. Many would suggest the bright line should be 28.5 (as determined 
by the HRS), but there are two problems with using this arbitrary 
cutoff. First, 28.5 is the quantitative scoring factor used to 
determine if a site qualifies for placement on the NPL. However, this 
figure is based on an archaic hazard ranking system which many EPA and 
State managers admit is flawed, so much so, that EPA and State managers 
in the GAO study identified only 7.9% of the 3036 pre-scored universe 
of sites for potential listing on the NPL. Second, in order to use the 
quantitative NPL-caliber designation, States would have to score sites 
prior to admitting them to a voluntary cleanup program (a suggestion we 
understand one EPA Region has made to a State). Clearly, the pre-
scoring of a site as a condition for entering a State Voluntary Cleanup 
program would be a huge disincentive for marketing a State Voluntary 
Cleanup program and would not serve to move this large universe of 
sites to cleanup nor to facilitate economic redevelopment of 
brownfields. Essentially, the program has operated for years on a ``you 
know it when you see it basis'' in identifying NPL-caliber sites. This 
is bad public policy and should not be acceptable for differentiating 
State and EPA roles and for providing certainty to the process. If a 
site is not to be listed on the NPL, than the State should be free to 
address the site without EPA interference and the site should be 
eligible for the same benefits as any other site, such as liability 
releases. We believe legislation is needed in this area and hope that 
Congress chooses to recognize the benefits of State programs which have 
had over 18 years to grow and mature and which clearly have become the 
leaders in site remediation today.
Conclusion:
    As we understood the subject of today's hearing to be the status of 
the current federal Superfund program, I have not outlined ASTSWMO's 
recommendations for changes to the federal remedy selection process or 
addressed the issue of the State role regarding federal NPL sites 
(ASTSWMO's positions on these issues are attached for the record). 
Rather, I have focused on both the current and potential scope of the 
federal Superfund program in the future. With 90% of all NPL sites 
having signed records of decision, we felt a discussion on remedy 
selection changes would not be appropriate. EPA has done a good job in 
diligently working to remediate the 1300 or so sites listed on the NPL. 
They should be commended for their efforts. EPA, however, is no longer 
the center of the site remediation universe. The vast majority of sites 
are and will continue to be remediated under State auspices. The 
question for Congress should be whether to change the law to reflect 
today's reality. We look forward to working with the Subcommittee as 
this issue is debated.

    Mr. Oxley. Thank you very much, Ms. Kerbawy.
    Let me begin by asking, Mr. Guerrero--EPA has stated that 
the pace of cleanups has increased because the number of 
construction-completes have increased over the past few years. 
You testified that, when you evaluated the pace of cleanup, you 
estimated it takes an average of 10.6 years to clean up an NPL 
site. In your view, do the increases in completed constructions 
necessarily provide evidence of an accelerated pace of cleanup? 
Can you comment on the difference between your estimates and 
that of EPA?
    Mr. Guerrero. Sure. No, we have not seen convincing 
evidence that the pace of cleanups has necessarily improved. We 
believe that the increased numbers of cleanups that are being 
done is a reflection of the aging of the cases that have been 
in the system for many, many years. And, if you remember, I 
referred to a figure 1 in my statement, which showed that EPA 
had not listed many sites in this decade. Most of the sites, 
close to 90 percent of sites, were listed prior to this decade. 
And, so, eventually, you would expect that those sites would 
get cleaned up, and they are getting cleaned up now.
    Mr. Oxley. EPA has made a number of changes to how it 
administers the Superfund Program over the past few years. It 
calls these administrative reforms. We heard the agency discuss 
these in some detail earlier with Mr. Fields. GAO studies the 
effectiveness of these reforms. What are your primary findings?
    Mr. Guerrero. At the time we looked at it--and this is work 
that is now 2 years old, so it is something we would want to 
look at currently to get a better read on--but at the time we 
looked at it, EPA was unable to document the improvements that 
they were claiming they had made as part of that administrative 
reform.
    Mr. Oxley. Isn't it true that GAO found quantifiable 
results for only about 6 out of 45 administrative reforms?
    Mr. Guerrero. That is correct.
    Mr. Oxley. GAO indicated, in their earlier report, that EPA 
was unable to document the effectiveness of many of these 
reforms, noting that the agency indicated that results of many 
of these reforms were not quantifiable. Has that changed? Does 
GAO have any additional information about the effectiveness of 
EPA's administrative reforms?
    Mr. Guerrero. No, not since that time. And, again, as I 
said, we think this is an issue that should be looked at and we 
would be happy to do that for the committee.
    Mr. Oxley. Thank you.
    Ms. Kerbawy, we heard testimony from GAO that the capacity 
of State programs to take on greater responsibility may vary by 
State, due to issues associated with State funding and 
enforcement authority. Can you offer your opinion about the 
extent to which State programs may be able to take on greater 
responsibility for cleanups in the future?
    Ms. Kerbawy. Sure. I think we have seen a definite trend 
over the years that the State capacity for dealing with these 
sites has increased substantially. We agree with GAO's 
percentages; 80 percent of the States have the program 
capability with their Superfund laws to deal with the 
enforcement issues and the funding issues. I think that, 
certainly, the States are showing that they are handling the 
vast majority of the sites out there as it is, and those 
include sites that have the same level of risk and complexity 
as some of the sites on the NPL. There will always be a few 
States that will not be able to take on the program; that chose 
either not to develop a program or ask for EPA assistance. 
That, currently, is the case, I would expect that would be the 
case in the future. So, there probably is a role for some 
States where EPA would need to play a part.
    Mr. Oxley. Your testimony on behalf of the State cleanup 
official states that, quote, ``The potential for EPA overfile 
for third-party lawsuits under CERCLA is beginning to cause 
many owners of potential brownfields sites to simply `moth 
ball' the properties.''
    You further state that ``The States should be able to 
release sites from liability once a site has been cleaned up to 
State standards.''
    We heard this issue discussed earlier by Mr. Fields, and 
you were present, I think, to hear his response. Can you 
explain the State's view on this point?
    Ms. Kerbawy. Yes. I think that it's really important to 
note that, although there are 11 States that have memorandums 
of agreement with EPA, which helps to give some assurance that 
EPA will not overfile where they are taking action, that is 
only 11, and very few States are interested in pursuing a 
memorandum of agreement at this time under the current policies 
that EPA has. What we see now is that EPA is asking for 
specific changes in their programs that would be necessary or 
scoring of sites before putting them into a voluntary cleanup 
program--all of which significantly complicates and changes the 
priorities for the States in dealing with the sites within 
their State. Quite frankly, I think that it is very important 
to look at the overall issue that MOA's don't bar--they are not 
enforceable. So, the potential for a problem still exists out 
there.
    If Michigan did not have an MOA with EPA right now, I don't 
think we would be trying to get one because of what would be 
required to be put in there. I think that it is also important 
to note that the third-party complications, third-party 
contribution actions, are not affected whatsoever by an MOA. 
That agreement is between the State and EPA. And, one of the 
major issues at the brownfields sites is, not only that EPA 
might come in, but that there would be third-party contribution 
actions that could be taken against new owners of the site 
that, you know, are essentially innocent parties.
    Mr. Oxley. Thank you. The Chair's time has expired. Let me 
turn to the gentleman from New York, the ranking member, Mr. 
Towns.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Mr. Guerrero, I would like to focus on the 232 sites that 
your testimony indicates might be placed on the NPL list. For 
the 39 sites, in the group of 232 where EPA said the NPL 
listing was likely, but the State says cleanup or no cleanup, 
would you agree that there is more uncertainty in these sites 
being listed on the NPL than the 26 where both agencies agree?
    Mr. Guerrero. Yes, there is.
    Mr. Towns. I understand that you encounter approximately 
100 sites from the State of Massachusetts in your graph of 
sites, but which final outcome is uncertain because the State 
failed to participate in your survey. Am I correct that 
Massachusetts did send you written documentation indicating 
that virtually all of the Massachusetts sites will be handled 
by the State program?
    Mr. Donaghy. I can respond to that. Actually, Massachusetts 
refused to participate in the survey that we sent out to the 
States to find out how they were dealing with the sites that 
could make it into the Superfund Program. They said that they 
had recently completed a survey for ASTSWMO, and they referred 
us to the ASTSWMO questionnaire for information. But, we 
weren't able to use the responses that were given to ASTSWMO 
because it was an entirely different questionnaire. It was a 
one-page questionnaire, a very short sort of survey; whereas, 
our own was much more complex and the categories that we used 
weren't always consistent with the ASTSWMO survey. So, we 
weren't able to integrate the Massachusetts figures into our 
overall data on the States.
    Mr. Towns. And they used the excuse of the fact that it 
would take them too long to prepare and----
    Mr. Donaghy. Yes, they said they didn't have the resources 
to complete the survey.
    Mr. Towns. And they also stated their sites were not to be 
listed on the NPL?
    Mr. Donaghy. I am not sure that they told us that. They 
referred us to the ASTSWMO survey. In response to the ASTSWMO 
survey, they probably forecast few sites would make it on to 
the NPL; that is right.
    Mr. Towns. Mr. Chairman, I have a document here I would 
like to place in the record, a letter, also, from the 
Commonwealth of Massachusetts and also the Massachusetts 
questionnaire they submitted by GAO. I would also like to 
submit all of that, for the record.
    Mr. Oxley. Without objection.
    [The information referred to follows:]

                  Commonwealth of Massachusetts    
              Executive Office of Environmental Affairs    
                     Department of Environmental Protection
                                                  December 24, 1997
Peter F. Guerrero
Director, Environmental Protection Issues
Resources, Community, and Economic Development Division
United States General Accounting Office
Washington, D.C. 20548
    Dear Mr. Guerrero: Through the office of Secretary Trudy Coxe, the 
Department of Environmental Protection has received your request to 
complete a survey for the General Accounting Office. The survey 
requests information on hazardous waste sites in Massachusetts which 
have scored 28.5 or greater under EPA's Hazard Ranking System but have 
not yet been nominated to the National Priorities List. Such sites are 
commonly referred to as PUPS. The list accompanying your letter 
contains 195 of these sites for which you request a completed survey.
    Your letter suggests that each site specific survey should take a 
staff person approximately 10 minutes to complete. Our experience has 
been that compiling the information and completing a survey of this 
detail will take significantly more time, up to several hours each for 
many of the sites. We therefore must inform you that we will not be 
able to commit the substantial resources to it will take to complete 
this survey.
    However, I have enclosed a copy of a joint EPA/ASTSWMO survey which 
we completed this past summer regarding the same sites which you are 
interested in. In addition, members of my staff met during this past 
summer with some members of your staff and discussed the status of PUP 
sites in Massachusetts. We informed your staff that the large majority 
of those sites were participating in our waste site cleanup program and 
did not warrant listing on the NPL at this time. It seemed to come as a 
surprise to them that these sites were not sitting idly by because they 
had not yet been listed on the NPL, but were, in fact, moving forward 
under the state program. We also provided your staff with a printout of 
our data base regarding those sites.
    I hope you find the enclosed information useful. It is my 
understanding that the joint EPA/ASTSWMO survey results will be 
available during late spring of 1998. You should contact ASTSWMO for 
more information on that.
    If I can be of any further assistance, please feel free to contact 
me at 617-292-5648.
            Very truly yours,
                                            James C. Colman
               Assistant Commissioner, Bureau of Waste Site Cleanup
cc: Ms. Trudy Coxe, Secretary, Executive Office of Environmental 
Affairs
   Mr. David Struhs, Commissioner, Department of Environmental 
Protection

            Massachusetts PUP Questionnaire Submitted to GAO
------------------------------------------------------------------------
                                      Does Site
                                       Warrant
                Site                   Listing            Status
                                       on NPL?
------------------------------------------------------------------------
Wompatuck State Park................         no  in compliance with
                                                  state program
SCA Services Landfill...............         no  in compliance with
                                                  state program
Microwave Development Labs..........         no  in compliance with
                                                  state program
MSM Industries......................         no  in compliance with
                                                  state program
Royce Aluminum......................         no  in compliance with
                                                  state program
Vitale Flyash Pit...................         no  site investigation-
                                                  pending enforcement
                                                  action
Tremblay Barrell....................         no  preliminary assesment-
                                                  pending enforcement
                                                  action
Sudbury Labs........................         no  site investigation-
                                                  pending enforcement
                                                  action
Old Wharton Road Property...........         no  remedial investigation-
                                                  pending enforcement
                                                  actions
Marra Property......................         no  preliminary assesment-
                                                  pending enforcement
                                                  action
Mansfield Bleachery.................         no  site investigation-
                                                  pending enforcement
                                                  action
Margetts & Sims Septic..............         no  site investigation-
                                                  pending enforcement
                                                  action
Magic Chemical......................         no  preliminary assesment-
                                                  pending enforcement
                                                  action
Lot Near Hewitt Wool Mill...........         no  preliminary assesment-
                                                  pending enforcement
                                                  action
Conrail Yard........................         no  preliminary assesment-
                                                  pending enforcement
                                                  action
Lasco Chemical......................         no  site investigation-
                                                  pending enforcement
                                                  action
Blox Chemical.......................         no  remedial investigation-
                                                  pending enforcement
                                                  actions
Berkshire Tannery...................         no  site investigation-
                                                  pending enforcement
                                                  action
Airport Septic System...............         no  site investigation-
                                                  pending enforcement
                                                  action
Alberox.............................         no  remedial investigation-
                                                  willing low priority
                                                  site, prp conducting
                                                  response action
Cotuit Landing......................         no  remedial investigation-
                                                  willing low priority
                                                  site, prp conducting
                                                  response action
New Bedford Landfill................         no  landfill-state solid
                                                  waste program
Eastham Sani-Landfill...............         no  landfill-state solid
                                                  waste program
Adams Landfill......................         no  landfill-state solid
                                                  waste program
Bird Property.......................         no  remedial investigation-
                                                  pending enforcement
                                                  actions
Acushnet Landfill...................         no  landfill-state solid
                                                  waste program
Fairhaven Landfill..................         no  landfill-state solid
                                                  waste program
Belchertown Bulk Carriers...........         no  cleanup complete under
                                                  state program
B&E Tool............................         no  cleanup complete under
                                                  state program
Benzenold Organics..................         no  cleanup complete under
                                                  state program
Warren Landfill.....................         no  cleanup complete under
                                                  state program
Timex Clock Co. (FMR)...............         no  cleanup complete under
                                                  state program
Three C Electrical Co. (FMR)........         no  cleanup complete under
                                                  state program
Stanhome, Inc.......................         no  cleanup complete under
                                                  state program
Roy Bros Haulers....................         no  cleanup complete under
                                                  state program
Omega Laboratories..................         no  cleanup complete under
                                                  state program
Northeast Investment Co.............         no  cleanup complete under
                                                  state program
Mashpee Landfill....................         no  cleanup complete under
                                                  state program
Kytron Circuits Corp................         no  cleanup complete under
                                                  state program
Cannon's Engineering................         no  cleanup complete under
                                                  state program
Lamger Chemical Systems, Inc........         no  cleanup complete under
                                                  state program
Boston Edison/Edgar Station.........         no  cleanup complete under
                                                  state program
Astro Circuits......................         no  cleanup complete
                                                  understate program
Eastman Gelatine Corp Lime Disp Area         no  cleanup complete under
                                                  state program
Rumford Avenue Landfill.............         no  landfill-state solid
                                                  waste program
Qutney Landfill.....................         no  landfill-state solid
                                                  waste program
Peabody Landfill....................         no  landfill-state solid
                                                  waste program
Lowell Landfill.....................         no  landfill-state solid
                                                  waste program
Murray-Carver Landfill..............         no  landfill-state solid
                                                  waste program
East Bridgewater Landfill...........         no  landfill-state solid
                                                  waste program
Barnstable Landfill.................         no  landfill-state solid
                                                  waste program
Andover Town Landfill...............         no  landfill-state solid
                                                  waste program
Indian Head Ski Area................         no  no action required
Archembault/Holyoke Sani Landfill...         no  landfill-state solid
                                                  waste program
Hamilton Landfill...................         no  landfill-state solid
                                                  waste program
Groton Screw Machine................         no  remedial investigation-
                                                  pending enforcement
                                                  actions
Finberg Field.......................         no  no action required
Duralie Company Inc.................         no  remedial investigation-
                                                  pending enforcement
                                                  actions
Decor Novelties Inc.................         no  remedial investigation-
                                                  pending enforcement
                                                  actions
Crocker Junkyard (FMR)..............         no  remedial investigation-
                                                  pending enforcement
                                                  actions
Berkshire Gas Company...............         no  remedial investigation-
                                                  pending enforcement
                                                  actions
Auburn Landfill.....................         no  cleanup complete under
                                                  state program
Willow Hill Landfill................         no  cleanup complete under
                                                  state program
Johns-Manville Sales Corp...........  .........  already listed
General Latex and Chem Corp.........  .........  already listed
Magnet Corporation..................         no  feasibility study-
                                                  willing low priority
                                                  site, prp conducting
                                                  response action
H&L Reed Electroplating.............         no  remedial investigation-
                                                  low priority, prp
                                                  conducting response
                                                  action
GTE Sylvania........................         no  remedial investigation-
                                                  low priority, prp
                                                  conducting response
                                                  action
Drooker Parul.......................         no  remedial investigation-
                                                  low priority, prp
                                                  conducting response
                                                  action
Star Chemical.......................         no  cleanup complete under
                                                  state program
Phalo Corp..........................         no  cleanup complete under
                                                  state program
Owens Illinois FPD Worcester Box PLT         no  cleanup complete under
                                                  state program
Norfolk Conveyor Div................         no  cleanup complete under
                                                  state program
ND Cass Company.....................         no  cleanup complete under
                                                  state program
Monson Chemical (FMR)...............         no  cleanup complete under
                                                  state program
Microwave Assoc. Comm. Co...........         no  cleanup complete under
                                                  state program
James River Inc. Mill #8............         no  cleanup complete under
                                                  state program
?Hollingsworth & Vose Co............         no  cleanup complete under
                                                  state program
?Hollingsworth & Vose Co............         no  no release
Hercules Landfill...................         no  cleanup complete under
                                                  state program
George Lay Property.................         no  cleanup complete under
                                                  state program
Du Pont Company.....................         no  no release
Maynard Landfill....................         no  landfill-state solid
                                                  waste program
Unifirst............................         no  already listed
Townsend Highway Department.........         no  remedial investigation-
                                                  prp conducting
                                                  response action
Shafter Landfill....................         no  already listed
Robbins Company Inc.................         no  no action required
West Street Property................         no  remedial investigation-
                                                  pending enforcement
                                                  actions
Kempton Road Site...................         no  remedial investigation-
                                                  pending enforcement
                                                  actions
Microfab (FMR)......................         no  remedial investigation-
                                                  pending enforcement
                                                  actions
North Attlebro Landfill.............         no  landfill-state solid
                                                  waste program
Nat'l Steel Service Center Inc......         no  no action required
Johns-Manville Asbestos Landfill....         no  already listed
Panama St. Property.................         no  remedial investigation-
                                                  pending enforcement
                                                  actions
Worcester Spinning & Finishing Co...         no  no action required
Reclamation Systems Inc Landfill....         no  already listed
Kettle Pond.........................         no  already listed
North Carver Landfill...............         no  feasibility study-
                                                  pending enforcement
                                                  actions
Costa's Landfill....................         no  remedial design/action-
                                                  pending enforcement
                                                  actions
Holden Landfill.....................         no  landfill-state solid
                                                  waste program
Action Landfill.....................         no  landfill-state solid
                                                  waste program
Neponset Valley lnd. Park...........         no  closed under state
                                                  program
Raytheon Corp.......................         no  remedial investigation-
                                                  low priority, prp
                                                  conducting response
                                                  action
W R Grace Daramic Plant.............         no  remedial investigation-
                                                  prp conducting
                                                  response action
Worcester Tool & Stamping...........         no  remedial investigation-
                                                  prp conducting
                                                  response action
Westfield Gas & Electric Dept.......         no  remedial investigation-
                                                  prp conducting
                                                  response action
Townsend/Textron....................         no  site investigation-prp
                                                  conducting response
                                                  action
Townsend Harbor Rd Property.........         no  remedial investigation-
                                                  prp conducting
                                                  response action
Tech Well Corp (FMR)................         no  remedial investigation-
                                                  prp conducting
                                                  response action
Shaw's Plaza........................         no  remedial investigation-
                                                  prp conducting
                                                  response action
SCA/CAL's Landfill..................         no  remedial investigation-
                                                  prp conducting
                                                  response action
Rockland Industries Inc.............         no  remedial investigation-
                                                  prp conducting
                                                  response action
Reliable Elec Finishing.............         no  remedial design/action-
                                                  prp conducting
                                                  response action
RCA Corp (FMR)......................         no  site investigation-prp
                                                  conducting response
                                                  action
Raytheon Missile Systems............         no  remedial design/action-
                                                  prp conducting
                                                  response action
Nuclear Metals Inc..................         no  remedial investigation-
                                                  prp conducting
                                                  response action
North Adams Landfill................         no  remedial investigation-
                                                  prp conducting
                                                  response action
Kilburn Glass Industries............         no  site investigation-prp
                                                  conducting response
                                                  action
Indian Line Farm....................         no  remedial investigation-
                                                  prp conducting
                                                  response action
Hybripack Inc (FMR).................         no  remedial investigation-
                                                  prp conducting
                                                  response action
Hudson Light & Power................         no  remedial investigation-
                                                  prp conducting
                                                  response action
FMC/Tulco Inc.......................         no  remedial investigation-
                                                  prp conducting
                                                  response action
Electrometals Inc...................         no  remedial investigation-
                                                  prp conducting
                                                  response action
Cumberland Farms Dairy Inc..........         no  remedial investigation-
                                                  prp conducting
                                                  response action
Crewse & Cook Co (FMR)..............         no  site investigation-prp
                                                  conducting response
                                                  action
Compo Industries Inc................         no  remedial investigation-
                                                  prp conducting
                                                  response action
Commonwealth Gas Co.................         no  remedial investigation-
                                                  prp conducting
                                                  response action
Colorado Fuel & Iron................         no  site investigation-prp
                                                  conducting response
                                                  action
Coal Tar Processing Facility (FMR)..         no  remedial investigation-
                                                  prp conducting
                                                  response action
C.M. Bracket Co (FMR)...............         no  site investigation-prp
                                                  conducting response
                                                  action
Borden Chemical Co..................         no  remedial investigation-
                                                  prp conducting
                                                  response action
Bay State Abrasives/Dresser Ind              no  remedial investigation-
 Landfill.                                        prp conducting
                                                  response action
BASF Systems Corp...................         no  remedial investigation-
                                                  prp conducting
                                                  response action
Airco Industrial....................         no  remedial investigation-
                                                  prp conducting
                                                  response action
Agway/Kress Property................         no  remedial investigation-
                                                  prp conducting
                                                  response action
Alto-tronics Corp...................         no  feasibility study-prp
                                                  conducting response
                                                  action
Microwave Assoc Bldg #6.............         no  remedial design/action-
                                                  prp conducting
                                                  response action
Stauffer Chemical Co. (FMR).........         no  already listed
Sterling Supply Corp (FMR)..........         no  remedial investigation-
                                                  pending enforcement
                                                  actions
Titeflex............................         no  feasibility study-prp
                                                  conducting response
                                                  action
Reichhold Chemicals Inc.............         no  site investigation-prp
                                                  conducting response
                                                  action
Paramount Cleaners & Dryers.........         no  remedial investigation-
                                                  prp conducting
                                                  response action
Natick Federal Savings & Loan.......         no  site investigation-prp
                                                  conducting response
                                                  action
Merrimun Div of Quamco Inc..........         no  remedial design/action-
                                                  prp conducting
                                                  response action
Lubrix Products Inc.................         no  site investigation-prp
                                                  conducting response
                                                  action
JG Grant & Sons Inc.................         no  remedial investigation-
                                                  prp conducting
                                                  response action
Hoyt & Worthen Tanning Corp.........         no  site investigation-prp
                                                  conducting response
                                                  action
Hirons Upholstery...................         no  remedial investigation-
                                                  prp conducting
                                                  response action
Frequency Sources Inc Facility......         no  remedial investigation-
                                                  prp conducting
                                                  response action
Forbes Lithographic Co (FMR)........         no  preliminary assesment-
                                                  prp conducting
                                                  response action
Fabricare House.....................         no  remedial investigation-
                                                  prp conducting
                                                  response action
Bird & Sons (FMR)...................         no  preliminary assesment-
                                                  prp conducting
                                                  response action
Atlantic-Covey Crane Service Inc....         no  remedial investigation-
                                                  prp conducting
                                                  response action
Holden Street Fill Area.............         no  no action required
Huntington Avenue Landfill..........  .........  not on state list
South Boston Naval Annex............  .........  not on state list
Trimount Biotuminous Products.......  .........  not on state list
Brazonics...........................         no  critical compliance
                                                  deadline not yet
                                                  reached
Freetown Screw MFG Co...............         no  critical compliance
                                                  deadline not yet
                                                  reached
Roccos Disposal Area................         no  critical compliance
                                                  deadline not yet
                                                  reached
Waucantuck Mills (FMR)..............         no  critical compliance
                                                  deadline not yet
                                                  reached
US Windpower (FMR)..................         no  possible candidate-not
                                                  at this time
Sprague Electric....................         no  possible candidate-not
                                                  at this time
West Brewster Landfill..............         no  landfill-state solid
                                                  waste program
West Brewster Sanitary Landfill.....         no  landfill-state solid
                                                  waste program
Easthampton Landfill................         no  landfill-state solid
                                                  waste program
Easthampton Landfill................         no  remedial investigation-
                                                  prp conducting
                                                  response action
Attlebro Gas Works (FMR)............         no  site investigation-prp
                                                  conducting response
                                                  action
Attlebro Gas Works (FMR)............         no  no action required
------------------------------------------------------------------------


    Mr. Towns. Thank you very much.
    At this time, Mr. Chairman, one other question I think I 
have here, very quickly. One other question--I had a question. 
Ms. Kerbawy, I had one question for her.
    Ms. Kerbawy, in your testimony today, is it consistent with 
your organization's press release, following a survey of the 
State program in November 1998, which stated that, ``The vast 
majority, in fact, 95.6 percent of the sites listed under the 
Comprehensive Environmental Response Compensation and Liability 
Act Information System do not warrant listings on the National 
Priorities List.''
    Ms. Kerbawy. Is that consistent with my testimony today?
    Mr. Towns. Yes.
    Ms. Kerbawy. Yes. I believe it is consistent. Many of the 
sites on CERCLA, and I think that the GAO survey also came up 
with this result; don't warrant listing on the National 
Priorities List because they are being addressed in other 
manners or else are lower-risk sites.
    Mr. Towns. Let me just switch back over to you, Mr. 
Guerrero.
    Mr. Chairman, I am going to yield back.
    Mr. Oxley. The gentleman yields back. The gentleman from 
Illinois, Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman.
    First, and I am sorry, I wasn't here to get the 
pronunciation of your name----
    Ms. Kerbawy. Kerbawy.
    Mr. Shimkus. Kerbawy?
    Ms. Kerbawy. Yes.
    Mr. Shimkus. You were here for the previous panel, and I 
wanted to ask, in reference to part of your testimony in which 
you indicate Congress should amend Superfund to require the EPA 
to receive the concurrence of the State Governor prior to 
listing a site on the NPL, can you elaborate on why you believe 
it is imperative for State Governors to be given this right of 
concurrence?
    Ms. Kerbawy. Yes. State programs are really quite well 
developed and we have a lot of activity going on at these 
sites. Although it is very rare that EPA will want to list a 
site that the Governors oppose, when that happens, it can 
create great difficulties and tremendous disruption in the work 
that needs to be done on a site. We really think that our 
programs are very efficient. We are moving a lot of them 
through to completion and, when you compare it to--Mr. Fields 
mentioned that, if your site is on the National Priorities 
List, 8 years to go through the Superfund process. And, that is 
a long time and we can address a site faster than that.
    We really would prefer to have sites move forward, and if 
we are working with a responsible party or we are working on a 
site ourselves, to have it go into a listing process will be 
very disruptive.
    Mr. Shimkus. In my question to Mr. Fields, he had brought 
up a case where a site, he mentioned, would affect three 
different States, and it was difficult to get the concurrence 
of the three surrounding Governors. Do you know of any such 
case out there?
    Ms. Kerbawy. I am not familiar with any such cases, but I 
don't claim to know of every site in the Nation.
    Mr. Shimkus. Thank you.
    Mr. Guerrero, yesterday I spoke to local businesses from 
Quincy, Illinois, and I am having my own Superfund experience 
in the last 1\1/2\ months. Only two restaurants were named as 
PRP's for the Quincy landfill cleanup while Quincy has--
obviously, it is a large community--dozens of local 
restaurants. This raises very serious concerns about the EPA's 
method of collecting proper data to determine responsibility. I 
think it is obvious the EPA has probably included only two 
restaurants because they were simply among the businesses that 
kept the best records. Does this method of record collection 
strike you as somewhat unscientific?
    Mr. Guerrero. I am sorry, not being familiar with this 
specific case, I can't really comment on the specifics of it.
    Mr. Shimkus. Well, let me just put it this way: The site 
closed over 20 years ago. What the EPA is attempting to do is 
go through municipal landfill records kept by the municipality 
to determine the PRP's. They have only cited two to have 
judgments against out of the dozens of restaurants, and these 
are just mom-and-pop restaurants. If the EPA were to use that 
method, would you consider that unscientific?
    Mr. Guerrero. It certainly sounds on its face to be unfair. 
Again, you know, I can't speak for how EPA did their particular 
record search in that case and whether it was exhaustive or 
complete or----
    Mr. Shimkus. Well, you can tell I have my own axe to grind 
on the Quincy area. So, let me just move to other issues in 
part of your testimony.
    You have consistently reported that less than half of EPA's 
spending on the Superfund actually goes to contractor cleanup 
work. EPA reports that a larger share of ``spending,'' goes to 
clean up work. What is the difference between these estimates?
    Mr. Guerrero. The difference is really accounted for by 
using different categories. EPA has more categories of expenses 
that they consider to be directly related to cleanup. We are 
currently doing some work now, looking at those other 
categories, to make a better determination what percent of 
those categories go directly to site cleanups and what are not 
directly related----
    Mr. Shimkus. Can you give me an example of that? Are they 
going to consider litigation as part of cleanup?
    Mr. Guerrero. This is Mr. Barchok, who is doing the work 
right now.
    Mr. Barchok. What we are doing is looking at it in a little 
different way. We are analyzing how much of the money is going 
to contract or cleanup work; that is, contractors who study, 
design, and implement cleanups. Another categorization of the 
expenditures is how much of the expenditures are site-
specific--that is, that are charged to specific sites--and how 
much of the money is nonsite-specific. So, it gives you a cut 
as to how directly I think, EPA--and, there is some 
subjectivity in how you define cleanup. We are trying to take 
it to an analytic level and come up with categories of 
expenditures and place them in a box and then we allow others, 
like yourself, to say, ``What does that mean to you?''
    With regard to, I think, the category for enforcement, I 
think our current work is showing that, roughly, about 50 
percent of that is site-specific and about 50 percent of the 
expenditures in that category are nonsite-specific, 
administrative in nature.
    Mr. Guerrero. The key here is really, in my opinion, not 
how you slice this particular pie, but whether what is being 
allocated to cleanup work, site-specific cleanup work, is 
either increasing or decreasing over time. This is a program 
that will soon be entering its third decade. You would expect, 
by this point in time, that the large proportion of that 
Superfund dollar would be spent onsite cleanup. Unfortunately, 
the recent trend shows that does not appear to be the case. So, 
no matter how you slice it or dice it, the trend it what is 
important, and the trend is moving in the wrong direction at 
this time.
    Mr. Shimkus. And you went right in to the follow-up 
question. And, just based upon the fiscal year's of 1996 and 
1997, you are, then, saying that the spending going to 
contractors for cleanup has gone down. Can you tell me what the 
projection is for the fiscal year 1998?
    Mr. Guerrero. Very preliminary information suggests that it 
is continuing to decline.
    Mr. Shimkus. Thank you, Mr. Chairman. I will yield back.
    Mr. Oxley. Thank you, gentlemen. Thank you both for your 
patience and your excellent testimony. We appreciate your 
indulgence. And, the subcommittee stands adjourned.
    [Whereupon, at 5:35 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]



    [GRAPHIC] [TIFF OMITTED] 60198.078
    
    [GRAPHIC] [TIFF OMITTED] 60198.079
    
    [GRAPHIC] [TIFF OMITTED] 60198.080
    
    [GRAPHIC] [TIFF OMITTED] 60198.081
    
    [GRAPHIC] [TIFF OMITTED] 60198.082
    
    [GRAPHIC] [TIFF OMITTED] 60198.083
    
    [GRAPHIC] [TIFF OMITTED] 60198.084
    
    [GRAPHIC] [TIFF OMITTED] 60198.085
    
    [GRAPHIC] [TIFF OMITTED] 60198.086
    
    [GRAPHIC] [TIFF OMITTED] 60198.087
    
    [GRAPHIC] [TIFF OMITTED] 60198.088
    
    [GRAPHIC] [TIFF OMITTED] 60198.089
    
    [GRAPHIC] [TIFF OMITTED] 60198.090
    
    [GRAPHIC] [TIFF OMITTED] 60198.091
    
    [GRAPHIC] [TIFF OMITTED] 60198.092
    
    [GRAPHIC] [TIFF OMITTED] 60198.093
    
    [GRAPHIC] [TIFF OMITTED] 60198.094
    
    [GRAPHIC] [TIFF OMITTED] 60198.095
    
    [GRAPHIC] [TIFF OMITTED] 60198.096
    
    [GRAPHIC] [TIFF OMITTED] 60198.097
    
    [GRAPHIC] [TIFF OMITTED] 60198.098
    
    [GRAPHIC] [TIFF OMITTED] 60198.099
    
    [GRAPHIC] [TIFF OMITTED] 60198.100
    
    [GRAPHIC] [TIFF OMITTED] 60198.101
    
    [GRAPHIC] [TIFF OMITTED] 60198.102
    
    [GRAPHIC] [TIFF OMITTED] 60198.103
    
    [GRAPHIC] [TIFF OMITTED] 60198.104
    
    [GRAPHIC] [TIFF OMITTED] 60198.105
    
    [GRAPHIC] [TIFF OMITTED] 60198.106
    
    [GRAPHIC] [TIFF OMITTED] 60198.107
    
    [GRAPHIC] [TIFF OMITTED] 60198.108
    
    [GRAPHIC] [TIFF OMITTED] 60198.109
    
    [GRAPHIC] [TIFF OMITTED] 60198.110
    
    [GRAPHIC] [TIFF OMITTED] 60198.111
    
    [GRAPHIC] [TIFF OMITTED] 60198.112
    
    [GRAPHIC] [TIFF OMITTED] 60198.113
    
    [GRAPHIC] [TIFF OMITTED] 60198.114
    
    [GRAPHIC] [TIFF OMITTED] 60198.115
    
    [GRAPHIC] [TIFF OMITTED] 60198.116
    
    [GRAPHIC] [TIFF OMITTED] 60198.117
    
    [GRAPHIC] [TIFF OMITTED] 60198.118
    
    [GRAPHIC] [TIFF OMITTED] 60198.119
    
    [GRAPHIC] [TIFF OMITTED] 60198.120
    
    [GRAPHIC] [TIFF OMITTED] 60198.121
    
    [GRAPHIC] [TIFF OMITTED] 60198.122
    
    [GRAPHIC] [TIFF OMITTED] 60198.123
    
    [GRAPHIC] [TIFF OMITTED] 60198.124
    
    [GRAPHIC] [TIFF OMITTED] 60198.125
    
    [GRAPHIC] [TIFF OMITTED] 60198.126
    
    [GRAPHIC] [TIFF OMITTED] 60198.127
    
    [GRAPHIC] [TIFF OMITTED] 60198.128
    
    [GRAPHIC] [TIFF OMITTED] 60198.129
    
    [GRAPHIC] [TIFF OMITTED] 60198.130
    
    [GRAPHIC] [TIFF OMITTED] 60198.131
    
    [GRAPHIC] [TIFF OMITTED] 60198.132
    
    [GRAPHIC] [TIFF OMITTED] 60198.133
    
    [GRAPHIC] [TIFF OMITTED] 60198.134
    
    [GRAPHIC] [TIFF OMITTED] 60198.135
    
    [GRAPHIC] [TIFF OMITTED] 60198.136
    
    [GRAPHIC] [TIFF OMITTED] 60198.137
    
    [GRAPHIC] [TIFF OMITTED] 60198.138
    
    [GRAPHIC] [TIFF OMITTED] 60198.139
    
    [GRAPHIC] [TIFF OMITTED] 60198.140
    
    [GRAPHIC] [TIFF OMITTED] 60198.141
    
    [GRAPHIC] [TIFF OMITTED] 60198.142
    
    [GRAPHIC] [TIFF OMITTED] 60198.143
    
    [GRAPHIC] [TIFF OMITTED] 60198.144
    
    [GRAPHIC] [TIFF OMITTED] 60198.145
    
    [GRAPHIC] [TIFF OMITTED] 60198.146
    
    [GRAPHIC] [TIFF OMITTED] 60198.147
    
    [GRAPHIC] [TIFF OMITTED] 60198.148
    
    [GRAPHIC] [TIFF OMITTED] 60198.149
    
    [GRAPHIC] [TIFF OMITTED] 60198.150
    
    [GRAPHIC] [TIFF OMITTED] 60198.151
    
    [GRAPHIC] [TIFF OMITTED] 60198.152
    
    [GRAPHIC] [TIFF OMITTED] 60198.153
    
    [GRAPHIC] [TIFF OMITTED] 60198.154
    
    [GRAPHIC] [TIFF OMITTED] 60198.155
    
    [GRAPHIC] [TIFF OMITTED] 60198.156
    
    [GRAPHIC] [TIFF OMITTED] 60198.157
    
    [GRAPHIC] [TIFF OMITTED] 60198.158
    
    [GRAPHIC] [TIFF OMITTED] 60198.159
    
    [GRAPHIC] [TIFF OMITTED] 60198.160
    
    [GRAPHIC] [TIFF OMITTED] 60198.161
    
    [GRAPHIC] [TIFF OMITTED] 60198.162
    
    [GRAPHIC] [TIFF OMITTED] 60198.163
    
    [GRAPHIC] [TIFF OMITTED] 60198.164
    
    [GRAPHIC] [TIFF OMITTED] 60198.165
    
    [GRAPHIC] [TIFF OMITTED] 60198.166
    
    [GRAPHIC] [TIFF OMITTED] 60198.167
    
    [GRAPHIC] [TIFF OMITTED] 60198.168
    
    [GRAPHIC] [TIFF OMITTED] 60198.169
    
    [GRAPHIC] [TIFF OMITTED] 60198.170
    
    [GRAPHIC] [TIFF OMITTED] 60198.171
    
    [GRAPHIC] [TIFF OMITTED] 60198.172
    
    [GRAPHIC] [TIFF OMITTED] 60198.173
    
    [GRAPHIC] [TIFF OMITTED] 60198.174
    
    [GRAPHIC] [TIFF OMITTED] 60198.175
    
    [GRAPHIC] [TIFF OMITTED] 60198.176
    
    [GRAPHIC] [TIFF OMITTED] 60198.177
    
    [GRAPHIC] [TIFF OMITTED] 60198.178
    
    [GRAPHIC] [TIFF OMITTED] 60198.179
    
    [GRAPHIC] [TIFF OMITTED] 60198.180
    
    [GRAPHIC] [TIFF OMITTED] 60198.181
    
    [GRAPHIC] [TIFF OMITTED] 60198.182
    
    [GRAPHIC] [TIFF OMITTED] 60198.183
    
    [GRAPHIC] [TIFF OMITTED] 60198.184
    
    [GRAPHIC] [TIFF OMITTED] 60198.185
    
    [GRAPHIC] [TIFF OMITTED] 60198.186
    
    [GRAPHIC] [TIFF OMITTED] 60198.187
    
    [GRAPHIC] [TIFF OMITTED] 60198.188
    
    [GRAPHIC] [TIFF OMITTED] 60198.189
    
    [GRAPHIC] [TIFF OMITTED] 60198.190
    
    [GRAPHIC] [TIFF OMITTED] 60198.191
    
    [GRAPHIC] [TIFF OMITTED] 60198.192
    
    [GRAPHIC] [TIFF OMITTED] 60198.193
    
    [GRAPHIC] [TIFF OMITTED] 60198.194
    
    [GRAPHIC] [TIFF OMITTED] 60198.195
    
    [GRAPHIC] [TIFF OMITTED] 60198.196
    
    [GRAPHIC] [TIFF OMITTED] 60198.197
    
    [GRAPHIC] [TIFF OMITTED] 60198.198
    
    [GRAPHIC] [TIFF OMITTED] 60198.199
    
    [GRAPHIC] [TIFF OMITTED] 60198.200
    
    [GRAPHIC] [TIFF OMITTED] 60198.201
    
    [GRAPHIC] [TIFF OMITTED] 60198.202
    
    [GRAPHIC] [TIFF OMITTED] 60198.203
    
    [GRAPHIC] [TIFF OMITTED] 60198.204
    
    [GRAPHIC] [TIFF OMITTED] 60198.205
    
    [GRAPHIC] [TIFF OMITTED] 60198.206
    
    [GRAPHIC] [TIFF OMITTED] 60198.207
    
    [GRAPHIC] [TIFF OMITTED] 60198.208
    
    [GRAPHIC] [TIFF OMITTED] 60198.209
    
    [GRAPHIC] [TIFF OMITTED] 60198.210
    
    [GRAPHIC] [TIFF OMITTED] 60198.211
    
    [GRAPHIC] [TIFF OMITTED] 60198.212
    
    [GRAPHIC] [TIFF OMITTED] 60198.213
    
    [GRAPHIC] [TIFF OMITTED] 60198.214
    
    [GRAPHIC] [TIFF OMITTED] 60198.215
    
    [GRAPHIC] [TIFF OMITTED] 60198.216
    
    [GRAPHIC] [TIFF OMITTED] 60198.217
    
    [GRAPHIC] [TIFF OMITTED] 60198.218
    
    [GRAPHIC] [TIFF OMITTED] 60198.219
    
    [GRAPHIC] [TIFF OMITTED] 60198.220
    
    [GRAPHIC] [TIFF OMITTED] 60198.221
    
    [GRAPHIC] [TIFF OMITTED] 60198.222
    
    [GRAPHIC] [TIFF OMITTED] 60198.223
    
    [GRAPHIC] [TIFF OMITTED] 60198.224
    
    [GRAPHIC] [TIFF OMITTED] 60198.225
    
    [GRAPHIC] [TIFF OMITTED] 60198.226
    
    [GRAPHIC] [TIFF OMITTED] 60198.227
    
    [GRAPHIC] [TIFF OMITTED] 60198.228
    
    [GRAPHIC] [TIFF OMITTED] 60198.229
    
    [GRAPHIC] [TIFF OMITTED] 60198.230
    
    [GRAPHIC] [TIFF OMITTED] 60198.231
    
    [GRAPHIC] [TIFF OMITTED] 60198.232
    
    [GRAPHIC] [TIFF OMITTED] 60198.233
    
    [GRAPHIC] [TIFF OMITTED] 60198.234
    
    [GRAPHIC] [TIFF OMITTED] 60198.235
    
    [GRAPHIC] [TIFF OMITTED] 60198.236
    
    [GRAPHIC] [TIFF OMITTED] 60198.237
    
    [GRAPHIC] [TIFF OMITTED] 60198.238
    
    [GRAPHIC] [TIFF OMITTED] 60198.239
    
    [GRAPHIC] [TIFF OMITTED] 60198.240
    
    [GRAPHIC] [TIFF OMITTED] 60198.241
    
    [GRAPHIC] [TIFF OMITTED] 60198.242
    
    [GRAPHIC] [TIFF OMITTED] 60198.243
    
    [GRAPHIC] [TIFF OMITTED] 60198.244
    
    [GRAPHIC] [TIFF OMITTED] 60198.245
    
    [GRAPHIC] [TIFF OMITTED] 60198.246
    
    [GRAPHIC] [TIFF OMITTED] 60198.247
    
    [GRAPHIC] [TIFF OMITTED] 60198.248
    
    [GRAPHIC] [TIFF OMITTED] 60198.249
    
    [GRAPHIC] [TIFF OMITTED] 60198.250
    
    [GRAPHIC] [TIFF OMITTED] 60198.251
    
    [GRAPHIC] [TIFF OMITTED] 60198.252
    
    [GRAPHIC] [TIFF OMITTED] 60198.253
    
    [GRAPHIC] [TIFF OMITTED] 60198.254
    
    [GRAPHIC] [TIFF OMITTED] 60198.255
    
    [GRAPHIC] [TIFF OMITTED] 60198.256
    
    [GRAPHIC] [TIFF OMITTED] 60198.257
    
    [GRAPHIC] [TIFF OMITTED] 60198.258
    
    [GRAPHIC] [TIFF OMITTED] 60198.259
    
    [GRAPHIC] [TIFF OMITTED] 60198.260
    
    [GRAPHIC] [TIFF OMITTED] 60198.261
    
    [GRAPHIC] [TIFF OMITTED] 60198.262
    
    [GRAPHIC] [TIFF OMITTED] 60198.263
    
    [GRAPHIC] [TIFF OMITTED] 60198.264
    
    [GRAPHIC] [TIFF OMITTED] 60198.265
    
    [GRAPHIC] [TIFF OMITTED] 60198.266
    
    [GRAPHIC] [TIFF OMITTED] 60198.267
    
    [GRAPHIC] [TIFF OMITTED] 60198.268
    
    [GRAPHIC] [TIFF OMITTED] 60198.269
    
    [GRAPHIC] [TIFF OMITTED] 60198.270
    
    [GRAPHIC] [TIFF OMITTED] 60198.271
    
    [GRAPHIC] [TIFF OMITTED] 60198.272
    
    [GRAPHIC] [TIFF OMITTED] 60198.273
    
    [GRAPHIC] [TIFF OMITTED] 60198.274
    
    [GRAPHIC] [TIFF OMITTED] 60198.275
    
    [GRAPHIC] [TIFF OMITTED] 60198.276
    
    [GRAPHIC] [TIFF OMITTED] 60198.277
    
    [GRAPHIC] [TIFF OMITTED] 60198.278
    
    [GRAPHIC] [TIFF OMITTED] 60198.279
    
    [GRAPHIC] [TIFF OMITTED] 60198.280
    
    [GRAPHIC] [TIFF OMITTED] 60198.281
    
    [GRAPHIC] [TIFF OMITTED] 60198.282
    
    [GRAPHIC] [TIFF OMITTED] 60198.283
    
    [GRAPHIC] [TIFF OMITTED] 60198.284
    
    [GRAPHIC] [TIFF OMITTED] 60198.285
    
    [GRAPHIC] [TIFF OMITTED] 60198.286
    
    [GRAPHIC] [TIFF OMITTED] 60198.287
    
    [GRAPHIC] [TIFF OMITTED] 60198.288
    
    [GRAPHIC] [TIFF OMITTED] 60198.289
    
    [GRAPHIC] [TIFF OMITTED] 60198.290
    
    [GRAPHIC] [TIFF OMITTED] 60198.291
    
    [GRAPHIC] [TIFF OMITTED] 60198.292
    
    [GRAPHIC] [TIFF OMITTED] 60198.293
    
    [GRAPHIC] [TIFF OMITTED] 60198.294
    
    [GRAPHIC] [TIFF OMITTED] 60198.295
    
    [GRAPHIC] [TIFF OMITTED] 60198.296
    
    [GRAPHIC] [TIFF OMITTED] 60198.297
    
    [GRAPHIC] [TIFF OMITTED] 60198.298
    
    [GRAPHIC] [TIFF OMITTED] 60198.299
    
    [GRAPHIC] [TIFF OMITTED] 60198.300
    
    [GRAPHIC] [TIFF OMITTED] 60198.301
    
    [GRAPHIC] [TIFF OMITTED] 60198.302
    
    [GRAPHIC] [TIFF OMITTED] 60198.303
    
    [GRAPHIC] [TIFF OMITTED] 60198.304
    
    [GRAPHIC] [TIFF OMITTED] 60198.305
    
    [GRAPHIC] [TIFF OMITTED] 60198.306
    
    [GRAPHIC] [TIFF OMITTED] 60198.307
    
    [GRAPHIC] [TIFF OMITTED] 60198.308
    
    [GRAPHIC] [TIFF OMITTED] 60198.309
    
    [GRAPHIC] [TIFF OMITTED] 60198.310
    
    [GRAPHIC] [TIFF OMITTED] 60198.311
    
    [GRAPHIC] [TIFF OMITTED] 60198.312
    
    [GRAPHIC] [TIFF OMITTED] 60198.313
    
    [GRAPHIC] [TIFF OMITTED] 60198.314
    
    [GRAPHIC] [TIFF OMITTED] 60198.315
    
    [GRAPHIC] [TIFF OMITTED] 60198.316
    
    [GRAPHIC] [TIFF OMITTED] 60198.317
    
    [GRAPHIC] [TIFF OMITTED] 60198.318
    
    [GRAPHIC] [TIFF OMITTED] 60198.319
    
    [GRAPHIC] [TIFF OMITTED] 60198.320
    
    [GRAPHIC] [TIFF OMITTED] 60198.321
    
    [GRAPHIC] [TIFF OMITTED] 60198.322
    
    [GRAPHIC] [TIFF OMITTED] 60198.323
    
    [GRAPHIC] [TIFF OMITTED] 60198.324
    
    [GRAPHIC] [TIFF OMITTED] 60198.325
    
    [GRAPHIC] [TIFF OMITTED] 60198.326
    
    [GRAPHIC] [TIFF OMITTED] 60198.327
    

</pre></body></html>
